<html>
<title> - U.S. DEPARTMENT OF VETERANS AFFAIRS' VOCATIONAL REHABILITATION AND EMPLOYMENT PROGRAM BUDGET AND VR&E NATIONAL COUNSELING CONTRACT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                  U.S. DEPARTMENT OF VETERANS AFFAIRS' 
                     VOCATIONAL REHABILITATION AND 
                   EMPLOYMENT PROGRAM BUDGET AND VR&E 
                      NATIONAL COUNSELING CONTRACT 

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 31, 2011

                               __________

                            Serial No. 112-6


                               __________

       Printed for the use of the Committee on Veterans' Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

65-872 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 































                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

GUS M. BILIRAKIS, Florida            BOB FILNER, California, Ranking
CLIFF STEARNS, Florida               CORRINE BROWN, Florida
DOUG LAMBORN, Colorado               SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
DAN BENISHEK, Michigan               LINDA T. SANCHEZ, California
ANN MARIE BUERKLE, New York          BRUCE L. BRALEY, Iowa
JEFF DENHAM, California              JERRY McNERNEY, California
BILL FLORES, Texas                   JOE DONNELLY, Indiana
TIM HUELSKAMP, Kansas                TIMOTHY J. WALZ, Minnesota
BILL JOHNSON, Ohio                   JOHN BARROW, Georgia
JON RUNYAN, New Jersey               RUSS CARNAHAN, Missouri
MARLIN A. STUTZMAN, Indiana
Vacancy
Vacancy

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

                  Subcommittee on Economic Opportunity

                 MARLIN A. STUTZMAN, Indiana, Chairman

GUS M. BILIRAKIS, Florida            BRUCE A. BRALEY, Iowa, Ranking
BILL JOHNSON, Ohio                   LINDA T. SANCHEZ, California
TIM HUELSKAMP, Kansas                TIMOTHY J. WALZ, Minnesota
JEFF DENHAM, California

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.























                            C O N T E N T S

                               __________

                             March 31, 2011

                                                                   Page
U.S. Department of Veterans Affairs' Vocational Rehabilitation 
  and Employment Program Budget and VR&E National Counseling 
  Contract.......................................................     1

                           OPENING STATEMENTS

Chairman Marlin A. Stutzman......................................     1
    Prepared statement of Chairman Stutzman......................    35
Hon. Bruce L. Braley, Ranking Republican Member..................     2
    Prepared statement of Congressman Braley.....................    35

                               WITNESSES

U.S. Department of Labor, John M. McWilliam, Deputy Assistant 
  Secretary for Operations and Management, Veterans' 
  Employment and Training Service................................    19
    Prepared statement of Mr. McWilliam..........................    47
U.S. Department of Veterans Affairs, Ruth A. Fanning, Director, 
  Vocational Rehabilitation and Employment Service, Veterans 
  Benefits Administration........................................    20
    Prepared statement of Ms. Fanning............................    49

                                 ______

+Disabled American Veterans, John L. Wilson, Assistant National 
  Legislative Director...........................................     6
    Prepared statement of Mr. Wilson.............................    40
Paralyzed Veterans of America, Richard C. Daley, Associate 
  Legislation
  Director.......................................................     7
    Prepared statement of Mr. Daley..............................    45
VetsFirst, a Program of United Spinal Association, Heather L. 
  Ansley, Esq., MSW, Director of Veterans Policy.................     4
    Prepared statement of Ms. Ansley.............................    36

                       SUBMISSION FOR THE RECORD

Denham, Hon. Jeff, a Representative in Congress from the State of 
  California, statement..........................................    53

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:
    Hon. Bruce L. Braley, Ranking Democratic Member, Subcommittee 
      on Economic Opportunity, Committee on Veterans' Affairs, to 
      Heather L. Ansley, Esq., MSW. Director of Veterans Policy, 
      VetsFirst, a Program of United Spinal Association, letter 
      dated April 4, 2011, and response letter dated May 12, 2011    54
    Hon. Bruce L. Braley, Ranking Democratic Member, Subcommittee 
      on Economic Opportunity, Committee on Veterans' Affairs, to 
      John L. Wilson, Assistant National Legislative Director, 
      Disabled American Veterans, letter dated April 4, 2011, and 
      DAV's responses............................................    56
    Hon. Bruce L. Braley, Ranking Democratic Member, Subcommittee 
      on Economic Opportunity, Committee on Veterans' Affairs, to 
      Richard C. Daley, Associate Legislation Director, Paralyzed 
      Veterans of America, letter dated April 4, 2011, and 
      response letter dated May 13, 2011.........................    58
    Hon. Bruce L. Braley, Ranking Democratic Member, Subcommittee 
      on Economic Opportunity, Committee on Veterans' Affairs, to 
      John M. McWilliam, Deputy Assistant Secretary for 
      Operations and Management, Veterans' Employment and 
      Training Service, U.S. Department of Labor, letter dated 
      April 4, 2011, and response from Hon. Brian V. Kennedy, 
      Assistant Secretary for Congressional and Intergovernmental 
      Affairs, U.S. Department of Labor..........................    60
    Hon. Bruce L. Braley, Ranking Democratic Member, Subcommittee 
      on Economic Opportunity, Committee on Veterans' Affairs, to 
      Ruth A. Fanning, Director, Vocational Rehabilitation and 
      Employment Service, Veterans Benefits Administration, U.S. 
      Department of Veterans Affairs, letter dated April 4, 2011, 
      and VA responses...........................................    62


                  U.S. DEPARTMENT OF VETERANS AFFAIRS'
                     VOCATIONAL REHABILITATION AND
                   EMPLOYMENT PROGRAM BUDGET AND VR&E
                      NATIONAL COUNSELING CONTRACT

                              ----------                              


                        THURSDAY, MARCH 31, 2011

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:08 a.m., in 
Room 334, Cannon House Office Building, Hon. Marlin A. Stutzman 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Stutzman, Huelskamp, Braley, San-
chez, and Walz.

             OPENING STATEMENT OF CHAIRMAN STUTZMAN

    Mr. Stutzman. Good morning. Welcome to the Subcommittee on 
Economic Opportunity of the Committee on Veterans' Affairs. 
Welcome to everyone here and thank you for your time this 
morning, and we are looking forward to the testimony and the 
opportunity to work together and solve some of the issues that 
are in front of us. So we are here today to review the U.S. 
Department of Veterans Affairs (VA) budget for the Vocational 
Rehabilitation and Employment (VR&E) Program, as well as the 
Department's progress in implementing a new national contract 
for counseling services. Let me begin by mentioning my concern 
about the average 130 to 150 caseload carried by each 
Vocational Rehabilitation and Employment counselor. To put it 
succinctly, I believe that is way too high and that is why I 
support the Committee's Views and Estimates to the Budget 
Committee suggesting a shift in funding to provide 50 more 
counseling staff.
    Clearly the Members of this Committee support the concept 
of vocational rehabilitation as a means to return to the 
workforce or be rehabilitated as part of the independent living 
program. However, the Department has been somewhat cavalier in 
implementing the provisions in Section 334 of Public Law 110-
389 that require the VA to conduct a study of at least 20 
years' duration of three cohorts of VR&E participants. It is my 
understanding that after completing an initial contract to 
begin the study, the VA has not funded the effort. I find that 
unsatisfactory in light of the generous budgets given to the VA 
since passage of that law.
    As a reminder, Congress included the study because little 
is known about the outcomes of those participating in VR&E. For 
example, the Veterans Benefits Administration's (VBA's) fiscal 
year 2010 annual benefits report includes such relevant 
information on VR&E participants as how many come from each 
military service. But totally lacking is any information 
describing why, of the nearly 70,000 applicants, 66,000 were 
found to be eligible to VR&E and 41,000 were found to be 
entitled to VR&E benefits in fiscal year 2010. There is no 
information on how many of those 41,000 continued in the 
program.
    Further, there is no information on why thousands chose not 
to participate. Without such data, how is Congress to determine 
what changes to the law would increase, or would decrease the 
dropout rate. There is an old saying in business: if you do not 
measure it, you cannot manage it. And unfortunately, I believe 
that the Department's reluctance to fully implement Public Law 
110-389 does not improve the current shortage of data.
    I would also note that the VBA report presents 
contradictory data for VR&E. On several pages, VA indicates 
that just over 117,000 veterans participate in the VR&E. 
However, on page 70 of the report, VA counts 60,522 veterans 
participating in a vocational training program. What are the 
other 57,000 doing?
    Finally there is an issue of the rate of rehabilitation. 
The VA states that 10,038 veterans were rehabilitated in fiscal 
year 2010. I believe that given the significant portion 
attending long-term education and training, as well as the 
nature of participants' disabilities, that is a reasonable 
number. However, it is not 76 percent of those in the VR&E 
program. I am told that this has been an issue for years. And a 
U.S. Government Accountability Office (GAO) report states that 
a proper accounting should produce a rate of about 18 percent. 
So I would encourage the VA to rethink whatever accounting 
formula there is that we are not forced to provide them with a 
mandatory formula.
    Again, I welcome all of our witnesses and I look forward to 
the distinguished Ranking Member's remarks. So at this time I 
will yield to him, Mr. Braley.
    [The prepared statement of Congressman Stutzman appears on 
p. 35.]

           OPENING STATEMENT OF HON. BRUCE L. BRALEY

    Mr. Braley. Mr. Chairman, thank you for holding this 
hearing today and I share many of the concerns that you have 
outlined. In past hearings, the Department of Veterans Affairs 
Rehabilitation and Employment program has been referred to as 
one of the VA's crown jewels because of the critical services 
and rehabilitation programs it provides. This program has the 
potential to become one of the best programs under the Veterans 
Administration.
    Over the years, the VR&E program has grown and has become 
more comprehensive through legislation to better fulfill its 
mission, such as what Public Law 111-377 did as it aligned some 
of the education benefits under the Post-9/11 GI Bill. Most 
recently, it has been going through a transformation as it is 
being branded as the VR&E VetSuccess program.
    Today, we will hear about VR&E's successes and failures, 
from the VetSuccess on Campus to the national acquisition 
strategy. Since the VR&E provides assistance to service-
disabled veterans seeking to obtain employment and independent 
living, it is crucial that we analyze their budget request for 
fiscal year 2012 and evaluate their resources, operations, and 
performance measures.
    The VR&E program is unique in that it requires personal 
interactions with the veteran to deliver services. The 
vocational rehabilitation counselor plays a vital role in this 
key interaction with veterans. In the initial meeting between 
the VR&E counselor and the veteran, a determination is made as 
to whether the veteran suffers from an employment handicap. And 
I know from personal experiences this is an absolutely critical 
threshold measure in helping people of any background to obtain 
employment when they are coping with some sort of disability.
    Eventually the counselor develops a personalized plan to 
address the veteran's rehabilitation and employment needs. That 
is why it is extremely important that we address the current 
ratio of counselors to veterans to see if it is appropriate, 
and the Chairman has already discussed that.
    I would also like to discuss how often veterans complete 
their rehabilitation plan, as well as learning what may have 
deterred some veterans from completing the rehabilitation plan.
    I also have concerns over current VR&E data gathering 
methodology. In fiscal year 2009, there were 110,750 
participants with 11,022 rehabilitated. In fiscal year 2010, 
there were 117,130 participants with 10,038 rehabilitated. What 
alarms me is that even while the number of participants has 
increased the number of rehabilitated veterans has decreased. I 
also question whether the number of participants in the program 
is misleading due to VA's definition of a participant. 
Currently, any veteran that has applied to the program but has 
never actually realized a rehabilitation plan is considered a 
participant. For example, if after submitting an application 
the veteran decides this program is not suitable for them, the 
application is still included in the participation rate. In 
fiscal year 2010, the number of actual participants in some 
type of training program under VR&E was 60,522. The data 
gathering method is inaccurate and that bothers me because 
these statistics are an essential tool to measuring the 
effectiveness of this program. And Director Fanning, I hope 
that you will address this concern for us today.
    The other initiative that I look forward to learning more 
about is VR&E's national acquisition contract and how 
successfully VA will work with contractors to avoid the same 
mistakes from nearly 2 years ago. Providing the vocational 
rehabilitation services a veteran needs can be a challenging 
issue, and avoiding problems with contractors who are unable to 
meet contract services can prevent veterans from achieving 
their rehabilitation plan.
    We have noticed that work at VR&E has been increasing. I 
hope that the Veterans Administration can reassure us today 
that their fiscal year 2012 budget request will support the 
15.5 percent increase in the VR&E workload.
    Again thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Congressman Braley appears on p. 
35.]
    Mr. Stutzman. Thank you, Mr. Braley. Mr. Denham had 
submitted opening remarks. If there is no objection we can just 
submit those for the record. Okay, thank you.
    [The prepared statement of Congressman Denham appears on
p. 53.]
    Mr. Stutzman. Okay, thank you. And then also any other 
Members would like to make any opening remarks? Okay, thank 
you. At this time we will go to witnesses. And our first 
witness for today on the first panel, Ms. Heather Ansley. She 
is the Director of Veterans Policy, that is with VetsFirst. And 
I welcome you to the table, as well as Mr. Wilson, and Mr. 
Daley. Thank you for being here, and we look forward to your 
testimony. And Ms. Ansley, we will begin with you. Thank you.

    STATEMENTS OF HEATHER L. ANSLEY, ESQ., MSW, DIRECTOR OF 
    VETERANS POLICY, VETSFIRST, A PROGRAM OF UNITED SPINAL 
  ASSOCIATION; JOHN L. WILSON, ASSISTANT NATIONAL LEGISLATIVE 
  DIRECTOR, DISABLED AMERICAN VETERANS; AND RICHARD C. DALEY, 
 ASSOCIATE LEGISLATION DIRECTOR, PARALYZED VETERANS OF AMERICA

           STATEMENT OF HEATHER L. ANSLEY, ESQ., MSW

    Ms. Ansley. Chairman Stutzman, Ranking Member Braley, 
Congressman Walz, and distinguished Members of the 
Subcommittee, thank you for inviting VetsFirst to share our 
views and recommendations regarding the Department of Veterans 
Affairs' Vocational Rehabilitation and Employment Program 
budget and operations. VetsFirst strongly believes that VR&E's 
services are critical to helping eligible disabled 
servicemembers and veterans receive the skills and training 
necessary to help them reintegrate into their families and 
communities.
    Specifically, VR&E's services provide these individuals 
with the opportunity to return to or remain in the workforce. 
The opportunity to participate in the workforce is critical 
because employment provides people with both financial and 
social benefits that contribute to an enhanced sense of purpose 
and higher quality of life.
    As a result of the Wars in Iraq and Afghanistan, and the 
current state of the economy, the number of veterans that are 
requesting and receiving VR&E services is forecasted to 
steadily increase. Compounded by an unemployment rate of almost 
9 percent across all sectors, higher for Operation Enduring 
Freedom/Operation Iraqi Freedom (OEF/OIF) veterans, competition 
for employment opportunities is harder than ever. VR&E services 
provide veterans with the 
competitive edge needed for precious employment opportunities.
    It is vital to the success of VR&E that Congress ensure 
continued investment and proper resource allocation to this 
program. Veterans with disabilities must be able to receive the 
services and resources critical to ensuring that they 
successfully complete and excel in their rehabilitation. 
Although VR&E has increased its workforce in recent years, 
VetsFirst remains concerned that VR&E lacks a sufficient number 
of employees. VR&E must have an appropriate number of properly 
trained personnel capable of ensuring eligible veterans gain 
timely entrance to services, and once enrolled can dedicate the 
time needed to work with individual veterans in the 
development, implementation, and completion of their 
rehabilitation plans. Ensuring VR&E has the staff needed to 
assist veterans in returning to the workforce is a critical 
aspect of helping veterans with disabilities to reestablish 
their identity as a productive citizen. Furthermore, VetsFirst 
believes that there are still other barriers preventing 
veterans from receiving services. Specifically the arbitrary 
timeline for eligibility for VR&E services and the cap for 
independent living services must be eliminated.
    Services that seek to return veterans to the workforce and 
allow them to live independently should be heavily encouraged. 
Veterans who are initially eligible may not need the services 
until after the 12-year delimiting period has expired. Even 
though applications filed outside of this period may be 
accepted if the veteran has a serious employment handicap, 
potentially eligible veterans may believe that they will not be 
accepted and may thus not apply.
    Similarly VetsFirst believes that the cap for independent 
living services should be eliminated. For veterans needing the 
skills and resources to allow them to live independently VR&E 
services are critical. Although it may appear that demand does 
not exceed the cap, its mere existence requires careful 
management to ensure that the veterans who most need to 
participate in the independent living program are able to 
access the services when needed. The removal of the cap will 
ensure that veterans needing independent living services will 
not be delayed or denied in receiving those
services.
    VetsFirst also believes that VR&E should encourage as 
appropriate the full employment potential of every participant. 
Consequently, VetsFirst believes that VR&E's self-employment 
track should not be targeted only to those who have severe 
disabilities or require special accommodations.
    For veterans who seek employment through the traditional 
workforce, VR&E must provide increased follow-up to ensure that 
veterans have long-term employment success. VR&E must prepare a 
veteran not only for today's workforce but also anticipate the 
demands of tomorrow's workplace.
    To assist veterans in obtaining the right types of 
employment, VR&E has worked to increase collaboration with 
other agencies and organizations that provide employment and 
rehabilitation assistance for both veterans and people with 
disabilities. VetsFirst is pleased that VR&E has recently been 
in the process of working with the Rehabilitation Services 
Administration with the Department of Education. Formalizing a 
connection between VR&E and State rehabilitation agencies is 
critical to ensuring that veterans with disabilities receive 
the services that they need to help them return to or remain in 
the workforce.
    Again, thank you for the opportunity to share VetsFirst's 
views on VA's VR&E program budget and operations. This 
concludes my testimony and I look forward to answering any 
questions that you may have.
    [The prepared statement of Ms. Ansley appears on p. 36.]
    Mr. Stutzman. Okay, thank you very much. I believe we will 
go ahead and receive testimony from the rest of the panel and 
then we will move into questions. Next we have Mr. John Wilson, 
Assistant National Legislative Director for the Disabled 
American Veterans (DAV). Thank you for being here and I look 
forward to your testimony.

                  STATEMENT OF JOHN L. WILSON

    Mr. Wilson. Thank you, sir. Mr. Chairman and Members of the 
Subcommittee, I am glad to be here this morning on behalf of 
Disabled American Veterans to address the fiscal year 2012 
budget and operations of the Department of Veterans Affairs 
Vocational and Rehabilitation Employment Service. First, the 
fiscal year 2012 budget.
    We were pleased with the Committee's Views and Estimates, 
which recognize that with the projected caseload increase of 
over 10,000 the 129 full-time equivalent (FTE) increase called 
for in the President's budget would do little to positively 
impact the average caseload of between 135 to 150 veterans per 
counselor. The recommendation to reallocate $5.5 million from 
the general administration account to support 50 additional 
VR&E counselors recognizes the continued demand for these 
important services, which dictates a larger staff sized to 
respond to that demand. In accordance with DAV Resolution #307, 
which seeks increased VR&E staffing, DAV and our Independent 
Budget coauthors support the Committee's Views and Estimates 
call for an increase in VR&E staff to 179 FTE in fiscal year 
2012.
    The second area to address is the operation of VR&E and 
ways it could be improved. We encourage Congress to continue to 
monitor the results of VR&E's ongoing Business Process 
Reengineering Initiative, or BPR, that it began in February, 
2010. The BPR contractors are conducting a work measurement and 
skill study focused on streamlining processes and paperwork, 
redefining roles and metrics, as well as leveraging technology 
to improve delivery of services. Once completed, we encourage 
Congress to provide the necessary funding for any identified 
staffing needs and targeted training in core competencies as 
well as possible legislative remedies.
    While the BPR is an important initiative in the near term, 
we see the longitudinal study Congress mandated with the 
passage of the Veterans' Benefits Act of 2008 as equally 
important in the long term. This study has the potential to 
provide insight on the effectiveness of the VR&E program, its 
delivery of services, staff size, level of expertise, ongoing 
staff training requirements, optimum service delivery 
mechanisms, and the accuracy of the reporting outcomes that the 
Chairman and the Ranking Member talked about earlier. Such 
information could certainly guide future legislation and policy 
decisions for this critical program. Unfortunately, while the 
first reports are due to Congress on July 1st of this year this 
study remains unfunded. We agree that a longitudinal study is 
needed and, therefore, urge Congress to appropriate the 
necessary funds to support this effort.
    The last area I wish to address has to do with the delivery 
of VR&E's services, as well as all VA programs designed to 
enhance the economic security of veterans, specifically those 
focused on employment, education, and business assistance. In 
accordance with DAV resolution number 306, and the 
recommendation of the fiscal year 2012 Independent Budget (IB), 
we call for the reorganization of all such programs within a 
single new administration, the Veterans Economic Opportunity 
Administration.
    While all Americans face challenges during economic 
downturns, veterans are particularly hard hit. Statistics 
clearly illustrate the struggle that veterans face in 
transitioning from military service to civilian life. 
Unemployment statistics for February 2011 reveal an overall 
unemployment rate of 9.2 percent for all veterans, and 12.5 
percent for veterans from the Iraq and Afghanistan conflicts. 
While there is some improvement from the March 2010 
unemployment rate of 14.7 percent for this second group, it is 
still higher than the national average. On any given night it 
is estimated that there are 79,000 homeless veterans. While 
this number has decreased in recent years it is still too high.
    Congress approved an historic Post-9/11 GI Bill, but we 
know too well how VA has struggled to implement this program 
and deliver the benefit. Vocational rehabilitation programs for 
disabled veterans have failed to achieve adequate success rate, 
despite improvements in recent years. VA programs designed to 
provide assistance to veteran entrepreneurs have fallen short 
of expectations, in part due to a lack of funding and proper 
organization.
    In order for VA's programs that affect veterans' economic 
status to achieve better outcomes, DAV and our partners in the 
IB believe that the VR&E Service, the Education Service, the 
Office of Small and Disadvantaged Business Utilization, the 
Homeless Veterans Program Office, and Home Loan Guaranty should 
be housed under a new and separate administration, the Veterans 
Economic Opportunity Administration. Veterans programs have 
become more complex over the years and their dispersed nature 
has challenged senior management to effectively deliver the 
services for each program. Establishing a fourth administration 
within VA dedicated to creating economic opportunities for 
veterans would increase the visibility and accountability of 
all employment related programs. It would also allow an 
overburdened VBA to focus on the monumental task of reforming 
the disability claims processing system.
    That concludes my statement, Mr. Chairman. I would be 
pleased to respond to any questions that Subcommittee may have.
    [The prepared statement of Mr. Wilson appears on p. 40.]
    Mr. Stutzman. Thank you, Mr. Wilson. We will next move to 
Mr. Richard Daley, Associate Legislation Director for the 
Paralyzed Veterans of America (PVA). Mr. Daley. Thank you again 
for being here.

                 STATEMENT OF RICHARD C. DALEY

    Mr. Daley. Thank you, Chairman Stutzman, Ranking Member 
Braley, and Members of the Subcommittee. PVA is honored to 
participate in this hearing today to share our views on the 
VA's Vocational Rehabilitation and Employment Program. I have 
submitted our written testimony for the record and in the 
interest of time I will highlight just a few of our concerns.
    PVA is one of the coauthors of The Independent Budget, and 
along with the Disabled American Veterans, AMVETS, and the 
Veterans of Foreign Wars. So we do share in Mr. Wilson's 
concern about combining everything involved with economic 
development into one program sometime, but that is a big thing 
to tackle at this point. But in the latest edition for fiscal 
year 2012 Independent Budget we talk about the cap on the 
independent living program. This is an arbitrary cap that went 
from, originally, from 500 new disabled veterans per year in 
the year 2000 to, bumped it up to 2,500, then it was recently 
raised to 2,700 per year. Realizing the need for this program 
Congress did raise the independent living admissions knowing 
that there was a need for it. And this was always before there 
was any conflict with the two separate conflicts going on, and 
the Afghanistan issue having no end in sight. The independent 
living program will probably enroll 2,695 severely injured 
veterans for this year, just enough to come close to the cap. 
If Congress raised the cap to 4,000 for next year I am sure the 
VA could enroll 3,990 disabled veterans.
    If there was no cap, how many veterans, how many seriously 
injured veterans could benefit from this program? The 
independent living program has flexibility that is needed when 
working with seriously injured veterans that are not ready for 
employment. This program can help the maximize the quality of 
life and encourage independence in the veteran's daily living 
activities.
    Recently, I have heard from several service officers that 
they were disappointed in the Vocational Rehabilitation Program 
pertaining to the independent living program. This year the 
program is used to modify, has been used to make some 
modifications on seriously injured, or terminal Amyotrophic 
lateral sclerosis (ALS) patients. And the independent living 
program was used for this because of the rapid access to the 
funds. The VA has since changed their policies and you can no 
longer use the independent living program for the ALS veterans. 
So now they go through the standard Specially Adapted Housing 
(SAH) grant, which can take up to 12 months. And it should not 
take, but it does. So in many cases, probably more than half, 
the ALS veteran is dying before the house ever gets modified, 
before they can go back home and spend the last few months of 
their lives with their family members. So this is probably the 
correct use of the funds that is going through the proper 
program. But the speed that was available in using the 
independent living money was really appreciated by our service 
officers because they could get the independent living 
counselor to approve it, they could get a contractor that the 
VA has used before, that knows the VA's standards. They could 
make any modifications, they can be paid, and the veteran could 
be home in months. But now they go through the other procedure. 
That is only one of the issues that is of concern and I hear of 
it constantly. So it is an ongoing issue.
    That concludes my report. I will be available to answer any 
questions.
    [The prepared statement of Mr. Daley appears on p. 45.]
    Mr. Stutzman. Okay, thank you. We will move into questions 
now. And my first question would be to any of you, and maybe 
particularly to Ms. Ansley since you had mentioned the 12-year 
delimiting date. The law provides VA with significant 
flexibility about allowing veterans to participate in VR&E 
beyond the delimiting date. Do you have any evidence about how 
many veterans are being blocked from VR&E services because of 
their 12-year delimiting date? And anybody can answer that. Any 
other examples would be welcomed as well.
    Mr. Daley. I brought that up with one of our service 
officers and he said, well, most people do not know about the, 
after 12 years. You know? Just as if a lot of people do not 
know about the Vocational Rehabilitation program. Certainly 
they do not know about the independent living program because 
that is kind of the thing that has been tucked away, and they 
do not want people to know about it because they can use it for 
various things such as if the veteran needs a computer. They 
can go out and buy him a computer to start doing some work 
right now at his home.
    But it, I think that it is probably not used that much just 
because it is not advertised. If you do not know about it, you 
cannot say I need more than 12 years because of this reason. I 
need to apply and give me that exception.
    Mr. Stutzman. Any ideas how we can do a better job? How the 
Department could do a better job of reaching and advertising?
    Ms. Ansley. I think certainly we need to make sure that 
when veterans do become eligible that they are made aware that 
this program is available. VR&E's mission to make veterans able 
to return to employment, and to be independent. So that is 
definitely something that we should be promoting, regardless of 
whether or not it has been 12 years, or 13 years, or how many 
people may not be aware of it. I think just by definition of 
its mission it is something that we should always want to 
encourage, that people would want to be employed and 
independent. It is better for them. It is better for all of us.
    So I think that it goes along with the continued outreach, 
that we would like VA to have a better outreach in general to 
veterans about what is available. And then to veterans who are 
eligible for VR&E that they really understand what the services 
are that are available and how that it works. Because a form 
that you get, you know, with a bunch of other papers probably 
is not sufficient.
    Mr. Wilson. I would like to offer a comment as well. 
Approaching veterans and their survivors and dependents 
regarding the various benefits available to them becomes of 
interest to individuals who need the benefit when life's 
circumstances dictate the need. I may well get out of the 
military and have some disability that I could file for. But I 
do not necessarily do so until I find that in fact that 
disability impacts my self-image about what I can and cannot do 
in the workplace. As life goes on and I become older, and those 
disabilities become more complicated, again, impacting my 
ability to live life as I think I should. This prompts me to 
then request Vocational Rehabilitation and Employment 
assistance. Yet many times applicants have already exceeded the 
12-year limit. And this 12-year limit is arbitrary to the best 
of my recollection, from what I can determine. We do not place 
limits on veterans who file claims for compensation and 
pension. There is not a restriction, so why is there a 
restriction on using this particular VR&E benefit? Yes, a voc 
rehab counselor can say you have an employment handicap, and 
therefore, we can grant you an extension of services. But 
again, if I am not aware of it until life's circumstances 
dictate the need to reach out and find this assistance, I 
simply will not be looking for it. I only look for it when 
there is a need in my life. So the outreach program that VA 
provides, and our national service officers across the U.S. who 
talk to veterans may help make that possible. But certainly 
more can be done.
    Mr. Stutzman. Okay, thank you. I am kind of hearing some 
consensus but I would like to just ask this for the record. 
What would be your top recommendation to improve the VR&E 
program? Starting with Ms. Ansley, and then we will go to Mr. 
Wilson and Mr. Daley.
    Ms. Ansley. Thank you, Mr. Chairman. I think that our top 
recommendation would certainly be to make sure that VR&E has 
the resources that it needs to fulfill the mission that it 
needs fulfill. Of course within that we support lifting of caps 
and barriers to make this program accessible. But again, if 
veterans are not aware of the program, and then once they are 
aware the program does not have the resources and does not move 
people through the program in a way that helps them complete 
it, then it is a wasted opportunity.
    Mr. Wilson. For myself I would offer that of the many 
programs that Vocational Rehabilitation and Employment offers, 
that are equally important, and without singling any one out, 
necessarily, I would suggest the longitudinal study as a key 
item that must be funded. It will provide insight into a 
program that provides a critical service, and the current 
metrics, on how success is measured. This can be changed. The 
delivery mechanisms for services can be enhanced. The staff 
structure and the training needed to continue their jobs is 
important as well. Are the contracts that are offered managed 
as effectively as possible? A longitudinal study can look into 
all of those things.
    Mr. Daley. Yes, as my colleague was saying to make sure 
that they have the resources to do the job that they are 
committed to do. What does that mean? Well it probably means 
more money and more staff so they can actually, when the people 
go through the training they can actually go out and find jobs 
for these people. Because, you know, the economy is not doing 
real well right now and I have talked with one of our voc rehab 
people that is successful in placing a lot of people in 
wheelchairs in employment. And he says no job has ever come to 
his office. Nobody has ever called up and says, hey, do you 
have any veterans or disabled veterans I can hire? He has to go 
out, and he has to go out and meet with corporations. He 
travels throughout several States. And he makes these contacts, 
and he sets up the opportunity. Well this person can only work 
part-time. Will you accept a part-time worker for a while? Yes? 
Okay. So it has to be, you have to make the opportunity in the 
outside business world rather than must give them the training 
and show them how to write a resume and say goodbye, good luck.
    But that would of course take more money and more 
coordination through the program, and a different way of 
thinking, probably.
    Mr. Stutzman. Okay. Thank you very much. Mr. Braley.
    Mr. Braley. Well first of all I want to thank each of you 
and the organizations you represent for the phenomenal work you 
do advocating for veterans. We really appreciate that. Mr. 
Wilson, I am going to start with you. Like many of my 
colleagues I have far too many young disabled veterans coming 
back to my district and they all have the signature wounds of 
this War: single or multiple amputations, traumatic brain 
injuries (TBIs), some type of paralysis, or post-traumatic 
stress disorder (PTSD). Each of which presents its own unique 
rehabilitation challenges. And we often get focused on silos 
here in Washington, talking about specific programs without 
ever thinking about how those programs affect each other. And 
one of my big concerns about the effectiveness of any rehab 
program is if veterans are not getting access to maximum 
medical and psychological rehabilitation services, the 
opportunities to be successful in vocational rehabilitation are 
extremely limited.
    We also know that if we do not provide veterans the 
opportunity to reach their maximum potential from medical and 
psychological rehabilitation we face very expensive chronic 
disease challenges, which make up about two-thirds of our 
health care spending. So what I would like to hear from you, 
Mr. Wilson, and from you, Mr. Daley, and also from you, Ms. 
Ansley, is are we doing enough right now in terms of the 
medical and psychological rehabilitation of veterans to prepare 
them to achieve their maximum potential in vocational 
rehabilitation?
    Mr. Wilson. Thank you, sir. It is a compelling question, is 
it not? These signature war wounds are some that none of us 
wish to see, and wish to do all we can to help respond to the 
needs of these veterans as they learn to live with them. The 
previous Congress has been very generous with the Veterans 
Health Administration (VHA) by providing funds from year to 
year in advance, in advance appropriations, is the word I was 
looking for. They have been very generous with advance 
appropriations they have so VHA can deliver services necessary 
to these disabled veterans.
    This particular area is not one in which I delve 
specifically, however. I would, if you would not mind sir, like 
to address that for the record to you so I can provide a more 
comprehensive reply.
    [Mr. Wilson subsequently provided the information in the 
response to Question #3 of the Post-Hearing Questions and 
Responses for the Record, which appears on p. 58.]
    Mr. Braley. Please do.
    Mr. Wilson. Thank you.
    Mr. Braley. Mr. Daley, do you have any comments to offer?
    Mr. Daley. Well, we are probably not doing enough but, you 
know, we will not know till 10 years later when these veterans 
are still not integrated into society, and they are not 
employed, and some may be homeless. I speak as a person of the 
Vietnam era that I have seen some of my people that I was in 
the service with back in the sixties that never really adjusted 
right, and the tools were not out there to help them. So PVA 
would certainly want to be part of any efforts to try to figure 
out what is needed right now. But, you know, it just hurts me 
when I hear of situations such as has been in testimony in the 
last year about a veteran, a posttraumatic stress combat 
veteran, he calls up with a problem, and they say, well, you 
know, he needs to see somebody now. And they say, well, you can 
have an appointment next week. And then he commits suicide. You 
know, did that have to happen? So we can probably be doing 
more.
    Mr. Braley. You know, you raised an important issue. And I 
have a young man in my district who went to high school with my 
daughter who is a recent paralyzed veteran. And the attitudes 
and advances in medicine from Vietnam alone to these Iraq and 
Afghanistan veterans who are paralyzed have changed 
dramatically. Their expectations of their lifestyle, and 
society's perception of them I think has changed dramatically. 
So how does a veterans program which is administering still to 
World War II era veterans, and young men who, and to some 
extent young women, who play video games, and have expectations 
of a workplace environment that they can continue to be 
successful in that are far different than the way we used to 
look at these issues, how should this agency be adapting to be 
flexible to address their concerns?
    Mr. Daley. A very good question. I wish I had the answer. 
As we explore this----
    Mr. Braley. That is why you are here.
    Mr. Daley. As we explore this in the next year I am sure 
you will have the voc rehab and other helping agencies here, 
and maybe we can figure out what works and what does not work.
    Mr. Braley. Thank you. Ms. Ansley, I want to talk to you a 
little bit about your written testimony, where you express 
concerns about the veteran to counselor ratio, which I think 
all of us are concerned about. How has that ratio affected 
veterans' participation in the VR&E programs? And what 
suggestions do you have on how we address that issue?
    Ms. Ansley. Certainly. I think that having a high ratio of 
individual--as we mentioned earlier, the VR&E is a hands-on 
program that allows the veteran to work with the counselors in 
every part of the process and to be involved in the process. I 
think that by not having a sufficient connection, you know, 
having people who are quite frankly just carrying too much of a 
load, cannot necessarily make the connection as well and may 
lead to some of the fallout with veterans that drop out of the 
process, do not continue in the process. I am also a social 
worker by training, and so I understand what it is like to 
carry high caseloads and what that means for a professional. 
And you cannot give the devotion necessarily that you want. And 
this is really a case where the individual who is working with 
the veteran needs to be able to step in at every level of the 
process and really help that veteran to not only write the plan 
but to work through the plan and complete the plan.
    As Rich was saying earlier, Mr. Daley, you know, counselors 
that are working with people to actually get them into 
employment, it is an intensive process. To identify 
opportunities, to actually make that work properly. We, my 
organization also works with all people who have disabilities. 
And the unemployment rate for people with disabilities in 
general is, it is abhorrent. So when we look at how that then 
applies to veterans, they are bumping up against these same 
problems. And it really is an intensive need to actually help 
people to get in the workplace. And not only to get in the 
workplace, just to get your foot in the door, but to really be 
successful and to continue to move up and advance. And as the 
workplace grows and changes that you have the skills you need 
to do that. Because we know that that is not always happening.
    Mr. Braley. Thank you, Mr. Chairman. My time is expired and 
I yield back.
    Mr. Stutzman. Okay, thank you. If I could just follow up 
really quickly on that? What do you believe should be the, what 
is a manageable caseload?
    Ms. Ansley. I know that the caseload that is being looked 
at is one to 125, which has been what State vocational 
rehabilitation looks at. I think what we really need to do is 
there have been studies looked at to, you know, how do we make 
the workflow work better? And I think that we really need to 
look at the program and complete some of the studies to 
actually see what a good number is. Because we know that what 
we have right now is not necessarily working. So I do not have 
a specific number that I think if we hit this target it will be 
good. But I think that that kind of shows for us that we really 
have not examined what would be the appropriate number. Because 
we want to really look at the outcome. You know, we want 
veterans to be in the workforce. And that is what they want, 
too. So how do we get to that point?
    Mr. Stutzman. Thank you. Mr. Huelskamp.
    Mr. Huelskamp. Thank you, Mr. Chairman. I want to express 
my appreciation to the conferees before the Committee today. I 
appreciate your advocacy and I am eager to dive into these 
issues with you. As far as my district, it is a little 
different than some others. A very rural district, and a lot of 
questions would be directed to that, or I hope your answers 
would be.
    But first a general question. The State of Kansas, so we 
have, I think, a golden opportunity to address some of these 
issues. Particularly we have a new governor, and a 
restructuring, I think, of State government's aspect with some 
veterans service representatives (VSRs). And do you have any 
general advice? That you would say, hey, if I could restart it 
over, and restructure an entire State in terms of addressing 
some of these issues? General thoughts from each one of you, 
how I might recommend changes to a new administration in a 
particular State?
    Ms. Ansley. Thank you, Congressman. I am very familiar with 
Kansas. And as you see, I have lived in Kansas. I understand 
the western side of the State and what it really means to be a 
veteran in a rural area, and the lack of resources that are 
available. I think it is important for States to really look at 
how they can work collaboratively with other groups that are in 
the area. How to work collaboratively with the VA, with the 
veterans service organizations. Because as we know in 
communities where you are driving a couple of hours just to get 
to services, like you are doing in southwest Kansas, that 
people really need the opportunity to be able to figure out who 
is already doing what where, and how can we work with them to 
augment that. I think that as we look at people, of course 
States have budgetary concerns. And the Federal Government, 
everybody is looking at how do we make fewer dollars go 
farther. So I think that helping with that collaboration and 
looking at what other people are doing is a good place to start 
using your resources appropriately and to help our veterans.
    Mr. Huelskamp. Mr. Wilson.
    Mr. Wilson. I would like to respond to that question as 
well. I think it is important for State workforce agencies to 
coordinate very closely with Vocational Rehabilitation and 
Employment services across the Nation, those 57 regional 
offices we speak about. The contracting relationship is key, 
because in rural settings contractors are often relied upon by 
VR&E because they have a wide array of services to provide. And 
yet we have been concerned in the past about the ability of 
VR&E to manage those contracts effectively. That is why we 
called for in my written testimony 50 additional staff to help 
manage the VR&E contracting workload beyond the 29 that they 
have now.
    So in the State of Kansas if you want services delivered to 
your veterans, and certainly you do, you want it to be as 
effective as possible, then you want that delivery to go 
smoothly. Thus proper contract management with appropriate 
measures and oversight, and proper data entry into the system 
to track those contracts in the first place is essential.
    And lastly, I would look to VA, Voc Rehab, and the other 
agencies to provide training to the State workforce agency 
employees on the signature wounds that we were talking about 
earlier, PTSD, TBI, how those impact a person in the workplace. 
So that those employers are not hesitant to employ them, but 
understand and embrace them.
    Mr. Huelskamp. Okay. Mr. Daley, do you have any comment?
    Mr. Daley. Yes, thank you. I have seen in the last few 
years some States have used these mobile big vans, and they 
drive around, and they advertise in advance, we will be in this 
town for 2 days. They have the computers there. They can help 
you write a resume. They can show you how to do a job search. 
And I think that is a good outreach method for some of the 
rural areas. I really like that. But, I mean, that is not 
Federally funded, I think it is through the Federal and State. 
But that is, I think that is a good way to get the message out. 
And then while you have the veterans coming there you can 
always do other things. Do a blood pressure check or, you know, 
ask them other questions that you may want to get. But that 
would be one way to service the rural areas.
    Mr. Huelskamp. Well I appreciate that, and I appreciate the 
first answer particularly for just kind of recognizing the 
distance that a veteran I visited with in Hays, Kansas, at a 
town hall. He is expected to drive 183 miles for his medical 
treatments. And he is not disabled. But for a, just a simple 
steroid shot. And it is pretty hard to maintain a job when you 
are expected to drive 3 hours one way and 3 hours back, and I 
might note you drive by about ten hospitals who could do the 
same thing they were doing at the VA. And I know that is a 
little bigger here. But you know, when you have to drive 
hundreds of miles to get your medical care it is just near 
impossible to keep a job if we are requiring them to go to a VA 
hospital for some of those. And so we are talking about some of 
those things. I know there are some pilot programs. But that 
becomes a difficulty. There is just no way to keep a job. And 
this gentleman actually is a VSR and having that difficulty. He 
understands very directly, but to drive 183 miles it just, that 
is just simply foolish that we would require that. And so we 
can have the best job training in the world. But if you are 
going to tell your employer you are going to leave 1 day a week 
just to go get a simple weekly shot, it just makes it darn near 
impossible. But I appreciate, will pass it along with the folks 
in Kansas. I appreciate the experience there. But we are just 
trying to put together a system that works, you know, across a 
huge rural divide. So I appreciate your advocacy here and your 
continued suggestions. Thank you, Mr. Chairman.
    Mr. Stutzman. Okay, thank you. Ms. Sanchez.
    Ms. Sanchez. Thank you so much. Yes, I was just going to 
say. I would yield my time to----
    Mr. Walz. I will defer to my colleague.
    Ms. Sanchez. No, Mr. Walz, you showed up for the hearing on 
time. You should go first.
    Mr. Stutzman. My apologies, I did not mean to cause any----
    Mr. Walz. Well thank you----
    Mr. Stutzman. Thank you, Mr. Walz.
    Mr. Walz. Well thank you, Mr. Chairman, and I thank the 
gentle lady. I am sure your questions are more pointed but I 
appreciate the opportunity. I thank you each for being here and 
your advocacy for your veterans. And I think it is absolutely 
clear you care deeply about this program, and you know it is a 
good one and that is why you hold everyone accountable. And I 
appreciate that, and I think our friends at VA appreciate that 
also. These are great suggestions.
    I am going to have to use my, at least a minute of this, 
for my mandatory soap box on seamless transition. I hear all of 
you talk about my 50 years of outreach problems. We have 
veterans coming off of active service and let we drop off the 
cliff, they do not know about the programs. We have problems 
getting them back in, and when we eventually do the problems 
have been exacerbated and we go down that road of giving less 
care at more cost. And that is unfortunate. So I appreciate all 
of you being there.
    Mr. Daley, I would just ask you, is it PVA's position that 
we should lift the cap and allow more folks into this? Because 
I have to say from my perspective, this program, Voc Rehab, is 
universally praised by our veterans. They love it. It is a good 
thing to have out there. But I hear this same thing, if there 
could be more access, more folks. Would that be your position?
    Mr. Daley. Well the cap on the independent living program, 
of course that is backed by the four coauthors of The 
Independent Budget. Everything that is in there we all agree 
on, though we do not always agree on some things so it does not 
get included. But we think that there is a need for that. 
Because as you know it was started in a peacetime era. And we 
have so many serious brain injuries and things that you know 
the person is not going to be able to work this year or maybe 
next year, but how else can the VA help them? Well, let us see 
what we can do with the independent living program, the 
flexibility there.
    Mr. Walz. All right. Well I appreciate that. What is your 
position also, and I will ask the others, on the use of 
contract suppliers? How do you see that?
    Mr. Daley. It is a necessary evil, I guess. You know, the 
VA cannot do everything. But when you are dealing one on one 
with the veteran, of course I would always like it to be a VA-
trained counselor, somebody that has had some experience and 
knows, it cannot always be a veteran. But as you know, veterans 
understand the issues, it seems to be a little bit better than 
non-veterans. But certainly a VA counselor that has had the 
experience rather than a social worker that has just got out of 
college. And they are going to go down the form, check the 
right checks, and it is done. No, if kept to a minimum, and 
certainly overseen by the VA to make sure that the right 
emphasis is placed when the contractors are doing their work.
    Mr. Walz. I appreciate your candidness. That helps us. Ms. 
Ansley, I am just going to ask you and we go to this. The one 
thing I have noticed in, and I think it is probably true of 
every generation. I especially see it now with this new 
generation. I think Mr. Braley was hitting on this, the 
Chairman a little bit, there is a sense of independence amongst 
these folks. They want to get back to it. The one thing I see 
is this sense of wanting to be self-employed. And my question 
is, how do we prepare them, or how does this program, Ms. 
Ansley, do you know of any where we have been able to get a 
start up business? That we have been able to help a veteran 
become self-employed and be an entrepreneur?
    Ms. Ansley. Thank you, Congressman. I do not have a 
specific example of that. I know that that is something that we 
definitely support. Self-employment, small business, is 
something that veterans are perhaps uniquely suited to, with 
their abilities that they have learned, with leadership, with 
training in the military. And small businesses do provide some 
of the flexibility that people need, with maybe being able to 
work part-time, or you know, maybe you work better in the 
evenings. I know some people who have brain injuries, mornings 
are when they work and afternoons are when they have to sleep. 
And they have different times of day that work for them. And so 
it really does provide more flexibility.
    We would like to see more of an emphasis on the self-
employment program and working with the other programs that are 
available with the VA, within the Small Business Administration 
(SBA), to help veterans to do that. Because we do see that as a 
vital need. Particularly right now when we have employment 
issues, and people, may be going out to get employment is not 
working as well but----
    Mr. Walz. Is there an ability to collaborate amongst those 
organizations now? Or are they siloed up pretty hard to make 
that happen?
    Ms. Ansley. They are fairly siloed. They do try to work 
together. I know that they are, that VR&E is trying to engage 
in efforts to bring those groups together. But I think like, as 
you see within a lot of government programs, become siloed. But 
we would like to see all of those different pieces that are out 
there already, bring those together in a way that allows better 
collaboration, allows use of resources.
    Mr. Walz. Right. Do any of you know, I will end with this, 
do any of you know has there ever been a veteran use this 
program, even if you do not have a specific example but maybe 
you other two, that used it, became self-employed, and then 
actually got a government contract? Do you know if that has 
ever happened?
    Mr. Wilson. I do not have an example of that, Congressman 
Walz, myself.
    Mr. Walz. Anything anecdotally you ever heard this? Because 
my veterans are convinced it has never happened. I have heard 
them say it. They do not think there is a single case. I guess 
I will ask the next panel that maybe has some more detail----
    Mr. Wilson. No, it is an interesting idea. Our concern, and 
the idea we discuss in the Veterans Economic Opportunity 
Administration proposal, is that we do not believe that the VA 
has been as effective in reaching out on this particular issue 
as it could be.
    Mr. Walz. Okay.
    Mr. Wilson. That particular office is not well funded.
    Mr. Walz. Yes.
    Mr. Wilson. The VIP that is supposed to track all of this, 
so you can get a government contract, is months behind. And----
    Mr. Walz. And I ask it not as a criticism towards this 
office and this program. It is once again, our veterans love 
this program. They see it as effective. They simply see where 
it can be more effective, and we can do, and that is I, I 
appreciate that spirit that you have taken on this. I yield 
back, Mr. Chairman.
    Mr. Stutzman. Thank you, Mr. Walz. Now, Ms. Sanchez.
    Ms. Sanchez. Saved the best for last, did you?
    Mr. Stutzman. That is right, exactly.
    Ms. Sanchez. I am teasing. Good morning to you all, and 
thank you so much for coming and testifying. I am going to 
start my questioning with Ms. Ansley. In your written 
testimony, you note that being eligible for VR&E services does 
not automatically confer entitlement to services. And I am 
curious to know if you think it should? And why or why not?
    Ms. Ansley. I think that, as I have mentioned earlier, 
employment, opportunities to help people to become employed, or 
live independently, are definitely not something that we should 
limit. Of course, you know, we have resource considerations. 
But I think if we look at the long-term aspects of people who 
are able to become employed who are able to, quite frankly, 
become taxpayers to contribute to society, all of the different 
aspects, I think that investment up front to help people to be 
able to do those things really nets us out in the long run so 
that it is, the individual maybe does not have to look at other 
programs where they would have to look for income. They are 
able to be more self-sufficient. So I would say that we would 
err on the side of including people. What could it hurt to help 
people train to be able to get a job?
    Ms. Sanchez. I share those sentiments. And I know that it 
does take a certain commitment of personnel and resources and 
funding to serve all of those who would be eligible for this. 
But I share your opinion that in the long run I think it would 
actually be more cost effective if we did allow those who were 
eligible to have the services.
    In your written testimony you also note that a significant 
number of veterans do not successfully complete their 
rehabilitation plans. And I am wondering what is the most 
important thing that the Department can change to make sure 
that veterans complete those plans??
    Ms. Ansley. Again something that I think we have discussed 
is I think we need to look at why veterans are not completing. 
And some of the studies that are in process, or have not been 
completed, they have been discussed, but I do not think we have 
a really good handle on necessarily why it is that a veteran 
does or does not complete, does or does not hear. You know, the 
various aspects of where they end up, I think we really need to 
look at that so that we can effectively then target those 
resources to make sure that we are, you know, directly spending 
what we have is going to places that needs to be to get people 
the opportunities that they need. So I think that that is 
something that we definitely need. We need the follow through 
with the studies to really get that answer.
    Ms. Sanchez. Because it just sort of goes without saying 
that if you have programs in place that are meant to help 
people and then people are not succeeding in those programs you 
might want to go back and ask the question why? What are the 
barriers? Or what are the obstacles that we can try to help 
remove to make sure that it is a more successful program in the 
long run?
    I am interested to know if you find any differences in 
completion rates between men versus women?
    Ms. Ansley. That is an interesting question and one that I 
do not have the answer for. I would be happy to take a look at 
that and get back with you for the record. I think that that is 
something, though, that we definitely do need to look at. The 
unique concerns that are, as women in the workplace have unique 
concerns that maybe necessarily male veterans do not have with 
regard to you have an employment now but you still need 
possibly childcare. You have a lot of other balls in the air 
that you are trying to focus on. So I would be happy to take a 
look at that and get back with you. That is a very important 
question.
    [Ms. Ansley subsequently provided the information in the 
response to Question #7 in the Post-Hearing Questions and 
Responses for the Record, which appear on p. 56.]
    Ms. Sanchez. I am very interested in that as a working mom 
myself----
    Ms. Ansley. Yes.
    Ms. Sanchez [continuing]. With a 2-year-old I understand 
the difficulty of trying to balance that. I appreciate your 
answers and thank you so much. Mr. Daley, in your written 
testimony, and in some of your oral comments you talked about 
necessary evil, but you questioned the use of contractors that 
perform the individual one-on-one work with veterans. And I 
share your concerns about subcontracted employees in general 
because I have my fears about whether they have the same 
expertise, and commitment to excellence, and longevity in their 
jobs, and experience as career Federal employees. I am 
wondering if you could just maybe detail some of the 
shortcomings you see in the contracted positions?
    Mr. Daley. I am not that knowledgeable about some of the 
shortcomings. It was just a generality about, you know, the VA 
and the professionals working with the disabled veterans is 
certainly a preference. I can look into that and get back to 
you in writing with some answers to that.
    [Mr. Daley subsequently provided the information in the 
response to Question #4 in the Post-Hearing Questions and 
Responses for the Record, which appear on p. 60.]
    Ms. Sanchez. I appreciate that. Any of the other panel 
members maybe have some of the, maybe have an answer for what 
are some of the shortcomings of subcontract employees in this 
particular context?
    Mr. Wilson. I can offer, ma'am, that we know a couple of 
years ago the VR&E national acquisition strategy came under 
some criticism because the contracts were let from Central 
Office to provide services across all regions were, so VR&E 
could provide the same services at each particular locality 
that were otherwise unavailable. Unfortunately these 
performance contract services were not delivered well nor were 
the contracts managed necessarily well according to a VA Office 
of Inspector General (OIG) report of the time. One of the 
issues was a lack of entry of data into the systems that track 
contracts in the first place and how they are performing, what 
are the contract requirements and how is that being managed. 
There was some training that was provided that VA OIG talked 
about, yet that training did not seem to give the results that 
they were seeking. Training has since being offered again as we 
go towards a new opportunity to provide contracts for services 
to veterans across the 57 regional offices. I encourage through 
this Subcommittee's oversight role, looking at that particular 
issue to make sure we are getting the bang for that buck we 
want when providing veterans these important services.
    Ms. Sanchez. Thank you for your answer. That is one of the 
concerns I have, is the oversight of how the contracts are 
being managed and whether or not they are performing the work 
adequately to help our veterans. Thank you, Mr. Chairman, and I 
yield back.
    Mr. Stutzman. Okay, thank you very much. And I appreciate 
each and every one of you for your testimony and for answering 
our questions. Obviously there is a lot of work for all of us 
to do and we anticipate continuing to work together and 
continuing this dialogue. So thank you for your time, and I 
appreciate your willingness to be here. And we will move to the 
next panel. So thank you.
    Okay, at this time we welcome Mr. John McWilliam, and Ms. 
Ruth Fanning, and Ms. Iris Cooper, who will be part of our 
second panel. And they come to the table, we will start with 
Mr. John McWilliam, who is the Deputy Assistant Secretary for 
Operations and Management, Veterans' Employment and Training 
Service (VETS) with the U.S. Department of Labor (DoL). Thank 
you very much for being here, and I am looking forward to your 
testimony and the discussion here today. So Mr. McWilliam, we 
will start with you.

STATEMENTS OF JOHN M. MCWILLIAM, DEPUTY ASSISTANT SECRETARY FOR 
 OPERATIONS AND MANAGEMENT, VETERANS' EMPLOYMENT AND TRAINING 
    SERVICE, U.S. DEPARTMENT OF LABOR; AND RUTH A. FANNING, 
  DIRECTOR, VOCATIONAL REHABILITATION AND EMPLOYMENT SERVICE, 
 VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
                 AFFAIRS; ACCOMPANIED BY IRIS 
    COOPER, ASSOCIATE DEPUTY ASSISTANT SECRETARY, OFFICE OF 
 ACQUISITION, LOGISTICS, AND CONSTRUCTION, U.S. DEPARTMENT OF 
                        VETERANS AFFAIRS

                 STATEMENT OF JOHN M. MCWILLIAM

    Mr. McWilliam. Good morning, Mr. Chairman. Thank you very 
much. Chairman Stutzman, Ranking Member Braley, and Members of 
the Subcommittee, thank you for the opportunity to appear today 
as a witness before the Subcommittee and to speak to you about 
our Department's interagency cooperation with the Department of 
Veterans Affairs Vocational Rehabilitation and Employment 
Office. The Veterans' Employment and Training Service proudly 
serves veterans and transitioning servicemembers by providing 
resources and expertise to assist and prepare them to obtain 
meaningful careers, maximize their employment opportunities, 
and protect their employment rights. Our programs are an 
integral part of Secretary Solis' vision of good jobs for 
everyone.
    Several years ago, senior leadership from VETS and VR&E met 
with the Subcommittee staff to discuss how the two agencies 
could better collaborate. As a result of that meeting, a new 
memorandum of agreement was executed. Three working groups were 
established, later combined into a joint working group. The 
goal of that group is to improve the quality of employment 
services and job placements for veterans enrolled in the VR&E 
programs. Both DoL and the VA published a technical assistance 
guide document in December, 2008.
    Much of VETS' interaction with the VR&E program is through 
the workforce investment system and the outstationing of 
disabled veterans outreach program specialists, or DVOPS, at 
VR&E offices. To clearly identify roles and responsibilities 
between our two organizations we have designated that 
outstation DVOP as an intensive service coordinator. This 
coordinator is involved at the front end of the VR&E process to 
help veterans determine local labor market information. This 
interaction was intended to facilitate the rehabilitation 
planning process by providing the veteran and the VR&E 
counselor with current data on salary and job outlook, as well 
as increasing understanding of working conditions for specific 
occupations.
    At the conclusion of the rehabilitation program, the DoL 
coordinator refers veterans to DVOPS at the one-stop career 
centers. Those DVOPS then provide intensive services to 
referred participants to assist then in obtaining employment. 
Later in support of the technical assistance guide VETS issued 
guidance that each State's Jobs For Veterans State grants 
strategic plan would include this outstationing of a DVOPS 
specialist at each VR&E regional office. We continue to work to 
ensure that a DVOP is outstationed. There is currently a 
veterans employment specialist, usually a DVOP, outstationed in 
48 of the VA regional offices and in 19 satellite offices. The 
remaining offices that do not have someone outstationed have 
someone covering it from another location.
    We are proud of our collaboration with the VA to increase 
employment opportunities for service disabled veterans. This 
concludes my statement, Mr. Chairman. And I would be pleased to 
respond to any questions.
    [The prepared statement of Mr. McWilliam appears on p. 47.]
    Mr. Stutzman. Thank you. Let us continue with the 
testimony. We will move to Ms. Fanning. And Ms. Fanning is the 
Director of the Voc Rehab Service in the Veterans Benefits 
Administration, U.S. Department of Veterans Affairs. Thank you 
for being here, and I will let you begin your testimony.

                  STATEMENT OF RUTH A. FANNING

    Ms. Fanning. Thank you. Chairman Stutzman, Ranking Member 
Braley, distinguished Members of the Subcommittee, I really 
appreciate you inviting me to discuss the Department of 
Veterans Affairs Vocational Rehabilitation and Employment 
VetSuccess Program. I am pleased to be accompanied by Ms. Iris 
Cooper, the Associate Deputy Assistant Secretary for the Office 
of Acquisition, Logistics, and Construction.
    I would like to begin by giving you a little overview of 
the Vocational Rehabilitation program. The primary mission of 
our VetSuccess program is to assist veterans with service-
connected disabilities to prepare for and obtain suitable and 
sustainable careers through the provision of services 
individually tailored to each veteran's needs. VetSuccess 
provides a broad range of employment services, including 
translation of military experience to civilian skill sets; 
direct job placement; short-term training to augment existing 
skills; long-term training including on-the-job training, 
college training, or services that support self-employment; and 
independent living services to assist the most seriously 
disabled veterans who are unable to seek employment at this 
time. VR&E also provides extensive outreach and early 
intervention services through our Coming Home to Work program.
    Next, I would like to talk about our fiscal year 2012 
budget. The fiscal year 2012 budget request for VetSuccess 
supports 1,286 full-time employees who will provide services to 
a projected 15 percent increase from 2010 to 2012 and will 
expand two very important programs. First, 110 employees will 
be utilized to increase VetSuccess' early intervention and 
outreach through the joint VA/U.S. Department of Defense (DoD) 
integrated disability evaluation system program. VetSuccess 
counselors will provide separating servicemembers with a 
mandatory initial counseling session, followed by continuing 
vocational services for those members who elect to continue to 
participate in VetSuccess.
    In addition, nine counselors were also requested to expand 
the current VetSuccess on Campus initiative. This service will 
augment the current Voc Rehab counselors and Vet Center 
counselors that are embedded at eight campuses who provide on 
campus support to GI Bill participants that includes counseling 
services, assistance in accessing VA benefits, help in 
overcoming barriers to retention and graduation, such as 
physical or mental health issues, financial issues, etcetera, 
and assistance in connecting with other veteran students and 
forming a community of veteran students on campus.
    In addition, the fiscal year 2012 budget request supports 
modernization of the Disabled Transition Assistance program, 
often referred to as the DTAP program, making it readily 
accessible to servicemembers, veterans, family members, Guard 
and Reservists, on a just-in-time basis and through multiple 
channels.
    Now I would like to discuss the status of the VetSuccess 
contracts. After the national acquisition strategy contracts 
ended in July 2009, VR&E developed an interim contract solution 
for regional offices needing continued contract services. Local 
VR&E programs were assisted in awarding local bridge contracts 
that were standardized until new VetSuccess contracts could be 
put into place. Currently, we have 62 bridge contracts overseen 
by 29 contracting officers who are stationed throughout the 
field. This week we have begun the process of awarding the new 
VetSuccess contracts, which will standardize contracting 
procedures; including structured report templates; standardized 
referral processes and forms; and automated invoicing, 
automated invoice approval, and payment processes.
    Finally, I would like to talk a little bit about our 
Business Process Reengineering (BPR) efforts. VR&E service 
recently launched a transformation project geared at making 
VA's VetSuccess program the premier 21st Century vocational 
rehabilitation and employment program. The project focuses on 
modernizing and streamlining services using a veteran-centric 
and advocacy approach, including continuing to enhance our 
VetSuccess.gov employment Web site. We are also working in 
collaboration with VA's Innovation Initiative, or VAi2. We have 
recently engaged in an industry competition and have just 
awarded our first of three contracts to build self-employment 
incubators and tools to assist more veterans in owning their 
own businesses. We just announced and had a Webinar for a self-
management industry initiative that will allow the most 
seriously disabled veterans to work in the career of their 
choosing and live as independently as possible, as well as 
providing a number of other self-management tools. And finally, 
we are launching, on April 18th, a VA employee innovation 
competition to allow the staff who work each day with 
veterans--on boots on the ground--to identify additional 
program enhancements that we can add to our BPR effort.
    In conclusion, the VA will continue to seek new and 
innovative ways to assist veterans to achieve their goals for 
productive and meaningful lives. The VA will continue to work 
with all sectors of government and private and public 
employment communities to assist veterans to reach their 
highest potential in this challenging economy.
    Chairman Stutzman, Ranking Member Braley, and distinguished 
Members of the Subcommittee, this concludes my statement. I 
want to thank you for the opportunity to testify and I welcome 
any questions that you may have for me.
    [The prepared statement of Ms. Fanning appears on p. 49.]
    Mr. Stutzman. Okay, thank you very much. I will begin with 
the questions. According to the VETS testimony, the State 
workforce agencies placed 35 percent of those who completed 
their VR&E program but failed to place the other 65 percent. 
Why, any explanation for that? Either DoL or the VA?
    Mr. McWilliam. Mr. Chairman, we normally expect the 
outcomes to be somewhere to that experience in the one-stop 
career centers. During that same period of time, it was for 
disabled veterans for the one-stop career center, it was 42 
percent. So the 35 percent is very disappointing. However, I do 
not believe that that is an accurate reflection of what 
actually happened. As we have looked at 2010, which was our 
first year of new reporting, I see that there is a problem in 
data identification. And we are not properly identifying the 
people who have closed their services. So in other words, we 
are counting in the denominator of the equation people who are 
still actively looking for employment. I have done some quick 
back of the envelope calculation in the last week preparing for 
the hearing. If I just looked at closed cases, that would raise 
it to 51 percent, which would be a very effective program. We 
will keep the Committee apprised of this as we look through it 
for the next 6 months to validate that data.
    Ms. Fanning. And I would like to say VR&E does track those 
veterans that are placed strictly by VR&E or by the VETS 
program, the DVOPs and Local Veterans' Employment 
Representative (LVERs), or by a combination thereof. I do not 
have that data with me. I would be happy to provide it for the 
record.
    But I want to say that many veterans will not be referred 
by Voc Rehab to the VETS program for placement assistance 
because they already have employment. We really focus on 
internships and building on transferable skills. And veterans 
many times by the time they graduate already have a job. If 
they already have a job they do not need additional employment 
assistance, unless they are in the wrong job. And one of my 
main concerns and one of my main focuses throughout the 
program, and you will hear this probably repeated as you ask me 
other questions, is that we get veterans into careers that will 
sustain them throughout the course of their life as 
disabilities may worsen, that will help them catch up with 
their peer group while they were serving our country, that will 
help them live the American dream, send their kids to college. 
So we really are focused on careers. And we find that those 
veterans who do complete college are more likely to be employed 
at the time that they graduate. So that may account for some of 
the disparity.
    Mr. Stutzman. Okay, and also looking at some of the 
numbers. The VA has stated that over 10,000 participants were 
rehabilitated last year, but only about 5,000 of these 
participants were referred to the State workforce agencies. Can 
you give us information on what happened with the other 5,000 
participants? Where did they end up?
    Ms. Fanning. Well, and as I just mentioned, my guess is 
that the other 5,000 did not need additional assistance from 
the Department of Labor's VETS program. We do not want to 
burden them by referring veterans who already have a job, who 
already have those skills and are employed when they graduate, 
and that we are just simply following up to ensure that the job 
is stable, and that we close them when they are ready to be 
closed, if they do not have any additional needs.
    Mr. Stutzman. So----
    Ms. Fanning. We really focus, and the whole purpose of the 
joint workforce, and I apologize because I think I interrupted 
you. But the point of the joint workforce group that we have 
together, and even though we provided trainings well over a 
year ago, and colocated VETS staff with our VR&E staff, that 
joint workforce group is still in place. Their purpose now is 
to continue to monitor the programmatic changes that we put in 
place, to continue to provide training as we identify it being 
needed. And currently we are working to put a survey out to all 
of the offices to monitor key metrics to see if any offices 
have fallen off, or if we can identify any promising practices 
that we can implement elsewhere in the country.
    Mr. Stutzman. So there is just no data on the other half, 
roughly the other 5,000? They just, sign up for the program, 
something comes available to them, and they move elsewhere, and 
do not respond? Or what? What is kind of the process here? I 
guess I do not understand what, if they are participating, what 
happens to them? I mean, I know they may have gotten a job. But 
they do not communicate that back to the Department?
    Ms. Fanning. They do communicate it back to their 
vocational rehabilitation counselor. And if the Department of 
Labor is already involved with that veteran we are taking joint 
credit. You know? It is like a football team. It does not 
matter who crosses----
    Mr. Stutzman. Right.
    Ms. Fanning [continuing]. The end zone, the whole team gets 
credit for the--I am not a sports person so I should not use 
sports analogies--the touchdown. So if VETS is already involved 
obviously we are communicating with them and they get joint 
credit for that placement. And perhaps I am not understanding 
your question completely? So I apologize if not. But we work 
collaboratively with VETS. They come to our initial orientation 
sessions. They are working with us when the veterans are brand 
new in the VR&E program. The way their data system works, and 
John please correct me if I am wrong, is that they cannot 
register a veteran at that point. They do not register them 
until they are actually looking for a job. So there is credit 
that they do not get for the work that they do with some of our 
veterans. They help us up front with labor market information 
in collaboration with our employment coordinators. And in 
collaboration with our employment coordinators throughout the 
country the colocated DVOP or LVER really acts, they act 
together as case managers for all DVOPs and LVERs throughout 
that jurisdiction to ensure that each veteran is getting the 
placement assistance they need.
    In some cases we will even assign a placement contractor. 
Because a veteran may require much more intensive services in 
order to become employed. So we provide, based on that 
individual's needs, whatever they need.
    Mr. Stutzman. My question is really just what do we know 
about the 5,000 participants that were not referred to a State 
workforce agency? Do we have any data on them at all?
    Ms. Fanning. We do collect data from every veteran that is 
referred to the State workforce agency.
    Mr. Stutzman. Okay.
    Ms. Fanning. So I can provide that data back to you and, I 
mean, we can work together to provide that data back to you.
    [The VA subsequently provided the following information:]

          VR&E successfully rehabilitated 8,161 veterans into suitable 
        employment in FY 2010. When Vocational Rehabilitation 
        Counselors close a veteran's case as rehabilitated, they can 
        enter a code into the case management system to indicate 
        whether the veteran was assisted with job placement solely by 
        VA, solely by a DVOP, or whether there was a combination of 
        efforts by both. If both VA and a DVOP provided job placement 
        assistance, the Vocational Rehabilitation counselor can also 
        indicate a primary and secondary position, to indicate if one 
        had primary or secondary involvement in the placement of the 
        veteran. For the 8,161 veterans rehabilitated into suitable 
        employment in FY 2010:

          <bullet>  VA was the sole provider of job placement 
        assistance for 2,167 veterans and the primary provider for 
        2,226 veterans.
          <bullet>  The DVOP was sole provider of job placement 
        assistance for 80 of our veterans and the primary provider for 
        104 veterans.
          <bullet>  The DVOP and VA provided a combination of efforts 
        for 1,833 veterans.
          <bullet>  There was a Blank or NA for 1,751 veterans, meaning 
        that the Vocational Rehabilitation Counselor did not indicate 
        whether the DVOP assisted with placement or not.

    Mr. Stutzman. And would the longitudinal study help with 
more information regarding those who we do not have the data 
with?
    Ms. Fanning. I am very excited about the longitudinal 
study. And I heard your opening comments and I will be happy to 
talk about that.
    Mr. Stutzman. Because I know----
    Ms. Fanning. I think that what the longitudinal study 
really will do for us over the long term is show us if we are 
doing the right thing in terms of how much training we are 
providing and are we really getting veterans into those career 
paths? Because we are rehabilitating them when they are just 
starting out in their career. We do not see what happens down 
the road. And we know that many veterans who have completed 
Chapter 31 have gone on to be Congressmen, they are top 
officials in the VA, within the Department of Labor, just as 
examples. So it would be great, I think, for the program and to 
look at return on investment to see where those positive trends 
are. On the reverse, where are we not doing as good of a job? 
Are there certain geographic areas that stand out? Are there 
certain parts of the program that stand out? I am really 
interested in seeing the results of that data. Unfortunately, I 
will not probably be around for the whole 20 years. But I think 
I will be around long enough to benefit and help make some 
programmatic changes as a result of the data that we get.
    Mr. Stutzman. Because I noticed in your testimony you 
mentioned that there will be a report. So that does not 
necessarily mean it is going to be the longitudinal study. Is 
it a different report? Or is it the study that----
    Ms. Fanning. We will be providing a report for the 
longitudinal study.
    Mr. Stutzman. Okay.
    Ms. Fanning. The report in July will not include all of the 
data that you require----
    Mr. Stutzman. Okay.
    Ms. Fanning [continuing]. By the law. Even if we had been 
fully successful in implementing the longitudinal study this 
year as we would have liked, some of the data will be trailing. 
For example, Internal Revenue Service data and Social Security 
data will always be 1 to 2 years trailing.
    Mr. Stutzman. Yes.
    Ms. Fanning. So even if we had been able to successfully 
work with them in getting started this year we would not have 
their data this year. So what we are doing is we have 
identified the data within our own systems that we can provide, 
working aggressively with our data shop so that we will have as 
comprehensive of a report as possible for you in July.
    Mr. Stutzman. Okay. Thank you. Mr. Braley.
    Mr. Braley. Thank you, Mr. Chairman. I think it is time for 
a little reality check in the middle of the hearing. For those 
of us who were not born inside the Beltway, and who spent most 
of our lives working in private business, there is a huge 
concern about the problem of paralysis by analysis.
    Mr. Chairman, when I was in your shoes as a new Member of 
Congress I chaired the Small Business Subcommittee on 
Contracting and Technology. And my first hearing was to 
determine why the Small Business Administration had not only 
not completed a study ordered by Congress 7 years earlier but 
was still fighting over the methodology to be used in that 
study. And when you express concern about the problem with data 
identification, Mr. McWilliam, you were emphasizing my point 
exactly. Because most management consultants will tell you that 
bold, decisive action is better even if you make mistakes than 
inaction. And one of the concerns I have is according to a 2007 
GAO report entitled, ``Audit of Vocational Rehabilitation and 
Employment Program Operations,'' a recommendation was made in 
2007 that VR&E should improve its reporting method. And I do 
not understand why that recommendation was never implemented. 
Can either of you explain that for us?
    Ms. Fanning. Well since 2007, we have increased the number 
of reports that we have available. And have we done enough? I 
do not believe so. One of the reasons for the Business Process 
Reengineering project that has been launched is exactly to do 
that. I think that the way we measure ourselves really does not 
tell the full story of all the benefits that the Voc Rehab 
program provides. We need more data. And frankly, you know, I 
work in a large Administration that has one data shop. And I 
cannot have that data shop all to myself. So they are also 
working with Education, and with the Compensation and Pension 
Service, and with other business lines. But we just recently 
had a full day session with the data shop to go over the 
reporting that we need.
    We are in the process of migrating off of the Benefits 
Delivery Network (BDN) legacy system--and I do not know if you 
are familiar with that, but it is a very old, kind of difficult 
to use computer system--into the corporate environment. What 
that means is that all the reporting that we have in the BDN 
system that we now rely on we have the opportunity not only to 
migrate over into more robust reporting systems that will allow 
us to do ad hoc reports and compare different sets of data 
against each other, but to enhance our data systems.
    Mr. Braley. Okay I understand that. I understand the 
importance of longitudinal studies, and I know they help 
improve performance. But for a lot of agencies longitudinal 
studies are an excuse not to address the underlying problem. I 
just had a staff retreat with my staff and I told them based 
upon recommendations of management consultants that spectacular 
failures are better than often mediocre successes. And one of 
the things we know is that the reporting methodology is so 
inconsistent and confusing that in your own PowerPoint 
presentation you identified that 105,000 veterans being served 
in fiscal year 2010 and report a rehab rate a page later of 
75.8 percent. But the underlying data suggested only 10,000 are 
being rehabilitated. And so for most of us those 
inconsistencies are frustrating at getting at the root cause of 
what we all care about, which is making sure we have the 
highest success rate possible and put veterans to work. So what 
are we doing to address these inconsistencies?
    Ms. Fanning. First I would like to say that I understand 
what you are saying. I want to point out that I do not believe 
it is an inconsistency. It is a matter of how we are defining 
our data at this point.
    Mr. Braley. But do you understand my point that it may not 
seem inconsistent from where you are sitting, but we represent 
the people of our individual Congressional districts. And when 
you use words that they do not understand and you show data 
that seems completely inconsistent, that does not help us in 
doing our job.
    Ms. Fanning. I completely understand. And that is part of 
the reason I have undertaken this BPR, of which a huge portion 
is looking at our metrics and revising them to tell our story 
better. And to use I believe the Chairman's example of 
participants, and now you have brought it up again, the 105,000 
participants include all enrollees, it is a snapshot first of 
all, of current veterans enrolled in our program from applicant 
to a veteran we may rehabilitate today. It is all statuses. We 
know that once a veteran applies, about 37 percent of them will 
never show up for their first appointment. So to call them a 
participant bothers me. And I have had discussions with my 
leadership. And this year we are revising the way we report our 
data in the Performance and Accountability Report, and in the 
Annual Benefits Report, to classify participants differently. 
Participants are those individuals who are actively engaged in 
the Voc Rehab process. So you will see a difference in the 
future reports.
    Now I did not come from inside the Beltway so I understand 
what you are saying. I am a practitioner. I have been a 
practitioner since 1982 and I have only been here in Washington 
since 2007. And one of the things I have learned is that it 
does take longer than I would like. I am used to being, I was 
self-employed before I came to work for the government. I am 
used to being able to make a decision and move. And it does 
take longer than I would like to affect changes. But I am 
confident that we now are in the position that we are moving 
forward in the right direction. That we will define 
participants in a way that makes sense to anyone picking up the 
report. For example, of those veterans who applied last year 
and completed counseling to the point of an entitlement 
decision being made, 89 percent were found entitled and that 
led to 27,000 rehabilitation plans being written. So when you 
parse the data and look at it from that perspective, of how 
many were rehabilitated, and understand that of those 27,000, 
some are going to continue for another year, 2 years, 3 years 
depending on what they are studying, it really does tell a 
different story.
    I am agreeing with both of you. I think changes are needed 
and I am doing everything I can to make those changes, and I 
expect you to hold me accountable for that.
    Mr. Braley. Thank you. My time is expired and I will yield 
back.
    Mr. Stutzman. Thank you. Mr. Walz.
    Mr. Walz. I would like to yield just for a moment on a 
followup from Ms. Sanchez on the previous question.
    Ms. Sanchez. And I appreciate my colleague, and I 
appreciate the line of questioning that Mr. Braley has been 
pursuing. Ms. Fanning, in listening to your answer to Mr. 
Braley's question, the question that I want to pose to you is, 
rather than spend so much time trying to redefine what a 
participant is, why are you not finding out why the 30-some-odd 
percentage of veterans who make an appointment never bother to 
show up for their first appointment? I mean to me you could 
spend your whole day trying to define what this or that is, and 
have intellectual arguments over how do you group the data, but 
the fact of the matter is the way that you count may be a 
little bit different than the witnesses that we have heard say 
that there are dismal completion rates with the VR&E programs. 
But the question is what are you doing to reach out to help 
these veterans rather than spending your time, you know, in 
these intellectual arguments over how do you define a 
participant?
    Ms. Fanning. Well I----
    Ms. Sanchez. Because it seems to me that that is the most 
important question.
    Ms. Fanning. Thank you. And I agree. And I did not mean to 
give the impression that I was looking at this only as an 
intellectual exercise. I care very much about why that 37 
percent of veterans are not showing up for their initial 
appointment. That is one of the reasons that when I first came 
in my position, one of the first things that I did was enhance 
our early intervention and outreach program. Because as a 
rehabilitation counselor I know that the closer the 
intervention is to the disability occurring, the more likely 
success is for that individual with a disability. And we did, 
we have vastly increased our outreach. We have 13 full-time 
counselors in rehabilitation at military treatment facilities, 
and Coming Home to Work coordinators in every State reaching 
out to VHA hospitals, Coming Home events, Post Deployment 
Health Reassessment events, Yellow Ribbon events. And we have 
seen a corresponding increase in applicants.
    In addition though, really I think to get to the core of 
your question, we did a study, we contracted a study to look at 
veterans who dropped out at every phase of the program. Once 
veterans are in a rehabilitation program, they are the least 
likely to drop out. They, once they have that relationship with 
their counselor they stay engaged and very few drop out. What 
we found were the two primary reasons for drop out, first is 
medical issues. And second is financial issues.
    Now luckily, at least for those veterans eligible for the 
new GI Bill, the financial issues will be largely addressed 
with the recent passage of Public Law 111-377, if I have that 
correct, with them now being eligible for the Basic Allowance 
for Housing as the GI Bill participants are. The remainder of 
veterans will still only receive the subsistence allowance at 
the VR&E rate.
    In terms of the medical issues, what we did was provide an 
extreme amount of training to our staff, particularly on the 
signature disabilities of the current conflict. So they 
understand how to work with veterans with PTSD, with Traumatic 
Brain Injuries, with polytrauma. We also provided a lot of 
resources and assistance to them in understanding assistive 
technology, the advances in medical services that make almost 
any job possible for any individual. We are working to change 
the culture of our program to look, from the medical model to 
one of looking at abilities. So that we are empowering 
veterans, putting them in the drivers seat, and helping them 
reach their goals.
    I agree. We need to continue to look at every point where 
veterans either do not show up or they drop out in the program, 
and reach out to them. Change policy where it is needed, if our 
policy is driving decisions that close a veteran's case, we 
need to make amendments. I am certainly not happy that we have 
65,000 applicants approximately last year and only 10,000 
approximately are coming out as rehabilitations. I think that 
number should be much higher.
    And what we are focused on with all of our staff is looking 
not at just being tactical, which is easy for a counselor to do 
when they have a large caseload and they are working very hard, 
and veterans are in front of them, and they are meeting with 
them each day. But also to be strategic. And we are doing that 
on a national level as well to help them. There are pockets of 
our current labor market where there are not enough qualified 
workers to meet the demand. So we have to be looking into the 
future, looking at where the demand for workers will be, 
helping veterans understand those opportunities, and providing 
training that will help them meet the future demand for 
occupations. So that even if we continue to have an economic 
downturn they have an advantage in this labor market.
    Ms. Sanchez. I thank my colleague and I will yield back.
    Mr. Walz. Thank you, Mr. Chairman. Thank you each for being 
here and for the work you do. As I said earlier, there is no 
one in this room that is not committed to the care of veterans 
and I appreciate that. I think we also all know that this is a 
zero sum proposition and we will continuously be here. If one 
veteran is left out we will not be happy. So I appreciate you 
in that spirit and the folks who came before you of trying to 
get to that. I just have a couple of short questions. How are 
we doing on moving people to self-employment, as I asked the 
previous panel? Do we have any numbers on that? Or do we have 
folks coming out and getting, because I agree with the previous 
panel that I think these veterans, both young and old, but the 
young ones especially, are very well suited to self-employment 
and entrepreneurial activities. So can anyone help me on that?
    Ms. Fanning. Thank you, very gracious. First of all, as I 
mentioned earlier we just did an industry innovation project to 
focus on self-employment. So we are awarding three contracts 
and they are all different. One will be a brick and mortar 
business incubator. So veterans who want to start their own 
businesses will actually have coaches on the spot. They will be 
provided training. They may be experts, for example, in the 
field of artistic welding, but not know how to manage their 
books, not know how to manage employees, not understand how to 
market their own----
    Mr. Walz. Has there been anything like this prior to this?
    Ms. Fanning. There has not. We have regulations and manual, 
guidance, and we have done training on self-employment.
    Mr. Walz. Do we know of any----
    Ms. Fanning. But we have not provided this level of 
innovation.
    Mr. Walz. If I looked for a name and held it up and said 
Private Jones is now running his own business, should I find he 
or she?
    Ms. Fanning. Yes.
    Mr. Walz. There are people out there doing that?
    Ms. Fanning. I just signed, at a certain level of cost the 
self-employment plans come into the VR&E service for approval. 
I just signed one for a veteran in San Diego about a week ago.
    Mr. Walz. Great.
    Ms. Fanning. And this individual veteran I believe was a 
Guard or a Reservist and had owned his own pizzeria, actually a 
series of them, before he was deployed. And he had a few 
deployments in a row. He had decided that it was in his best 
interest to go ahead and sell his business, he did keep some of 
his equipment in storage, but he needed a lot more equipment 
and assistance to start a new business.
    Mr. Walz. And we are able to consolidate those resources if 
it is SBA, or whatever it may be?
    Ms. Fanning. Yes, and we do work with SBA. I wanted to 
mention that. Bill Elmore from SBA was actually on our 
selection committee in doing this self-employment industry 
innovation.
    The other two contracts will provide more online tools as 
well as coaching, both virtual coaches and live coaches to 
individuals. So that the training and resources that will be 
online will be everything from am I the right, do I have the 
right personality fit to be an entrepreneur? Is this right for 
me? To online courses about how to run a business, how to 
market a business, how----
    Mr. Walz. Can we help them with Federal contracting? Do we 
know of a veteran that has come through this program that has 
ever received a Federal contract as a small business owner?
    Ms. Fanning. I do not know. I can go back and research 
that. I know that just in the last few months I have been 
working with an individual from the Department of Defense. I 
really have a lot of admiration and respect for this 
individual. He is actually a brother of one of DoL's employees. 
And he came to me, he works in the security department of DoD. 
And he had an idea that if we added in our VetSuccess.gov Web 
site a marker to indicate if a veteran has a top secret 
security clearance that that would help----
    Mr. Walz. Yes.
    Ms. Fanning [continuing]. DoD contractors identify more 
easily veterans who qualify for their jobs.
    Mr. Walz. So we are starting to do it?
    [The VA subsequently provided the following information:]

          During fiscal year 2010, 157 veterans were obtaining VR&E 
        benefits with a vocational goal of completing and obtaining 
        self-employment. Two veterans completed their self-employment 
        plans and obtained a Federal contract. The individuals were 
        from Detroit, Michigan, and San Diego, California. Of the 157 
        veterans with a self-employment goal:

          <bullet>  145 are still working on the steps in their rehab 
        plans
          <bullet>  10 have completed their plans and been 
        rehabilitated;
          <bullet>  1 has changed tracks and is receiving independent 
        living services; and
          <bullet>  1 is in an interrupted status working on resolving 
        difficulties.

    Ms. Fanning. So we are starting to do that. And we added 
that field the same day, and his goal is as we know that 
veterans are beginning to, the process of medically boarding 
out, let DoD invest in them to provide this top secret security 
clearance training.
    Mr. Walz. That is great. Final question. What are the 
metrics, or how do we measure contractor performance? And what 
happens if they do not meet it? Do you ever let them go?
    Ms. Fanning. We, well of course I have Ms. Cooper here with 
me and I am sure she will be willing to help me. We approach 
this from many different aspects and contracting is something 
that we really have put a tremendous focus on since I have been 
in my position.
    First of all, the contracting officer has ultimate 
authority over the contract, and maintaining, making sure that 
the contractor is doing their job and taking appropriate 
action. We also have COTRs, which are contracting officer 
technical representatives. And those would be my field managers 
around the country who are trained in the administration of the 
contract. In addition, from the National Acquisition Strategy 
contract that was referred to previously that we ended after 
the first year because it was not working, we have added a 
tremendous amount of structure to the new contracts, including 
standardized templates for reports. We have built, with 
Administrative and Loan Accounting Center, which is an arm of 
our Office of Resource Management, an automated tool so that 
vendors will provide their invoices in an automated system. We 
will approve those invoices and pay them back through the 
automated system. We put criteria in place for quality review 
so that until the vendor receives acceptance of their 
deliverable from this quality review they cannot invoice for a 
product. So they have to show that they have met the 
expectations of the contract. We have put in a lot of 
additional very structured features. I can say it has been a 
huge amount of work and I am very grateful to Ms. Cooper, 
sitting to the left of me, for her staff's work as well as my 
team. I have had a number of people devoted almost full-time 
for the last over a year in working through this as well as 
resolving issues with the old NAS----
    Mr. Walz. But we are better at this? I can be assured if I 
go back to my constituents and taxpayers and tell them, are you 
watching our money as it goes into this program? The answer is 
yes, we----
    Ms. Fanning. Yes, the answer is yes.
    Mr. Walz. Okay.
    Ms. Fanning. Since I came into my position, I am, you know, 
as I said I am a rehabilitation counselor by trade. My goal was 
to really focus completely on VR&E. As a field person, I had a 
lot of ideas of how I could make this program better. I think 
it is a great program and I think it was very well designed by 
Congress. But I think it could be better. It could be less 
administratively burdensome for the counselors so that they can 
spend more face time with the veterans.
    So that was what I planned to do when I came in. I spent, 
because of the NAS contract, a high percentage of my time 
working on contracts that were not working. And so we have put 
in a huge effort to make sure that we have very sound 
contracts. And Ms. Cooper's staff has not only ramped up, she 
has added a lot of additional staff, but we have really made 
sure that we are meeting the legal and contractual requirements 
for a sound contracting vehicle and a sound governance process.
    Mr. Walz. Good.
    Ms. Fanning. And I would defer to Ms. Cooper for any 
additional----
    Mr. Walz. My time is up, though. I yield back to the 
Chairman if he has any followup, then, he will make sure he can 
move it on. But thank you.
    Mr. Stutzman. Okay, thank you. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. Following up on the 
same line of questioning with regard to reporting, my question 
for Ms. Fanning is whether VR&E has too many Congressional 
reports due? And if you think that that is the case, do you 
recommend any for elimination?
    Ms. Fanning. No, I do not believe we have too many 
Congressional reports due. We had from Public Law 110-389, two 
reports that were due. The first one was completed and 
submitted, let me see I actually have the letter with me. It 
was submitted--it is not dated. It was submitted back 270 days 
after the report was initiated, which was what was required. Of 
course, the longitudinal study will be an ongoing study. I 
think that will be a big undertaking. And it will require a 
great deal of my staff's work as well as the support of a 
contractor. And we are hoping a research oriented group will be 
the group that helps us with that. Otherwise, no, we come in 
and we meet with the staff very frequently. I think we have a 
very open rapport and I am always willing to come in and report 
in any way asked.
    Ms. Sanchez. Okay. With respect, and you have mentioned 
contractors, and Mr. Walz also asked questions with regard to 
that. And I can understand that you are trying to standardize 
some of the sort of data and paperwork and billing processes. 
But I am wondering if you do anything to ensure that 
contractors understand military culture and the needs of 
veterans? How do you ensure prospectively, moving forward, that 
they will? It is not just important to have cost efficient 
contractors, but ones that are culturally sensitive to the 
clientele that they are trying to serve.
    Ms. Fanning. Yes, I agree with you. I know that Ms. Cooper 
wants to comment. And so----
    Ms. Sanchez. Ms. Cooper.
    Ms. Fanning [continuing]. I will defer to her and then I 
may add to her response.
    Ms. Cooper. I think contracts are successful because of 
good requirements, good communication, good selection, and good 
oversight. I think in the requirements definition we make the 
effort to convey exactly what we want. We had a very successful 
pre-proposal conference here in Washington, DC, to have that 
dialogue with interested vendors and communicate what we are 
looking for. And we had an intensive source selection process 
that is nearing completion. The emphasis not being on low price 
but on past performance, and documented success, and technical 
capability. So I think that gives us some assurance that we are 
really moving forward with a quality product. And I am a firm 
believer in trust is good, control is better, so we will have 
good oversight procedures.
    Ms. Sanchez. Okay, thank you. Ms. Fanning, going back to 
the question I posed to you earlier about what are you doing to 
make sure that veterans who are enrolling in the program 
continue in the program, or to even make them aware. Because I 
have heard several witnesses talk about the fact that, you 
know, programs are great but if veterans are not aware that 
they are out there, then there is a whole group that is not 
being served. And you mentioned some of the outreach efforts 
with respect to the Welcome Home ceremonies, and the like. I 
know that in my district, local veterans and service 
organizations make it a point to go to these types of events 
and talk to new returning veterans about programs that have 
assisted them, or that are available to them through the VA. Do 
you do any work with those organizations to try to help 
veterans reach out to other veterans? Because I often feel that 
that is the most effective sort of recruitment tool for getting 
returning veterans the services that they need, whether it is 
dealing with PTSD, or vocational training.
    Ms. Fanning. I agree with you. We work very closely with 
Student Veterans of America. It is a group that has started up 
on college campuses around the country. And they really are our 
conduit in giving us that reality check of what new veterans 
want, what the younger veterans want as opposed to perhaps 
their Vietnam era colleagues. We work with schools that already 
have veteran programs in place and augment them so that we can 
provide general benefits assistance information on campuses and 
provide medical and mental health referrals.
    Often a veteran may be, and we have seen this already--the 
program was stood up in June 2009 and we now have eight 
locations--that a veteran may not be doing well in class and 
really not understand why. And they sit down with a counselor 
who can start to pick up on symptomology of post-traumatic 
stress, and realize that they really need a referral and some 
assistance. We are colocated at those VetSuccess on Campus 
locations with an outreach coordinator from the VHA Vet Center 
Program. And all Vet Center counselors are veterans. So that 
adds that peer to peer----
    Ms. Sanchez. But is that exclusive to college campuses? 
Or----
    Ms. Fanning. I am sorry.
    Ms. Sanchez. Is that exclusive to college campuses? Or do 
they go out to other events?
    Ms. Fanning. Well those are examples. We go out to any 
events that we can including as I mentioned earlier, Yellow 
Ribbon, Welcome Home----
    Ms. Sanchez. But I mean having veterans at those outreach 
events, it is one thing to have bureaucrats or Administration 
people there, but veteran outreach?
    Ms. Fanning. In Voc Rehab over 40 percent of our employees 
are veterans--we have just launched a program called Troops to 
Counselors. And our goal by 2014 is that 60 percent of our 
hires in 2014 for Voc Rehab counselors will be veterans. We 
understand that it is more comfortable for veterans when 
discussing combat experience and their personal issues to talk 
to other veterans. We have very effective counselors who are 
not veterans, but we want to meet that need. And we are 
launching that as an initiative.
    Ms. Sanchez. Thank you. Thank you for your answer. My time 
has expired.
    Mr. Stutzman. Okay, thank you very much. I guess I have one 
follow-up question. I would like to just wrap this up here in 
the next couple of minutes. Can you tell me, are the VR&E 
participants, can they potentially receive VA comp, a VR&E 
stipend, as well as Social Security disability payments, as 
well as any other benefits?
    Ms. Fanning. Yes, they can. And earlier when I referred to, 
that some veterans may drop out because of increased medical 
issues, some are actually found to have individually 
unemployability. Which if you are not familiar with that means 
that they have a disability rating of at least 40 percent with 
other disabilities with a combined rating of 70 percent, or one 
disability that is 60 percent or more. With these ratings, that 
may apply and be found to be unemployable currently. And they 
may be involved in Voc Rehab, because with assistance they can 
become employable and ultimately enter a career.
    What happens with some of those veterans, however, is that 
then they can also qualify for Social Security disability 
benefits if they receive benefits for individual 
unemployability (IU). When a veteran is rated at 100 percent, 
it opens up a myriad of other benefits. Now their spouse and 
their children are eligible for educational benefits under 
Chapter 35. They are eligible for medical benefits under 
CHAMPVA. And so it can create a quagmire, or a disincentive, 
for that veteran to let those benefits go and move on into 
employment. It is a challenge that we face. And I have a 
personal belief as a rehab counselor that it is best for an 
individual to work when possible, to have that meaningful life 
activity. For some veterans it may be that they cannot give up 
the IU but they could work part-time, or work as a volunteer. 
So we do the best we can to get them into the position that is 
the right fit for them, that meets their needs and fits their 
comfort level in terms of taking care of their family.
    Mr. Stutzman. Okay. Well thank you very much. This has been 
very helpful. I think all of us here on the Committee obviously 
think this is a very important program----
    Ms. Fanning. Thank you.
    Mr. Stutzman [continuing]. As well as I know you do as 
well. But we want it to be effective. And obviously as Mr. 
Braley expressed it, we have to answer to our constituents back 
home and also to the general public in that this is an 
important issue. I would just inform the Committee that the SBA 
sponsors seven different entrepreneur boot camps for veterans 
at universities. And at our May 7th hearing, we are going to 
invite several of those and see what they are offering to folks 
around the country.
    So thank you to the panel and everybody who was here today 
for your participation. This has been helpful and we look 
forward to working together in the future. And at this time we 
will adjourn if there are no other points to be made.
    Okay, I ask unanimous consent for Members to have 5 
legislative days for any additional remarks to be submitted to 
the Committee. So anybody that was going to submit written 
information we would ask that you do that within the next 5 
days.
    All right, with that this hearing is adjourned.
    [Whereupon, at 11:58 a.m., the Subcommittee was adjourned.]




















                            A P P E N D I X

                              ----------                              

             Prepared Statement of Hon. Marlin A. Stutzman,
             Chairman, Subcommittee on Economic Opportunity
    Good morning.
    We are here today to review the VA budget for the Vocational 
Rehabilitation and Employment program as well as the Department's 
progress in implementing a new national contract for counseling 
services.
    Let me begin by mentioning my concern about the average 130-150 
caseload carried by each Vocational Rehabilitation and Employment 
counselor. To put it succinctly, that is way too high and that is why I 
support the Committee's Views and Estimates to the Budget Committee 
suggested a shift in funding to provide 50 more counseling staff.
    Clearly, Members of this Committee support the concept of 
vocational rehabilitation as a means to return to the workforce or be 
rehabilitated as part of the Independent Living Program. However, the 
Department has been somewhat cavalier in implementing the provisions in 
section 334 of Public Law 110-389 that require VA to conduct a 
longitudinal study of at least 20 years' duration of three cohorts of 
VRE participants. It is my understanding that after completing an 
initial contract to begin the study, VA has not funded the effort. I 
find that unsatisfactory in light of the generous budgets given to VA 
since passage of that law.
    As a reminder, Congress included the longitudinal study because 
little is known about the outcomes of those participating in VRE. For 
example, the Veterans' Benefits Administration's FY 2010 Annual 
Benefits Report includes such relevant information on VRE participants 
as how many came from each military service. But totally lacking is any 
information describing why of the nearly 70,000 applicants, 66,000 were 
found to be eligible for VRE, and 41,000 were found to be entitled to 
VRE benefits in FY 2010, there is no information on how many of those 
41,000 continued in the program.
    Further, there is no information on why thousands chose not to 
participate. Without such data, how is Congress to determine what 
changes to the law would decrease the dropout rate? There is an old 
saying in business: If you don't measure it, you can't manage it, and 
unfortunately, the Department's reluctance to fully implement P.L. 110-
389 does not improve the current shortage of data.
    I would also note that the VBA report presents VRE contradictory 
data. On several pages, VA indicates the just over 117,000 veterans 
participate in VRE. However, on page 70 of the report, VA counts 60,522 
veterans participating in a vocational training program. What are the 
other 57,000 doing?
    Finally, there is the issue of the rate of rehabilitation. VA 
states 10,038 veterans were rehabilitated in FY 2010. I believe that, 
given the significant portion attending long term education and 
training as well as the nature of participants' disabilities that is a 
reasonable number. However, it is not 76 percent of those in the VRE 
program. I am told this has been an issue for years and a GAO report 
stated that a proper accounting should produce a rate of about 18 
percent. I encourage VA to rethink their accounting so that we are not 
forced to provide them with a mandatory formula.
    Again, I welcome all of our witnesses and look forward to the 
distinguished Ranking Member's remarks so I will yield to him.

                                 <F-dash>
            Prepared Statement of the Hon. Bruce L. Braley,
    Ranking Democratic Member, Subcommittee on Economic Opportunity
    In past hearings, the Department of Veterans Affairs Vocational 
Rehabilitation and Employment program has been referred to as one of 
the VA's crown jewels, for the critical services and rehabilitation 
programs it provides. This program has the potential of becoming one of 
the best benefits programs under the VA.
    Over the years, the VR&E program has grown and has become more 
comprehensive through legislation to better fulfill its mission, such 
as what Public Law 111-377 did as it aligned some of the education 
benefits under the Post-9/11 GI Bill. And most recently, it has been 
going through a transformation as it's being branded as the VR&E 
VetSuccess Program.
    Today we will hear about VR&E's successes and failures, from the 
VetSuccess on Campus to the National Acquisition Strategy. Since the 
VR&E program provides assistance to service-disabled veterans seeking 
to obtain employment and independent living, it is crucial that we 
analyze their Budget Request for Fiscal Year 2012 and evaluate their 
resources, operations, and performance measures.
    The VR&E program is unique in that it requires personal interaction 
with the veteran to deliver services. The Vocational Rehabilitation 
Counselor (VRC) plays a vital role in this key interaction with 
veterans. In the initial meeting between the VR&E counselor and the 
veteran, a determination is made as to whether the veteran suffers from 
an employment handicap. Eventually, the counselor develops a 
personalized plan to address the veteran's rehabilitation and 
employment needs. This is why it's extremely important that we assess 
the current ratio of counselors to veterans to see if it is 
appropriate.
    I would also like to discuss how often veterans complete their 
rehabilitation plan and how long it takes, as well as hear about what 
may have deterred some veterans from completing their rehabilitation 
plan. I have concerns over the current VR&E data gathering methods. In 
FY 2009 there were 110,750 participants with 11,022 rehabilitated, and 
in FY 2010 there were 117,130 participants with 10,038 rehabilitated. 
What alarms me is that even while the number of participants has 
increased, the number of rehabilitated veterans has decreased.
    I also question whether the number of participants in the program 
is misleading due to VA's definition of a participant. Currently, any 
veteran that has applied to the program but has never actually realized 
a rehabilitative plan is considered a participant. For example, if 
after submitting an application the veteran decides this program is not 
suitable for them, the application is still included in the 
participation rate. In FY 2010 the number of actual participants in 
some type of training program under VR&E was 60,522. The data gathering 
method is inaccurate, and that bothers me because these statistics are 
an essential tool to truly measuring the effectiveness of this program. 
I hope that Director Ruth Fanning will address this concern for us 
today.
    The other initiative that I look forward to learning more about is 
VR&E's National Acquisition Contract and how successfully VA will work 
with contractors to avoid the same mistakes from nearly 2 years ago. 
Providing the vocational rehabilitative services a veteran needs can be 
challenging and avoiding problems with contractors who are unable to 
meet contract services can prevent veterans from achieving their 
rehabilitation plan.
    We have noticed that the work at VR&E has been increasing. I hope 
the VA can reassure us today that their FY 2012 budget request will 
support the 15.5 percent increase in the VR&E workload.

                                 <F-dash>

    Prepared Statement of Heather L. Ansley, Esq., MSW, Director of
   Veterans Policy VetsFirst, a Program of United Spinal Association
                           Executive Summary
    The Department of Veterans Affairs' Vocational Rehabilitation and 
Employment services are critical to helping eligible servicemembers and 
veterans with service-connected disabilities receive the skills and 
training necessary to help them reintegrate into their families and 
communities. Specifically, VR&E services provide veterans with service-
connected disabilities the opportunity to return to or remain in the 
workforce. The opportunity to participate in the workforce is critical 
because employment provides people with both financial and social 
benefits that contribute to an enhanced sense of one's life's purpose.
    Improvement of VR&E services has been the focus of Committees and 
task forces for a number of years. The 2004 VR&E Task Force made 110 
recommendations for transforming VR&E. Many of these recommendations 
have been implemented, including the development of five tracks for the 
delivery of VR&E services and a refocusing on assisting veterans with 
disabilities in returning to or remaining in the workforce.
    VetsFirst believes that VR&E services are critical to veterans with 
disabilities and their efforts to work and live independently. A 
significant number of veterans, however, do not successfully complete 
their rehabilitation plans.
    Because the services provided by VR&E are critical to ensuring that 
participants successfully complete and excel in their rehabilitation, 
sufficient financing must be available for the VR&E program. For 
example, eligible veterans should not be delayed or hindered due to 
VR&E staffing limitations. In addition, veterans who are pursuing 
``employment only'' tracks should be able to receive a monthly 
subsistence allowance to ensure that they are not deterred due to 
lacking the financial assistance that would allow them to fully benefit 
from VR&E services.
    Other barriers that challenge VR&E's mission to focus on the 
employment of veterans with service-connected disabilities who have 
``employment handicaps'' should also be eliminated. Specifically, the 
12-year delimiting period to apply for VR&E services and the yearly cap 
for independent living services must be removed. Furthermore, VR&E must 
continue to increase collaboration with other agencies and 
organizations that provide employment and rehabilitation assistance, 
including State vocational rehabilitation agencies, to ensure that 
veterans have access to a full range of services.
    VetsFirst believes that addressing barriers to successful 
completion of veterans' rehabilitation plans will allow more veterans 
with service-connected disabilities to fully benefit from VR&E 
services, actively engage in and be a part of their communities, and 
regain financial stability.

                               __________

    Chairman Stutzman, Ranking Member Braley, and other distinguished 
Members of the Subcommittee, thank you for the opportunity to testify 
regarding VetsFirst's views on the Department of Veterans Affairs' 
Vocational Rehabilitation and Employment (VR&E) program budget and 
operations.
    VetsFirst represents the culmination of 60 years of service to 
veterans and their families. United Spinal Association, through its 
veterans service program, VetsFirst, maintains a nationwide network of 
veterans service officers who provide representation for veterans, 
their dependents and survivors in their pursuit of VA benefits and 
health care before the VA and in the Federal courts. Today, United 
Spinal Association is not only a VA-recognized national veterans 
service organization, but is also a leader in advocacy for all people 
with disabilities.
    VA's VR&E services are critical to helping eligible servicemembers 
and veterans with service-connected disabilities receive the skills and 
training necessary to help them reintegrate into their families and 
communities. Specifically, VR&E services provide veterans with service-
connected disabilities the opportunity to return to or remain in the 
workforce. The opportunity to participate in the workforce is critical 
because employment provides people with both financial and social 
benefits that contribute to an enhanced sense of one's life's purpose.
    As a result of the wars in Iraq and Afghanistan and the current 
economic crisis, the number of veterans requesting and receiving VR&E 
services will likely continue to increase. Sixty percent of the over 
two million servicemembers who deployed to Iraq and Afghanistan have 
left active duty and are now eligible for VA benefits, and 
approximately 40 percent of these veterans have applied for 
compensation related to a disability.\1\ Compounded by an unemployment 
rate of almost 9 percent across all sectors, competition for many 
employment opportunities is harder than ever. VR&E services provide 
eligible veterans with the competitive edge to win precious employment 
opportunities.
    Veterans are eligible to receive VR&E services upon application if 
they have an other than dishonorable discharge and a service-connected 
disability rating from VA of at least 10 percent. Servicemembers who 
apply for the services, are awaiting discharge from active duty, and 
receive a memorandum rating of 20 percent or higher from VA are also 
eligible for VR&E services. Applications must be made within 12 years 
of the date of separation or upon notification by VA of an eligible 
service-connected disability rating.
    A determination that the veteran is eligible for VR&E services does 
not automatically confer entitlement to the services. In order to be 
entitled to receive VR&E services, veterans must have ``an employment 
handicap.'' For veterans with service-connected disabilities of 20 
percent or higher, the determination by a vocational rehabilitation 
counselor of an employment handicap is sufficient to confer 
eligibility. For veterans with service-connected disabilities of 10 
percent, a vocational rehabilitation counselor must determine that ``a 
serious employment handicap'' is present. Veterans who need services 
and apply after the expiration of the 12-year delimiting period may 
receive services if VR&E determines that the individual has a serious 
employment handicap.
    Once entitlement is established, vocational rehabilitation 
counselors work with eligible veterans to begin the process of 
developing a rehabilitation plan. VR&E delivers services through one of 
five tracks: reemployment, rapid access to employment, self-employment, 
employment through long-term services, and independent living. Although 
there are five tracks through which a rehabilitation plan may be 
delivered, it is possible for a combination of these tracks to be 
pursued within an individual rehabilitation plan.
    Improvement of VR&E services has been the focus of Committees and 
task forces for a number of years. The 2004 VR&E Task Force made 110 
recommendations for transforming VR&E. Many of these recommendations 
have been implemented, including the development of the five tracks for 
delivery of VR&E services and a refocusing on assisting veterans with 
disabilities in returning to or remaining in the workforce. The purpose 
of developing tracks was to ensure that VR&E services were meeting the 
varying employment needs of veterans, including the immediacy of the 
need.
    VetsFirst believes that VR&E services are critical to veterans with 
disabilities and their efforts to work and live independently. A 
significant number of veterans, however, do not successfully complete 
their rehabilitation plans.
    Continued investment in VR&E is needed because it provides the 
types of support that are critical to ensuring that participants 
successfully complete and excel in their rehabilitation. To ensure that 
veterans with disabilities are able to successfully complete 
rehabilitation by obtaining and maintaining suitable employment or 
through independent living, VR&E must receive sufficient resources. 
Although the wars in Iraq and Afghanistan have steadily increased the 
number of servicemembers and veterans seeking services, VR&E resources 
have not kept pace. For example, caseloads for counselors have remained 
higher than VR&E's target of 1 to 125. A recent sampling showed 
caseloads that ranged up to 1 to 160.\2\
    Although VR&E has increased its workforce in recent years, 
VetsFirst remains concerned that VR&E lacks a sufficient number of 
employees. Specifically, VR&E must have a sufficient number of trained 
employees who can ensure that eligible veterans are not delayed in 
gaining entrance to services, and once allowed entry, can dedicate the 
time needed to work with veterans in the development, implementation, 
and completion of their rehabilitation plans. Ensuring that VR&E has 
the staff needed to assist veterans in returning to the workforce is a 
critical aspect of helping veterans with disabilities re-establish 
their identity as productive citizens.
    In addition to ensuring that VR&E has the resources needed to serve 
veterans requiring rehabilitation services, VetsFirst believes that 
veterans pursuing ``employment only'' tracks must have the financial 
resources needed to complete their plans. Veterans who pursue 
employment only tracks are not able to receive a monthly subsistence 
allowance. Subsistence payments are only available to veterans who 
pursue employment through long-term services, which includes 
specialized training or education.
    In a January 2009 report on VA's VR&E program, the GAO determined 
that incentives must be realigned to ensure that the program is able to 
fulfill its mission.\3\ GAO stated that, ``we are concerned that 
without properly aligned incentives and supports, veterans who need 
assistance finding immediate employment may not seek out VR&E services 
and others may not choose the track that is best suited for them.'' \4\ 
Although the precise connection between subsistence and track selection 
has not been determined, GAO's review of the track selections of nearly 
24,000 veterans between January 2007 and early May 2008 showed that 80 
percent pursued employment through long-term services.\5\
    As previously stated, the employment through long-term services 
track is the only track that provides a monthly subsistence allowance 
for participants. VetsFirst believes that subsistence payments would be 
beneficial for veterans with disabilities completing employment only 
tracks and may encourage selection of these tracks when appropriate. 
For veterans with disabilities who have families to support, the 
ability to receive a monthly subsistence allowance while seeking 
employment could be key to the veteran receiving the right type of 
rehabilitation that will lead to a successful future.
    In addition to resource barriers for VR&E and veteran recipients, 
VetsFirst believes that there are other barriers to VR&E services that 
must be eliminated. Because the mission of VR&E is to assist veterans 
with disabilities related to their service requiring rehabilitation to 
actively engage in the workforce and live independently, the arbitrary 
timeline for eligibility and caps for independent living services must 
be removed.
    Currently, an eligible veteran must apply for VR&E services within 
12 years of the date of separation or upon notification by VA of a 
service-connected disability rating conferring eligibility. Services 
that seek to return veterans to the workforce and allow them to live 
independently should be heavily encouraged. Veterans who are initially 
eligible may not need the services until after the 12-year delimiting 
period has expired. Even though applications filed outside of the 12-
year delimiting period may be accepted if the applicant has a serious 
employment handicap, potentially eligible veterans may believe that 
they will not be able to receive assistance.
    Similarly, VetsFirst believes that the cap for independent living 
services should be eliminated. For veterans needing the skills and 
resources to allow them to live independently, VR&E services are 
critical. The independent living track is able to assist with skills 
training, assistive technology, and linkages to community-based 
services and supports. The number of veterans who can benefit from 
these critical skills should not be limited.
    The Veterans' Benefits Act of 2010 (P.L. 111-275) increased the 
number of veterans who may receive these services each fiscal year to 
2700. Although it may appear that demand does not exceed the cap, its 
mere existence requires careful management to ensure that the veterans 
who most need to participate in the independent living program are able 
to access the services when needed. The consequence may be delayed 
entry for some eligible veterans until the next fiscal year. The 
removal of the cap will ensure that eligible veterans who can benefit 
from independent living services are not denied or delayed in receiving 
those services.
    VetsFirst also believes that the self-employment track should not 
be targeted only to those who have severe disabilities or require 
special accommodations. Self-employment and small business development 
is a viable option for many veterans with disabilities. For instance, 
small businesses owned by service disabled veterans have contracting 
advantages with the Federal Government. Thus, the opportunity to 
develop a small business must be a serious consideration for any 
veteran seeking to be an entrepreneur.
    For veterans who seek employment through a traditional work 
environment, VetsFirst believes that VR&E must provide increased 
followup to ensure that veterans have long-term employment success. 
Currently, veterans with disabilities who maintain a suitable job for 
60 days are considered to be rehabilitated. Unfortunately, 60 days may 
not provide a sufficient period to determine whether a veteran will be 
successful in his or her new job.
    VetsFirst also believes that VR&E must focus on assisting veterans 
in obtaining employment that is above entry-level when appropriate. In 
addition to ensuring that veterans are placed at the right levels of 
employment, VetsFirst believes that it is important to follow the 
advancement of veterans to determine if VR&E services have assisted 
them in obtaining growing careers. VR&E must not simply prepare a 
veteran for today's workforce but anticipate the demands of tomorrow's 
workplace.
    To accomplish the goal of helping veterans obtain the right types 
of employment, VR&E has worked to increase collaboration with other 
agencies and organizations that provide employment and rehabilitation 
assistance for veterans and people with disabilities, including State 
vocational rehabilitation agencies. VetsFirst believes that these 
collaborations are important because veterans with disabilities are 
people with disabilities. Specifically, eligible veterans must be able 
to benefit from both VR&E and State vocational rehabilitation services.
    VetsFirst is pleased that VR&E is in the process of finalizing a 
memorandum of understanding with the Rehabilitation Services 
Administration. Formalizing the connection between VR&E and State 
vocational rehabilitation agencies through the Rehabilitation Services 
Administration is critical to ensuring that veterans with disabilities 
receive the services they need to help them return to or remain in the 
workforce. Without a strong partnership between VR&E and State 
vocational rehabilitation agencies, veterans with disabilities who need 
these services may be unable to successfully navigate these programs.
    Thank you for the opportunity to testify concerning VetsFirst's 
views on VA's VR&E program budget and operations. We appreciate your 
leadership on behalf of our Nation's veterans with disabilities and 
their families and survivors. VetsFirst stands ready to work in 
partnership to ensure that all veterans are able to reintegrate into 
their communities and remain valued, contributing members of society. I 
would be pleased to answer any questions.
---------------------------------------------------------------------------
    \1\ Veterans for Common Sense, VA: Consequences of Iraq and 
Afghanistan Wars (2011), http://www.govexec.com/pdfs/032111bb1.pdf. 
Veterans for Common Sense prepared these statistics based on 
information from VA obtained through the Freedom of Information Act.
    \2\ The Independent Budget for the Department of Veterans Affairs--
Fiscal Year 2012 39 (2011).
    \3\ Government Accountability Office, ``VA Vocational 
Rehabilitation and Employment: Better Incentives, Workforce Planning, 
and Performance Reporting Could Improve Program,'' GAO-09-34, January 
2009, at 11.
    \4\ Id.
    \5\ Id. at 10.

---------------------------------------------------------------------------
                                 <F-dash>

                 Prepared Statement of John L. Wilson,
  Assistant National Legislative Director, Disabled American Veterans
                           Executive Summary
      <bullet>  Vocational Rehabilitation and Employment (VR&E) service 
projects a 10 percent increase in its workload for fiscal year (FY) 
2012 over 2011, a workload of 119,905 veterans. These numbers continued 
to increase from FY 2011's workload of an estimated 109,005. Additional 
funding to support this growth is essential.
      <bullet>  General Accounting Office (GAO) 2009 study assessed 
VR&E staff's ability to meet its core mission and found:
            <bullet>  54 percent of all 57 regional offices reported 
        fewer counselors than needed;
            <bullet>  40 percent reported fewer employment coordinators 
        than needed; and
            <bullet>  90 percent reported caseloads more complex for 
        veterans of the current conflicts.
      <bullet>  VR&E current caseload target is one counselor for every 
125 veterans, but feedback from the field found workload ranging as 
high as one to 160.
      <bullet>  VR&E needs at least 100 new staff counselors to reduce 
current counselor-to-client workload and 50 additional full-time 
employees (FTE) for management and oversight of contract counselors and 
rehabilitation and employment service providers.
      <bullet>  VR&E needs 10 additional FTE to expand the Veteran 
Success on Campus program.
      <bullet>  Congress should continue to monitor the results of 
ongoing work measurement/skills studies and provide funding for any 
identified staffing needs and targeted training in core competencies.
      <bullet>  Congress should fund the longitudinal study it mandated 
in Public Law 110-389, which will provide greater understanding of the 
needs of VR&E program participants and accuracy of reporting of program 
outcomes.
      <bullet>  To achieve better outcomes, VR&E service along with 
other VA employment, education and business assistance programs 
designed to enhance economic security, should be reorganized into a 
single new administration inside Department, on par with the Veterans 
Health Administration, Veterans Benefits Administration and National 
Cemetery Administration.

                               __________

    Mr. Chairman and Members of the Subcommittee:
    Thank you for inviting the Disabled American Veterans (DAV) to 
testify at this important hearing of the Subcommittee on Economic 
Opportunity to address the Vocational Rehabilitation and Employment 
Service's fiscal year (FY) 2012 budget, its operations and ways to 
improve its performance. DAV is an organization of 1.2 million service-
disabled veterans, and we devote our energies to rebuilding the lives 
of disabled veterans and their families and survivors.
    Congress appropriates funds to the Department of Veterans Affairs 
so it can provide assistance to veterans seeking employment through 
VR&E services, VetSuccess program. This program assists veterans with 
service-connected disabilities in preparing for, finding and keeping 
jobs suitable to their skill sets. For veterans with severe service-
connected disabilities that impact their ability to immediately work, 
other services are available to help them live as independently as 
possible.
    Veterans are eligible for VR&E's VetSuccess program if they have an 
other than dishonorable discharge as well as a service-connected 
disability rating of at least 10 percent, or a memorandum rating of 20 
percent or more from the VA. The VetSuccess program is also open to 
active duty military who expect they will be separated with an 
honorable discharge and who also have a memorandum rating of 20 percent 
or more from the VA. Those who meet these criteria and apply for the 
program may receive a comprehensive evaluation that determines their 
employment interests, skills and abilities. Once the evaluation is 
complete, vocational counseling and rehabilitation planning towards 
employment service assistance may be provided. These employment 
services include job training, job-seeking skills, resume development, 
and other types of work readiness assistance. They may be given the 
opportunity to enhance existing skills sets through on-the-job-training 
(OJT), apprenticeships, and non-paid work experiences as well as post-
secondary training at a college, vocational, technical or business 
school. During this process, participants may also receive supportive 
rehabilitation services such as case management, counseling, and even 
medical referrals.
    Those with severe disabilities that are unable to work may qualify 
for the Independent Living program which allows eligible veterans to 
live independently. They may be provided assistive technology to help 
them adapt to their circumstances, specialized medical, health, or 
rehabilitation services, assistance in addressing personal or family 
adjustment issues and be put in contact with support services within 
their community.
    The basic period of eligibility for VetSuccess cannot currently 
exceed 12 years from either the date of separation from active duty, or 
the date the veteran was notified by the VA of their service-connected 
disability rating. This 12-year eligibility period can only be extended 
if a Vocational Rehabilitation Counselor (VRC) determines that a 
veteran has a serious employment handicap.
    The extended nature of the current overseas conflicts, combined 
with the slow recovery of the economy, have resulted in a projected 10 
percent increase in VR&E's workload. In FY 2012, the VA anticipates 
119,905 program participants to apply for these benefits as regular 
military personnel, guardsmen, and reservists return from the global 
war on terrorism and transition to veteran status. These numbers 
continued to increase from FY 2011's workload of an estimated 109,005. 
Additional funding to support this growth is essential. The President 
has requested 1,286 direct FTE to provide these critical services, an 
increase of 129 above the FY 2011 FTE level.
    DAV and our partners from The Independent Budget (IB) referenced in 
our FY 2012 document a General Accounting Office (GAO) 2009 study that 
assessed VR&E staff's ability to meet its core mission.\1\ GAO found:

    <bullet>  54 percent of all 57 regional offices reported fewer 
counselors than needed;
    <bullet>  40 percent reported fewer employment coordinators than 
needed; and
    <bullet>  90 percent reported caseloads more complex for veterans 
from the current conflicts.

    Feedback that DAV received from the field found that while VR&E has 
a current caseload target of one counselor to every 125 veterans, the 
actual workload ranged as high as one to every 160 veterans. The IB 
recommended 100 new staff counselors and 50 additional FTE for 
management and oversight of contract counselors and rehabilitation and 
employment service providers. We concur with the Committee's Views and 
Estimates for FY 2012 
that VR&E counselors' current caseload is too high.
    While addressing staffing, we must also highlight ``Veteran Success 
on Campus,'' a VA pilot program begun at the University of Southern 
Florida, which placed a vocational rehabilitation counselor and a 
Veterans Health Administration (VHA) outreach coordinator on the campus 
to assist veterans in vocational rehabilitation as well as veterans 
enrolled in the Post-9/11 GI Bill or other VA educational programs. 
Given the program's success, The Independent Budget Veterans Service 
Officers (IBVSOs) supported its expansion to Cleveland State 
University, Ohio and San Diego State College, California in FY 2011. In 
FY 2012, the plan is to expand the program further to Rhode Island 
Community College, Texas A&M, Arizona State University in Tempe, and 
Salt Lake City Community College. VR&E requested at least 10 full-time 
employees in FY 2012 to manage this expanding campus program. The 
IBVSOs support this request.
    We were pleased with the Committee's Views and Estimates for FY 
2012 which stated, ``. . . given the caseload increase of roughly 
10,000, the FTE increase will do little to reduce the average caseload 
from the current 135 to 150 veterans per counselor.'' You recommended a 
reallocation of $5.5 million from the General Administration account to 
support 50 additional VR&E counselors, above the increase of 129 called 
for by the President, to both decrease the length of time needed to 
begin receiving services and increase the quality of those services.
    In accordance with DAV Resolution No. 307, which calls for 
increased staffing levels in VR&E, and the IB, we support the 
Committee's Views and Estimates for FY 2012 call for an increase in 
VR&E staff to 179 FTE.
    The next area to address is the operation of the VR&E service and 
ways it could be improved. Congress should continue to monitor the 
results of VR&E's ongoing work measurement and skills study begun in 
February 2010 through its Business Process Reengineering (BPR) 
initiative. The BPR initiative is focused on streamlining processes and 
paperwork, redefining roles and metrics as well as leveraging 
technology to improve delivery of services. Once completed, we 
encourage Congress to provide the necessary funding for any identified 
staffing needs and targeted training in core competencies as well as 
possible legislative remedies.
    An accurate determination of the effectiveness of the VR&E program 
is an essential element in decisions regarding delivery of services, 
staff size, level of expertise, ongoing staff training requirements, 
optimum service delivery mechanisms to address the needs of program 
participants, the accuracy of reporting outcomes and other areas for 
improvement. The opportunity to obtain information to address these 
concerns can be obtained from a longitudinal study, a correlational 
research study that involves repeated observations of the same items 
over long periods of time, often decades. Longitudinal studies track 
the same people, and therefore the differences observed in those people 
are less likely to be the result of cultural differences across 
generations. Congress mandated such a study with the passage of the 
Veterans' Benefits Improvement Act of 2008, Public Law 110-389, section 
334, on October 10, 2008. VA was required to conduct a longitudinal 
study of its vocational rehabilitation programs, tracking individuals 
over a 20-year period that began participating in a vocational 
rehabilitation program during fiscal years 2010, 2012, and 2014. Annual 
reports are due to the Committees on Veterans' Affairs of the Senate 
and House of Representatives on July 1 of each year, with the first one 
due this year. The focus of the study is to assess the long-term 
outcomes of the individuals participating in the vocational 
rehabilitation programs.
    We agree with Congress that such a study is certainly needed as it 
has the great potential to provide fresh insights into the complex 
issue of delivery of VR&E services to our Nation's veterans. We 
therefore urge Congress to appropriate the necessary funds to support 
such a study.
    Delivery of services will be further enhanced with the planned 
stationing of VR&E counselors at four of the largest Integrated 
Disability Evaluation System (IDES) sites. The IDES mission is to 
provide a Department of Defense (DoD) and VA IDES that is seamless, 
transparent, and administered jointly by both Departments, using one 
disability rating system, thus streamlining the process for the 
military personnel transitioning from the DoD to the VA. IDES features 
a single set of disability medical examinations to determine both 
fitness and disability, and a single set of disability ratings provided 
by VA. The IDES is the result of a recommendation of the President's 
Commission on Care for America's Returning Wounded Warriors that ``DoD 
and VA should create a single, comprehensive, standardized medical 
examination that the DoD administers. It would serve DoD's purpose of 
determining fitness and VA's of determining initial disability level.'' 
\2\
    When a military member's medical conditions cause them to be put on 
a medical profile that makes them no longer deployable and curtails 
their ability to effectively carry out the duties of their rank and 
military specialty, they will be evaluated by a Medical Evaluation 
Board (MEB). If the MEB determines that the member has a medical 
condition which is incompatible with continued military service, they 
are referred to the IDES. Then, an Informal Physical Evaluation Board 
(IPEB) determines if the military member is fit for continued duty. 
Through a review of medical documentation, a commander's statement and 
information submitted by the military member, a three-member board from 
the member's military Service branch determines if they can continue in 
the service. If the IPEB decides the member can continue, they are 
designated ``fit'' and returned to duty. If not, they are found 
``unfit.''
    If found unfit, the records are sent to the Veterans Benefit 
Administration (VBA) to receive a disability rating. After the VBA 
reviews the records and determines the disability rating, the record is 
passed back to the IPEB, which uses the VA's cumulative rating to 
determine the overall percentage of disability for the unfit conditions 
causing the member to be separated from the military. There are three 
types of medical separations the member can receive: separated without 
severance pay, separated with severance pay, or retired. Once the 
military member is informed of the IPEB's decision, they can either 
accept the findings or appeal the decision to a Formal Physical 
Evaluation Board (FPEB). The FPEB reviews all the information that the 
IPEB had, with the added feature of the member being able to personally 
appear before the FPEB and offer additional evidence. The FPEB holds a 
hearing, weighs the prior evidence, the member's testimony and any new 
evidence presented, and renders its recommendation. Just as with the 
IPEB, there are three types of medical separations the member can 
receive: separated without severance pay, separated with severance pay, 
or retired. Those who receive a disability rating of 20 percent or less 
are separated with or without severance pay. Those who receive a 
disability rating of 30 percent or more are either placed on the 
Temporary Disability Retired List and reevaluated at least every 18 
months with a final disability rating decision rendered at the 5-year 
point, or they are permanently retired from military service.
    As currently planned, when the military member is being processed 
through one of the four IDES sites staffed with VR&E counselors, they 
will be given a mandatory appointment to meet with a VRC and will be 
assisted in developing vocational goals as part of a vocational 
rehabilitation plan to assist them in making a successful transition 
from the military. These services will range from a comprehensive 
rehabilitation evaluation to determine abilities, skills, and interests 
for employment purposes to support services to identify and maintain 
employment. By physically placing VRCs at the largest IDES locations, 
benefits delivery timeliness may be improved, early intervention will 
help combat homelessness as well as poverty caused by under-employment.
    While we are pleased with the progress of the IDES program to date 
and VR&E's plans to expand delivery of services, we are concerned about 
another aspect of the program; servicemembers participating in IDES not 
having ready access to representation from a veterans service 
organization. As a result, most of the separating military members are 
relying instead on the advisory services of military counsel. Because 
most servicemembers undergoing this process are unaware of what is 
clearly a complex disability adjudication process which can render 
decisions with ramifications on access to VA benefits for years 
afterward, we believe their interests would best be served if they are 
represented by a national service officer of a chartered veterans 
service organization. DAV and the other coauthors of the IB therefore 
urge the DoD and VA to address this observed gap in IDES and expand 
access to our services.
    Another area where access to VR&E services could be enhanced would 
be with the elimination of the current 12-year eligibility period. In 
accordance with DAV Resolution No. 303, we recommend leaving the date 
to apply for this benefit open-ended. Despite efforts to keep veterans 
informed of their benefits, not all disabled veterans are aware of 
their possible entitlements to VR&E programs at the time they are 
awarded service-connection for disabilities until life's circumstances 
otherwise intervene. Many veterans do not necessarily see themselves as 
needing vocational rehabilitation until later in life, which is often 
after the current 12-year rule excludes them from the benefit they need 
and to which they would otherwise have been entitled. Since VA puts no 
time limit on when a veteran may claim his or her disability, we assert 
that there should be no time limit for access to VR&E benefits either. 
Open-ended eligibility could also help reduce the claims workload as 
applicants would not have to submit new claims or reopen old ones in 
hopes of being granted a new service-connection that would once again 
make them eligible for VR&E benefits.
    The VR&E Service focuses on providing individualized services to 
veterans with service-connected disabilities in an effort to assist 
them in achieving functional independence in daily activities, becoming 
employable, and obtaining and maintaining suitable, quality employment. 
VR&E has focused more on the vocational rehabilitation aspect and less 
on employment. For example, VR&E only conducts a 60-day follow-up on 
individuals recently employed as a measure to determine if they are 
``fully rehabilitated.'' Even more disturbing is the fact that if a 
veteran discontinues the use of VR&E services, regardless of the 
reasoning, VR&E reports it as a successful case of ``full 
rehabilitation.'' It is imperative that programs designed to prepare 
veterans for employment, both vocational rehabilitation and education 
programs, be better integrated with programs designed to secure 
veterans' employment.
    We also recommend, in accordance with DAV Resolution No. 307, that 
the current 60 days of employment as the standard for a veteran to be 
considered fully employed is insufficient. Typically, new employers 
require much longer periods of probationary employment. In the Federal 
sector, the probationary employment period can be for up to 1 year. We 
therefore recommend VR&E provide placement follow-up with employers for 
at least 6 months.
    VA also needs to continue improving its coordination with non-VA 
vocational programs to ensure that veterans are receiving the full 
array of benefits and services to which they are entitled in a timely 
and effective manner. Under the VA Strategic Plan for FY 2006-2011, the 
VA acknowledged that it plans to continue the utilization of non-VA 
providers to supplement and complement services provided by VR&E staff. 
Many State vocational rehabilitation agencies have memoranda of 
understanding with their State departments of veterans' services to 
coordinate services for veterans with disabilities, and some State 
agencies have identified counselors with military backgrounds to serve 
as liaisons with VA and veterans' groups. Moreover, the VA is 
increasingly engaged with State vocational rehabilitation agencies in 
outreach to the business community to promote veterans with 
disabilities as a valuable talent pool. In addition, numerous nonprofit 
vocational rehabilitation providers have served veterans 
with disabilities for many years in partnership with VA.
    These partnerships, however, create challenges that VA needs to 
address. Whereas qualified providers can partner easily with most State 
vocational rehabilitation agencies, VA's national acquisition strategy 
is viewed as overly cumbersome by private providers seeking to contract 
with VR&E. As a result, private non-VA providers that could address 
some of the demand by disabled veterans for employment assistance are 
shut out by complicated contracting rules. At the same time, State 
vocational rehabilitation agency staff may not always be familiar with 
veteran-specific disability issues related to traumatic brain injury, 
post-traumatic stress disorder, and other combat-related injuries and 
conditions. In addition, because of funding and staffing shortages 
experienced by State vocational rehabilitation agencies, disabled 
veterans seeking vocational rehabilitation services could bounce 
between VA's VR&E and State vocational rehabilitation agencies without 
being properly served.
    We recommend that VR&E Service improve its national acquisition 
strategy to make it easier for qualified vocational rehabilitation 
providers to offer services to disabled veterans. Further, VA should 
offer joint training to their staffs as well as State vocational 
rehabilitation partners on traumatic brain injury, post-traumatic 
stress disorder, and other veteran-specific disability issues to 
improve cross-agency coordination. VR&E should continue to enhance 
coordination with State vocational rehabilitation programs, One-Stop 
Career Centers, and private sector vocational rehabilitation programs. 
The VR&E Service should also improve case management techniques and use 
state-of-the-art information technology to track the progress of 
veterans served outside VR&E.
    We also know that veterans with dependents are the second largest 
group that looks to VR&E for assistance. They also tend to use VR&E's 
employment services track more than disabled veterans who do not have 
dependents. While pursuing vocational rehabilitation may be a wish, the 
need for immediate employment to meet the demands of life's financial 
obligations in cases where VA's assistance is inadequate. For example, 
those veterans who do not qualify for the Post-9/11 GI Bill do not have 
the option of using the more generous housing stipend over the 
vocational rehabilitation's living stipend. We therefore recommend 
veterans in this circumstance be provided child care vouchers or 
stipends so long-term education or vocational rehabilitation will no 
longer be out of reach. We also recommend a monthly stipend for those 
participating in the employment track of VR&E programs.
    The Independent Living program, as noted earlier, allows eligible 
veterans to live independently by providing assistive technology to 
help them adapt to their circumstances, specialized medical, health, or 
rehabilitation services, assistance in addressing personal or family 
adjustment issues and be put in contact with support services within 
their community. Unfortunately, the program participation is capped and 
program participation cannot exceed 30 months. The current cap is at 
2,700 as a result of Public Law 111-275, the Veterans Benefits Act of 
2010. The problem is, as VR&E approaches the ceiling each year, it must 
consequently slow delivery of services until the next fiscal year. We 
therefore recommend that Congress eliminate the 30-month maximum and 
the cap on program participation.
    The last area I wish to address has to do with the delivery of 
services, not just by VR&E service, but all VA programs designed to 
enhance the economic security of veterans, specifically those focused 
on employment, education, and business assistance. In accordance with 
DAV Resolution 306 and the recommendation of the FY 2012 IB, we call 
for the reorganization of all such programs within a single new 
Administration inside the Department, commensurate with VHA, VBA, and 
the National Cemetery Administration.
    While all Americans face challenges during economic downtimes, 
veterans have been particularly hard hit. Statistics clearly illustrate 
the struggle that veterans face while transitioning from military 
service to civilian life. Unemployment statistics for February 2011 
from the Bureau of Labor Statistics showed the overall unemployment 
rate for all veterans of 9.2 percent.\3\ For veterans from the Iraq and 
Afghanistan conflicts, the unemployment rate is 12.5 percent.\4\ While 
there is some improvement from March 2010, when the unemployment rate 
was 14.7 percent for this group, it is still higher than the national 
average. Moreover, younger veterans, those ages 18-24, are at times 
twice as likely to be unemployed as their civilian counterparts.
    On any given night it is estimated there are 79,000 homeless 
veterans. Even though this number has decreased in recent years, it is 
still too high. Congress approved a historic new GI Bill for Post-9/11 
veterans, but VA struggled to implement this program and deliver this 
benefit. Vocational rehabilitation programs for disabled veterans have 
failed to achieve adequate success rates despite improvements in recent 
years. VA programs designed to provide assistance to veteran 
entrepreneurs have fallen short of expectations, in part due to the 
lack of funding and proper organization.
    In order to achieve better outcomes for veterans, DAV and our 
partners in the IB believe that VA programs that effect veterans' 
economic status should be housed under a new and separate 
administration, the Veterans Economic Opportunity Administration 
(VEOA). The VEOA would be headed by an Under Secretary for Veterans 
Economic Opportunity who would administer all VA programs of economic 
opportunity assistance to veterans and their dependents and survivors. 
This new administration would be responsible for and composed of the 
following existing programs: VR&E Service; Education Service (GI Bill); 
Office of Small and Disadvantaged Business Utilization; Homeless 
Veterans Program Office; and Home Loan Guaranty.
    As veterans' programs have become more complex over the years, the 
dispersed nature of these programs has challenged VA's senior 
management to effectively monitor the delivery of services for each 
program. Establishing a fourth administration within VA dedicated to 
creating economic opportunities for veterans would increase the 
visibility and accountability of all employment-related programs and 
would allow an overburdened VBA to focus on the monumental task of 
reforming the disability compensation claims processing system.
    Mr. Chairman, this concludes my testimony. I would be glad to 
answer any questions you may have.
---------------------------------------------------------------------------
    \1\ Government Accountability Office, VA Vocational Rehabilitation 
and Employment: Better Incentives, Workforce Planning, and Performance 
Reporting Could Improve Program, GAO-09-34, January 26, 2009, 6.
    \2\ 
The President's Commission on Care for America's Returning Wounded Warri
ors (July 2007), 7.
    \3\ Table A-5. Employment status of civilians of the civilian 
population 18 years and over by veteran status, period of service, and 
sex, not seasonally adjusted, March 4, 2011, http://www.bls.gov/
news.release/empsit.t05.htm
    \4\ Ibid.

---------------------------------------------------------------------------
                                 <F-dash>

                Prepared Statement of Richard C. Daley,
    Association Legislation Director, Paralyzed Veterans of America
    Chairman Stutzman, Ranking Member Braley, and Members of the 
Subcommittee, Paralyzed Veterans of America (PVA) would like to thank 
you for the opportunity to testify concerning the issue of the 
Department of Veterans Affairs (VA) Vocational Rehabilitation and 
Employment Program (VR&E). The Global War on Terror has produced a 
large number of men and women that have honorably served the country 
and have returned to civilian life with one or more physical and or 
psychological wounds that create barriers to entry, or reentry into the 
civilian workforce. PVA would like to thank Congress and this 
Subcommittee for all the support they have provided disabled veterans 
and all veterans to make this transition successfully.
    The purpose of the VR&E program, as authorized under Chapter 31 of 
title 38 U.S.C., is to provide comprehensive services to address the 
employment barriers of service-connected disabled veterans in an effort 
to achieve maximum independence in daily living, and to obtain and 
maintain gainful employment. Ultimately, a goal of the VR&E program is 
to provide services to severely disabled veterans that will help them 
achieve the highest quality of life possible.
    Currently, to be eligible for VR&E, a veteran must have been 
discharged under circumstances other than dishonorable; have a 
disability rating or 20 percent or more that was incurred in, or 
aggravated by their service; and be in need of vocational 
rehabilitation in an effort to overcome employment barriers caused by 
such service-connected disability. VR&E provides for 48 months of 
entitlement to use the program and, unfortunately veterans only have 12 
years from the date of the initial VA disability rating notification to 
utilize the program, with an exception for those with a serious 
employment disability.
    PVA and the other co-authors of the The Independent Budget, 
Disabled American Veterans, AMVETS, and Veterans of Foreign Wars 
strongly believe that this 12-year eligibility period should be 
eliminated and all veterans with employment impediments should qualify 
for VR&E services. Many veterans are not aware of the VA's VR&E program 
and how it can be used to improve veterans' lives. Often veterans learn 
of the VR&E services while talking to a VSO service officer or a 
service organization years after their discharge and they have little 
time remaining to utilize the program.
    After severe injuries such as Traumatic Brain Injury (TBI) or 
Spinal Cord Injury (SCI) a veteran requires years to complete 
rehabilitation and make the adjustment to basic activities of daily 
living. During this time he or she is focused on recovery and the 
activity of returning to work is not a top priority for the veteran. 
Nevertheless, the veteran's eligibility is elapsing.
    Additionally, as many disabled veterans age, the service-connected 
disability may impose further restrictions on a veteran preventing him 
or her from continuing their civilian work activities. The veteran may 
still have the economic need and the desire to work for another 10 or 
20 years. With the 12-year limitation, many service-connected disabled 
veterans are disqualified and not able to utilize the VR&E services 
they have earned through the VA.
    During the process of testing, evaluating, and preparing 
rehabilitation plans for qualifying veterans, the VR&E program often 
uses contracted suppliers. The VA claims that this is the only possible 
option available to address the needs of veterans in remote geographic 
areas and provide some of the support functions such as administrating 
testing procedures. PVA questions the use of contractors to perform the 
individual ``one-on-one'' work with veterans. We are concerned that 
this ``one-on-one'' work with the veteran is being contracted out in 
order for the trained VA counselor to have time to complete required VA 
paper work. If this in fact is true, then this is certainly not the 
best use of the experienced VA counselors' expertise.
    Another issue of concern for PVA is uniformity of the VR&E program 
regulations. PVA has received reports that different VA offices 
interpret the regulations pertaining to the VR&E program differently. 
This fosters inconsistent case management and a lack of accountability. 
In a previous hearing, PVA explained the story of one of our members 
with a recent spinal cord injury that was participating in the VR&E 
program. The program required the veteran to attend regular scheduled 
sessions and the veteran had problems with punctual attendance for the 
prescribed program at a VA facility. This was due to a physical and 
medical condition directly related to his injury. The veteran was 
expelled from the program, against the veteran's wishes, because of his 
late arrivals. PVA believes this was a strict interpretation of the 
regulation for participation in the program. The veteran was seriously 
disabled and still has the ambition and desire to work. The VA should 
work with the veteran, not against the veteran.
    Lastly, another issue brought to our attention by our service 
officers is the inability to quickly provide some basic services to 
those veterans that have been diagnosed with amyotrophic lateral 
sclerosis (ALS), which is a terminal condition. In recent years the VA 
has required the rating system to expedite these claims since an ALS 
diagnosed veteran has limited time (two to five years) to live. This 
has resulted in the ALS veteran receiving his or her usual compensation 
check as quickly as possible. In advanced stages of ALS, the veteran 
will rely on a wheelchair for mobility and most likely choose to spend 
the remaining months at home with family, rather than in a nursing 
facility or VA hospital. The procedure to modify the bathroom door for 
the wheelchair and other minor modifications now requires a veteran to 
submit the application for a Specially Adaptive Housing (SAH) grant, 
wait for approval of the application and submit the technical drawing 
for the construction modifications. The VA will then approve the plan 
or make recommendations for the modification. If recommendations are 
needed, the veteran resubmits the plan, and waits for the VA to approve 
the plan again. The VA also goes to the home to inspect the proposed 
site modification and at that time they may require additional plans 
for more modifications such as the addition of a second accessible rear 
entrance for emergency exit. This requires another application and 
another set of drawings and another approval procedure. The entire 
process could require 6 to 12 months.
    The veteran's only request was to modify the bathroom door by 
enlarging it 2 inches to accommodate the wheelchair. Any other mobility 
inconveniences would be tolerated in order to allow the veteran to 
remain in the home during the last months of life. Unfortunately as the 
veteran waits for the system to complete the requirements of the VA 
procedures, it is not unusual for the veteran to die before the home is 
modified to the VA standards.
    For years the VA VR&E program has used funds from the Independent 
Living (IL) program to accommodate the ALS diagnosed veteran. The 
veteran and IL Counselor would select a previously approved contractor 
who follows the VA guidelines for bathroom modifications. The work is 
completed in weeks and the contractor is paid with IL funds.
    In the last year, the VA has changed this procedure and will not 
allow the IL program to pay for modifications and requires the 
Specially Adapted Housing (SAH) grant through the VA prosthetics 
program to accommodate the necessary modifications. This in fact, may 
be the new method to administer and account for these funds, but it is 
not working for the dying ALS veteran. PVA strongly encourages Congress 
and the VA to change its current policy involving veterans with ALS so 
that these claims are expedited to ensure veterans receive all 
necessary support during these last months of life.
    VR&E should be more flexible with providing programs for veterans. 
The goal should be employment whenever possible, not just completing a 
prescribed course. This should include educational programs and non-
degree employment training programs. Moreover, the VA should ensure 
that the training options offered through VR&E are compatible with the 
current 21st Century workplace.
    The VA's VR&E program provides invaluable services to America's 
veterans. From technical and professional training to self-esteem and a 
sense of financial independence. It is for this reason the VR&E 
services should fully meet the needs of veterans who have made the 
ultimate sacrifice and incurred a service-connected disability.
    PVA would like to thank this Subcommittee again for their 
constructive input on the programs of the Department of Veterans 
Affairs that help improve the lives of veterans. That concludes my 
testimony. I would be happy to answer questions you may have.

                                 <F-dash>

                Prepared Statement of John M. McWilliam,
       Deputy Assistant Secretary for Operations and Management,
  Veterans' Employment and Training Service, U.S. Department of Labor
                           Executive Summary
    The Veterans' Employment and Training Service (VETS) proudly serves 
veterans and transitioning servicemembers through four major programs 
that are an integral part of Secretary Solis's vision of ``Good Jobs 
for Everyone.''

    <bullet>  The Jobs for Veterans State Grants (JVSG), which provide 
Federal funds to support State-employed Local Veterans' Employment 
Representatives (LVERS) and Disabled Veterans' Outreach Program 
Specialists (DVOPs);
    <bullet>  The Transition Assistance Program Employment Workshops 
(TAP);
    <bullet>  The Homeless Veterans' Reintegration Program (HVRP); and
    <bullet>  The Uniformed Services Employment and Reemployment Rights 
Act (USERRA).

    Much of VETS' interaction with the VR&E program is through the 
Workforce Investment System and the outstationing of Disabled Veterans' 
Outreach Program specialists (DVOPs) at Vocational Rehabilitation and 
Employment (VR&E) offices.
    Under a Memorandum of Agreement (MoA) between the Department of 
Labor (DoL) and VA a Joint Working Group (JWG) has been working to 
improve the quality of employment services and job placements for 
veterans enrolled in VR&E programs. The JWG has:

    <bullet>  Facilitated a pilot program to identify and catalogue 
best practices from existing sites. This 1-year pilot involved eight 
locations nationwide.
    <bullet>  Developed roles and responsibilities for the major 
agencies involved in the VR&E process.
    <bullet>  Identified the major issues to providing shared data 
between the VA and DoL.
    <bullet>  Identified the joint training requirements for both DoL/
VETS and VR&E employees involved in employment assistance at the VR&E 
locations.
    <bullet>  Developed a technical assistance guidance document that 
specified the roles and responsibilities and reporting requirements for 
both DoL/VETS and VR&E staff.

    VETS has designated the outstationed DVOP position at the VR&E 
offices as an Intensive Service Coordinator (ISC). The ISC provides 
employment information to VR&E participants during their rehabilitation 
program. In 2009 VETS issued guidance that each State would include an 
ISC at each VR&E Regional Office. All States subsequently incorporated 
the ISC into their FY 2010 State plans.
    In FY 2010, 4,989 disabled veterans who completed VR&E were 
referred to the State Workforce Agencies for intensive employment 
services. Of these, 1,764 were placed into employment for a placement 
rate of 35 percent. This was at an average annual wage of $37,800. 
During the first quarter of FY 2011, 1,323 referrals were made to the 
State Workforce Agencies.

                               __________

    Chairman Stutzman, Ranking Member Braley, and Members of the 
Subcommittee:
    Thank you for the opportunity to appear as a witness before the 
Subcommittee and speak to you on the Department's interagency 
cooperation with the Department of Veterans Affairs' Office of 
Vocational Rehabilitation and Employment (VR&E), and our joint efforts 
to serve our Nation's disabled veterans in need of VR&E services that 
lead to employment.
    The Veterans' Employment and Training Service (VETS) proudly serves 
veterans and transitioning servicemembers by providing resources and 
expertise to assist and prepare them to obtain meaningful careers, 
maximize their employment opportunities and protect their employment 
rights. We do that through four major programs that are an integral 
part of Secretary Solis's vision of ``Good Jobs for Everyone.''

    <bullet>  The Jobs for Veterans State Grants (JVSG), which provide 
Federal funds to support State-employed Local Veterans' Employment 
Representatives (LVERS) and Disabled Veterans' Outreach Program 
Specialists (DVOPs);
    <bullet>  The Transition Assistance Program Employment Workshops 
(TAP);
    <bullet>  The Homeless Veterans' Reintegration Program (HVRP); and
    <bullet>  The Uniformed Services Employment and Reemployment Rights 
Act (USERRA).

    Much of VETS' interaction with the VR&E program is through the 
Workforce Investment System and the outstationing of Disabled Veterans' 
Outreach Program specialists (DVOPs) at VR&E offices. Accordingly, VETS 
continues to work in partnership with its JVSG recipients on behalf of 
VR&E job-ready veterans who are referred to and registered with State 
Workforce Agencies (SWA) for intensive employment services.
    The Disabled Veterans' Outreach Program (DVOP) is a State grant 
program started in 1977 and authorized by Section 4103(A) of Title 38, 
United States Code. DVOP specialists provide intensive employment 
assistance to meet the employment needs of eligible Veterans. DVOP 
specialists provide intensive services at the One-Stop Career Centers 
and at the VR&E offices. They also provide recovery and employment 
assistance to wounded and injured servicemembers receiving care at 
Department of Defense military treatment facilities and Warrior 
Transition Units through the Recovery & Employment Assistance Lifelines 
(REALifelines) program, working closely with the VR&E rehabilitation 
counselors also at these facilities. DVOPs focus their services to 
disabled veterans. DVOPs also provide services through the Homeless 
Veterans' Reintegration Program, Veterans' Workforce Investment 
Program, Transition Assistance Program, and Incarcerated Veterans' 
Transition Program.
Background of Collaboration
    In 2005, senior leadership from VETS and VR&E, including the then 
Assistant Secretary for VETS and Director for VR&E, met with the 
Subcommittee staff to discuss how the two agencies could better 
collaborate. As a result of that meeting, a new Memorandum of Agreement 
(MoA) between the Department of Labor (DoL) and VA was executed and 
three work groups were established. These three work groups 
subsequently were combined into a Joint Working Group (JWG).
The VA/DOL Joint Working Group (JWG)
    The goal of the JWG is to improve the quality of employment 
services and job placements for veterans enrolled in VR&E programs.
    DoL and VA leadership have taken an active role with the JWG. I 
have taken a personal interest in this issue and was involved in the 
three work groups and in the creation of the JWG. I take this 
cooperative effort very seriously.
    The three work groups were established to execute the requirements 
of the MoA. VETS' participants have included one individual from each 
of our six regions and at least three individuals from the national 
office. The three work groups dealt with the following subjects:

    <bullet>  Performance Measures for Assessment of Partnership 
Program Results;
    <bullet>  Curriculum Design; and
    <bullet>  Joint Data Collection, Analysis, and Reports.

    These groups made significant accomplishments; they:

    <bullet>  Facilitated a pilot program to identify and catalogue 
best practices from existing sites. This 1-year pilot involved eight 
locations nationwide.
    <bullet>  Developed roles and responsibilities for the major 
agencies involved in the VR&E process.
    <bullet>  Identified the major issues to providing shared data 
between the VA and DoL.
    <bullet>  Identified the joint training requirements for both DoL/
VETS and VR&E employees involved in employment assistance at the VR&E 
locations.
    <bullet>  Developed a technical assistance guidance document that 
specified the roles and responsibilities and reporting requirements for 
both DoL/VETS and VR&E staff.

    Both DoL and the VA subsequently published this technical 
assistance guidance document in December 2008.
    As a result of the initiative to clearly identify roles and 
responsibilities, we have designated the outstationed DVOP position at 
the VR&E offices as an Intensive Service Coordinator (ISC). This 
designation, with new duty requirements, clearly differentiates the 
work required at VR&E sites from the roles of the DVOP at a One Stop 
Career Center. The ISC provides employment information to VR&E 
participants during their rehabilitation program, and refers them at 
the end of the program to DVOPs at One Stop Career Centers. The DVOPs 
at One Stop Career Centers then provide intensive services to referred 
participants to assist them in obtaining employment.
    Besides working with Job-Ready veterans, the JWG also planned to 
involve DVOPs at the front end of VR&E process to help veterans 
determine local labor market information. This interaction was intended 
to facilitate the rehabilitation planning process by providing the 
veteran and the VR&E counselor with current data on salary and job 
outlook as well as increasing understanding of working conditions for 
specific occupations.
    In December 2008, the end of the pilot program was marked by a 
webcast to all VR&E locations that initiated the implementation phase 
of this project.
    In support of the technical assistance guidance, in 2009 VETS 
issued guidance that each State's JVSG Five Year Strategic Plan (FY 
2010-2015) would include the outstationing of a DVOP specialist at each 
VR&E Regional Office. All States subsequently incorporated the ISC into 
their FY 2010 State plans.
    Following this first year of implementation in 2010, VA and DoL 
will evaluate the program under the new guidance, and determine if 
changes are required to either the MoA or the technical assistance 
guidance.
Current Status of DOL Support to the VR&E Program
    VETS continues to work to ensure that a DVOP is outstationed at 
each of the 57 VR&E Regional Offices. In some instances, the States, 
due to staffing allowances or traditional roles, still have assigned at 
a VR&E office a Local Veterans Employment Representative (LVER), 
fulfilling the role of an ISC. There is currently either a DVOP 
specialist or LVER outstationed at least half-time in 48 of the VA 
Regional Offices and in 19 satellite offices. This equates to 51.0 FTE 
DVOP and 4.0 FTE LVER for a total FTE of 55.0.
    In FY 2010, 4,989 disabled veterans who completed VR&E were 
referred to the State Workforce Agencies for intensive employment 
services. Of these, 1,764 were placed into employment for a placement 
rate of 35 percent. This was at an average annual wage of $37,800.
    During the first quarter of FY 2011, 1,323 referrals were made to 
the State Workforce Agencies. We do not have final information on their 
outcomes at this point.
    The VETS focus on serving disabled veterans who participate in the 
VE&E program remains of utmost importance to us. The ultimate goal in 
this VA/DoL partnership is successful job placement and adjustment to 
employment for disabled veterans without duplication, fragmentation, or 
delay in the services provided.
    We are proud of our collaboration with the VA to increase 
employment opportunities for service-disabled veterans. That positive 
working relationship has also carried over into other initiatives and 
strengthened cooperation and coordination between VETS and our State 
workforce partners.
    This concludes my statement and I would be happy to respond to any 
questions.

                                 <F-dash>
                 Prepared Statement of Ruth A. Fanning,
      Director, Vocational Rehabilitation and Employment Service,
 Veterans Benefits Administration, U.S. Department of Veterans Affairs
    Chairman Stutzman, Ranking Member Braley, and distinguished Members 
of the Subcommittee, thank you for inviting me to appear before you 
today to discuss the Department of Veterans Affairs Vocational 
Rehabilitation and Employment program. I am pleased to be accompanied 
by Ms. Iris Cooper, Associate Deputy Assistant Secretary for the Office 
of Acquisition, Logistics, and Construction. We look forward to 
continuing our strong collaboration and partnership with this 
Subcommittee, the full Committee, and the entire Congress as we work 
together to enhance the delivery of benefits and services to our 
Nation's veterans with disabilities.
Overview of the VR&E Program
    The VR&E program is designed to assist disabled servicemembers in 
their transition to civilian life and suitable employment and careers. 
Our primary mission is to assist veterans with service-connected 
disabilities to prepare for and obtain suitable and sustainable 
employment through the provision of services individually tailored to 
each veteran's needs. VR&E services begin with a comprehensive 
evaluation to help veterans identify and understand their interests, 
aptitudes, and transferable skills. Next, vocational exploration 
focuses veterans' potential career goals with labor-market demands. 
This allows veterans to participate in the development of a 
rehabilitation plan that builds on their transferable skills and 
ultimately assists them in achieving their career goals. To help 
veterans accomplish their rehabilitation goals, VR&E provides a broad 
range of employment services such as:

    <bullet>  Translation of military experience to civilian skill 
sets;
    <bullet>  Direct job-placement services;
    <bullet>  Short-term training to augment existing skills to 
increase employability (e.g., certification preparation tests and 
sponsorship of certification); and
    <bullet>  Long-term training including on-the-job training, 
apprenticeships, college training, or services that support self-
employment.

    In addition, VR&E provides extensive outreach and early 
intervention services through our Coming Home to Work (CHTW) program. 
Under this program, full-time VR&E rehabilitation counselors are 
assigned to 13 military treatment facilities to assist disabled 
servicemembers in planning for their next careers. We also have CHTW 
coordinators in every regional office working with Department of 
Defense (DoD) Warrior Transition Units and programs, coming home 
events, Guard and Reserve Yellow Ribbon events, and Post Deployment 
Health Reassessments.
VR&E Fiscal Year (FY) 2012 Budget
    The FY 2012 budget request for VR&E supports 1,286 direct Full Time 
Employees (FTE), an increase of 132 FTE from the current 2010 level of 
1,154. These additional resources will support a projected 15 percent 
increase in workload from FY 2010, and expand two very important 
programs.

    <bullet>  110 employees are requested to increase VR&E's early 
intervention and outreach program in the joint VA/DoD Integrated 
Disability Evaluation System (IDES). VR&E rehabilitation counselors at 
the selected IDES sites will provide separating servicemembers with a 
mandatory initial counseling session, followed by continued vocational 
services for eligible servicemembers who elect to participate in the 
VR&E program. Initial meetings will inform servicemembers of the 
availability of benefits and services through the VR&E and other VA 
education programs. In many cases, this will allow training and 
preparatory services to begin while the servicemember is still in the 
IDES process.
    <bullet>  Nine additional FTE are requested to expand VA's 
VetSuccess on Campus initiative. This program, already in place at 
eight campuses, supports veteran-students in completing college and 
entering fulfilling careers. VR&E rehabilitation counselors and Vet 
Center counselors provide strong on-campus support systems that include 
counseling services, assistance in accessing VA benefits, help in 
overcoming barriers that may include physical or mental health issues, 
and assistance in connecting with other veteran-students.

    In addition, the FY 2012 budget request supports modernization of 
the Disabled Transition Assistance Program (DTAP). Program content will 
be specifically tailored to servicemember and veteran audiences and 
DTAP will be deployed in multiple channels, making it readily 
accessible to servicemembers, veterans, and family members on a ``just-
in-time'' basis.
    The budget request also supports VR&E's ongoing transformation 
initiative to streamline and simplify our processes, speed veterans' 
entry into VR&E services, while freeing staff to focus on direct 
service delivery such as vocational counseling and job placement 
assistance versus time consuming administrative efforts.
VR&E Legislatively Mandated Studies
    Public Law 110-389 required VA to conduct two studies; section 333 
specified a study on the completion of VR&E services, and section 334 
specified a 20-year longitudinal study of three veteran cohorts.
    The Study of Measures to Assist and Encourage Veterans in 
Completing Vocational Rehabilitation (mandated by section 333), was 
completed and reported to Congress in April, 2010. VR&E has implemented 
or is in the process of implementing all six recommendations resulting 
from the study. These recommendations included satisfaction surveys of 
veterans who leave before completing their programs; provision of 
opportunities for counselors to develop skills that contribute to 
positive client relationships; active outreach regarding VR&E programs 
and services to veterans and their families; increased integration of 
vocational rehabilitation and other services, so that the main factors 
influencing program dropouts are addressed early; studies to identify 
factors associated with program completion; and studies on financial 
incentives that promote program completion.
    We did not request funding in FY 2010 or FY 2011 to conduct the 
longitudinal study, but VR&E Service completed preliminary analysis to 
establish the study protocol for data collection. Our FY 2012 budget 
request includes funding to support submission of full requirements of 
the FY 2012 longitudinal study. Although the longitudinal study 
required by section 334 was not funded in FY 2010 or FY 2011, VR&E 
Service is preparing a report for submission to Congress that will 
aggregate the limited data available for the first 2010 cohort group. 
VA expects to furnish it in July 2011.
Program Participation and Metrics
    The VR&E program currently serves approximately 105,000 veterans 
through the VetSuccess program. Of that number, approximately 57,000 
are engaged in rehabilitation plans leading toward employability for 
career outcomes that will be realized this year or over the next 5 
years, depending on the program track and duration, as well as economic 
factors in the labor market. The remaining 48,000 veterans are in other 
phases of the program, such as evaluation and planning. Of those 
veterans who were provided a ``track'' of services and exited during FY 
2010, 77 percent, or more than 10,000, were successfully rehabilitated 
last year.
    We project participation to increase 5 percent (approximately 
109,000) in FY 2011 and 10 percent (approximately 120,000) in FY 2012. 
These increases are based on the increase of compensable presumptive 
conditions, VR&E's participation in the IDES process, and Congress' 
recent changes to the Post-9/11 GI Bill (Chapter 33) that will allow 
VR&E participants who are eligible for Chapter 33 benefits to elect the 
higher Chapter 33 housing allowance. The veteran-to-counselor caseload 
ratio is 136 participants per counselor. With the anticipated workload 
and staffing increases, we expect the 2012 ratio to be similar.
    Over the past three fiscal years, VR&E Service has placed a large 
focus on the independent living (IL) program, which serves those 
veterans who are unable to work due to significant disabilities. In 
fiscal year 2010, we developed 2,456 new IL plans, which are used to 
maximize veteran's autonomy with activities of daily living at home and 
in their communities. Reductions in the number of IL plans in prior 
years are related to two primary factors. First, VR&E concentrated a 
significant amount of training to ensure the field is providing IL 
services consistent with regulatory requirements. Second, we focused 
training on services that are holistic in nature, incorporating both 
employment and IL services. These hybrid plans do not count toward the 
yearly cap of IL cases. In addition, as assistive technology continues 
to progress and new rehabilitation models allow veterans with more 
significant disabilities to enter the working world, we anticipate that 
hybrid rehabilitation plans that address both independent living and 
employment needs will continue to increase. VR&E's objective is to 
assist service-disabled veterans enter the workforce so they can 
realize the corresponding positive impact on self-esteem and health 
resulting from their careers, and so that our Nation can benefit from 
their skills and contributions.
    We anticipate that, as servicemembers continue to return with 
complex injuries, and Vietnam veterans with serious and progressive 
disabilities are awarded service-connection based on the new Agent 
Orange presumptive conditions, we will continue to focus additional 
attention on this critical VA program.
Contracting
    After the National Acquisition Strategy (NAS) contracts ended in 
July 2009, VR&E applied lessons learned from those contracts into an 
interim contract solution for regional offices needing contract 
counseling services to augment the services provided by VA employees. 
Local regional office VR&E programs were assisted in awarding local 
``bridge'' contracts until new VetSuccess contracts could be put into 
place. Currently we have 62 bridge contracts, overseen by 29 
contracting officers. We also converted some contracting funds to 
support additional FTE in order to improve timeliness and quality. As 
we have previously discussed with Subcommittee staff, effective today, 
we are commencing the award of the new VetSuccess contracts. These new 
contracts standardize contracting procedures, including structured 
report templates, standardized referral processes and forms, and a new 
automated invoicing and invoice approval process.
    Through cross-VA coordination and support from VBA field personnel; 
the Office of Acquisition, Logistics, and Construction (OALC); and the 
Office of General Counsel, we created a sound acquisition product, 
corresponding training, and a comprehensive post-award governance 
process to ensure continued oversight of contractors and appropriate 
administration by VR&E staff designated as contracting officer 
representatives. New contractors will have a 90-day ramp-up period to 
finalize staffing, complete security background checks and required 
security training. OALC and VR&E will conduct a post-award conference 
with successful offerors to ensure a thorough understanding of all 
relevant contracting processes, contract terms and conditions, and 
roles and responsibilities for the successful execution of the 
contracts. Contract administration tasks will be delegated as 
appropriate to administrative contracting officers and contracting 
officer technical representatives. As part of the contract phase-in, 
the VA team will ensure contractor compliance with contract staffing 
and space requirements. This process enables VA to verify that 
contractors have the capability to deliver quality services to 
veterans, in a timely manner.
Coordination with Rehabilitation Partners
    VA coordinates with rehabilitation partners around the country--
including with colleges and universities, the Department of Education 
(particularly the Rehabilitation Services Administration), the 
Department of Labor, the Office of Personnel Management, DoD Wounded 
Warrior Programs, and Veterans Service Organizations. The Department of 
Education's Veterans Upward Bound program provides many important 
services to veterans preparing to reenter college, including assessment 
of academic skills, refresher courses, assistance in completing college 
admission forms, personal academic advice and career counseling, 
assistance in completing financial aid and scholarship applications, 
tutoring and mentoring, and referrals to other community agencies 
serving veterans. Similarly, the Department of Education's Center for 
Excellence for Veteran Student Success program provides grant funds to 
colleges to encourage model programs to support veteran-student success 
in post-secondary education. These programs coordinate services to 
address the academic, financial, physical, and social needs of veteran-
students and are strong complements to the VA's VetSuccess on Campus 
program. We will continue to work collaboratively with the Department 
of Education to ensure that assistance is coordinated and any overlap 
of services minimized.
Business Process Reengineering Project
    VR&E Service recently launched a transformation project geared to 
make our VetSuccess program the premier 21st Century Vocational 
Rehabilitation and Employment program. In 2004, a VR&E Task Force 
report provided 110 recommendations to improve operations and service 
delivery. VR&E Service implemented 100 of the 2004 VR&E Taskforce 
recommendations. In the 7 years since this Task Force report, VA has 
identified other significant opportunities to enhance service to 
Veterans. VR&E's current transformation effort focuses on modernizing 
and streamlining services using a veteran-centric approach.
    VR&E's transformative changes include allowing veterans more choice 
in their appointment scheduling through automated scheduling, and 
expediting the veteran's entry into a rehabilitation program by 
streamlining and expediting the evaluation and planning process through 
reduction of bureaucratic processes and paperwork performed by VR&E 
counselors. Additional improvements include developing a caseload and 
staffing model and additional performance metrics for oversight and 
administration of the VR&E program. Next month VR&E is releasing a 
Knowledge Management Portal to simplify counselors' access to 
regulations, guidance, and other policy information needed to perform 
their jobs. And finally, VR&E is developing methods and business rules 
to move into a paperless processing model that incorporates self-
service.
    Working in collaboration with VA's Innovation Initiative (VAi2), 
VR&E Service is also engaged in innovative initiatives to build self-
employment incubators and tools, leading to more veteran-owned 
businesses; self-management that will allow the most seriously disabled 
veterans to work in the career of their choosing and live as 
independently as possible; and developing a VA employee innovation 
competition to allow the staff working every day with our veterans to 
identify additional program enhancements. Important partners in the 
self-employment innovation have included the Small Business 
Administration and VA's Office of Small and Disadvantaged Business 
Utilization.
    Another extremely important initiative is the enhancement of the 
VetSuccess.gov Web site to provide a one-stop resource for veterans and 
family members for services during transition, campus life, job search, 
and careers, as well as assistance to maximize independence in their 
homes and communities. The Web site includes a job board for employers 
desiring to hire veterans, resume builders and upload tools that allow 
veterans to utilize resumes already developed, military-to-civilian 
jobs translator, aggregator tools for employers seeking certain skill 
sets and for veterans seeking specific jobs, and a feedback mechanism 
to self-report employment gained through the site. The job-board 
feature of VetSuccess.gov currently connects over 60,000 veterans with 
over 1,300 employers. Veterans also have access through the Direct 
Employers Job Central career board to over 4 million jobs, with 
additional links to Simply Hired, Indeed, and Google. Future 
enhancements to the site will include self-assessment tools and 
interactive maps that drill down to resources in the veteran's 
community.
Conclusion
    VA will continue to seek new and innovative ways to assist veterans 
in achieving their goals for full, productive, and meaningful lives. 
Our focus is on helping veterans build upon the excellent skills gained 
through their military service, while streamlining and enhancing our 
services. VA will continue to work with all sectors of Government and 
private and public employment communities to assist veterans in 
reaching their highest potential in this challenging economy.
    Chairman Stutzman, Ranking Member Braley, and distinguished Members 
of the Subcommittee, this concludes my statement. Thank you again for 
the opportunity to testify. I will be happy to respond to any questions 
from you or other Members of the Subcommittee.

                                 <F-dash>

                     Statement of Hon. Jeff Denham,
       a Representative in Congress from the State of California
    Thank you, Chairman Stutzman, and Ranking Member Braley for having 
this hearing today. I also want to thank our two panels who are here 
today to testify before our Subcommittee. Thank you for your time.
    The Vocational Rehabilitation and Employment (VR&E) Service is a 
crucial service for our veterans. Not only does the VR&E help place 
them in jobs when they return home, but they work to help rehabilitate 
our veterans who sustained wounds and impairments during service. Often 
times these wounds and impairments are life-altering. In addition there 
is the VetSuccess program that offers services to veterans so that they 
can live as independently as possible despite their severe service-
connected disabilities.
    The resources that we provide our veterans through the VR&E are not 
only necessary, but crucial to ensure that they are able to reintegrate 
back into civilian life. The impacts of War on a veteran are damaging 
and can be everlasting. The post deployment transition is nothing short 
of difficult, and can be greatly exacerbated when a servicemember comes 
back from war with a service sustained injury or disability. We have a 
duty in this Committee to make sure that we meet the needs of our 
veterans through the VR&E program and that we do it right.
    We must make sure that the veterans who are eligible to receive the 
services of the VR&E are actually receiving these services and that 
they are effective. The Department of Labor stated that in FY 2010 of 
the 4,989 disabled veterans who completed the VR&E program and who were 
referred to the State Workforce Agencies, only 35 percent were placed 
into employment. This is not acceptable. The VR&E program must be 
improved to further our efforts to help veterans find jobs and to 
ensure they placed in jobs.
    In addition, we must work to make sure that the VR&E system is 
running effectively. With an increase in servicemembers returning home 
from Iraq and Afghanistan, we must make sure that we have the 
infrastructure to provide our VR&E services to these men and women. In 
order to meet the upcoming demands on the VR&E program, the efficiency 
of the program need to be improved. Our veterans cannot have VA 
counselors tied up by filing paperwork instead of helping place them in 
jobs. The VR&E system cannot become backlogged like our disability 
claims are.
    The VR&E program is a crucial program for the success and future of 
our veterans. I look forward to working with my fellow members of this 
Committee to continue to improve the VR&E program and ensure its 
success for our veterans. And with that, I yield back.
                   MATERIAL SUBMITTED FOR THE RECORD

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      April 4, 2011

Ms. Heather L. Ansley, Esq., MSW
Director of Veterans Policy
VetsFirst
1660 L Street, NW, Suite 504
Washington, DC 20036

Dear Ms. Ansley:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Oversight 
Hearing on the VA's Vocational Rehabilitation and Employment (VR&E) 
Program Budget and VR&E National Counseling Contract on March 31, 2011. 
Please answer the enclosed hearing questions and deliverables by no 
later than Monday, May 16, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-
2034. If you have any questions, please call (202) 225-9756.

            Sincerely,

                                                    Bruce L. Braley
                                                     Ranking Member
JL/ot

                               __________

                  VetsFirst, a Program of United Spinal Association
                                                    Washington, DC.
                                                       May 12, 2011

The Honorable Marlin Stutzman
Chairman
Subcommittee on Economic Opportunity
House Committee on Veterans' Affairs
Washington, DC 20515

The Honorable Bruce Braley
Ranking Member
Subcommittee on Economic Opportunity
House Committee on Veterans' Affairs
Washington, DC 20515

Dear Chairman Stutzman and Ranking Member Braley:

    Thank you for the opportunity to testify before the House Committee 
on Veterans' Affairs, Subcommittee on Economic Opportunity regarding 
our views concerning the budget and performance of the Department of 
Veterans Affairs' Vocational Rehabilitation and Employment Services 
program.
    In response to your request, enclosed are responses to the 
questions received for the record.
    If you have any questions, please contact Heather Ansley, Director 
of Veterans Policy, at (202) 556-2076, ext. 7702 or by e-mail at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="97fff6f9e4fbf2eed7e1f2e3e4f1fee5e4e3b9f8e5f0b9">[email&#160;protected]</a>

            Sincerely,

                                       Heather L. Ansley, Esq., MSW
                                        Director of Veterans Policy

                               __________

    Question 1: Do you have any concerns regarding how the VR&E program 
defines and classifies a participant?

    Response: VetsFirst believes that the Department of Veterans 
Affairs' Vocational Rehabilitation and Employment (VR&E) program must 
define and classify participants in the VR&E program to include 
veterans who stop participating in the program. In order to determine 
whether the program is adequately meeting the needs of veterans, VR&E 
must accurately assess who is participating in and benefiting from the 
program. Including veterans who participate in the program but 
subsequently drop out is a better measure of the program's success 
rate.
    An accurate measure of participants would provide VR&E program 
staff and Congress with the information necessary to determine whether 
current programs are functioning appropriately. A proper accounting of 
participants would also assist in the determination of whether 
additional resources are needed to help VR&E better meet the needs of 
veterans with disabilities.

    Question 2: In addition to counselors, what other types of 
employees does VR&E need?

    Response: Although the VR&E program has received an increased 
allocation of employees in recent years, VR&E continues to need 
additional employees to effectively perform its mission. VetsFirst 
supports the staffing recommendations detailed by the Independent 
Budget for the Department of Veterans Affairs for Fiscal Year 2012. 
Specifically, in addition to an increased number of counselors, VR&E 
requires additional personnel to oversee and manage contract counselors 
and rehabilitation and employment service providers.
    Also, VetsFirst supports VR&E's college campus initiative, 
``Veteran Success on Campus.'' VetsFirst believes that this initiative 
should be expanded to additional college campuses to ensure that 
veterans receive the support needed to successfully complete their 
education, which will provide the skills these veterans need to obtain 
appropriate employment. Thus, the VR&E program must receive additional 
staff to appropriately expand this initiative.

    Question 3: In your opinion, has the arbitrary timeline of 12 years 
for eligibility and the caps for independent living impacted veterans?

    Response: VetsFirst believes that the mere existence of the 
arbitrary timeline for eligibility for participation and the placement 
of caps for independent living services negatively impacts veterans. 
Services that assist veterans with disabilities related to their 
service and are designed to promote independence and self-sufficiency 
should be made available as needed. With regard to the cap for 
independent living services, in particular, VR&E must not be hindered 
in assisting veterans who can benefit from those services because they 
are vital to community and family reintegration.

    Question 4: If VA has never exceeded the independent living cap why 
should it be removed?

    Response: Veterans who have significant disabilities related to 
their service must have the opportunity to learn the independent living 
skills that will help them to live in their homes and communities. 
VetsFirst believes that services that support veterans reintegrating 
into their communities should be fully promoted and financially 
supported. Independent living skills are vital to helping veterans with 
disabilities develop new perspectives on how to successfully navigate 
their homes and communities after acquiring a disability.
    Furthermore, as stated in VetsFirst's written testimony, caps may 
lead to delayed entry for some eligible veterans until the next fiscal 
year when additional slots are available. Removal of the cap will 
ensure that services are available as needed and eliminate any negative 
consequences associated with it. Regardless, any argument against 
removing the cap because it has never been exceeded is false because if 
there are no unmet needs, then removing the cap should not result in 
any unintended consequences.

    Question 5: How much money can VA spend to help a veteran start a 
business for self-employment?

    Response: According to VR&E program staff, there is no cost limit 
for the amount of funding that VA can provide to assist an eligible 
veteran start a business for the purposes of self-employment. The Code 
of Federal Regulations discusses cost in the context of differing 
levels of approval based on the cost associated with a veteran's self 
employment plan. Specifically, 38 CFR Sec. 21.258 states that, ``Any 
self-employment plan with an estimated or actual cost of $25,000 or 
more must be approved by the Director, VR&E Service.'' Before 
determining whether any funds should be expended, VR&E determines 
whether in view of a veteran's level of disability, the goal of self-
employment is realistic and economically viable.

    Question 6: How can VA best anticipate the demands for tomorrow's 
workplace?

    Response: VetsFirst believes that VA's VR&E program must prepare 
veterans with disabilities, particularly those with severe 
disabilities, for long-term career success. Consequently, VR&E program 
staff must be aware of employment trends and emerging career fields to 
ensure that veterans are fully aware of the best areas for long-term 
career growth. This includes changing market places, trends in 
telework, and other evolutions that may be particularly important to 
these veterans as people with disabilities.
    In order to ensure that these veterans have the tools they need to 
succeed, VR&E must also be able to perform critical follow up with 
veterans who have been successfully rehabilitated. Remaining abreast of 
the conditions these veterans are facing in the workforce, particularly 
with regard to the barriers faced due to disability, the VR&E program 
can be continually modified to ensure that new participants are staying 
on the cutting of edge of success. This is particularly critical for 
veterans who face significant barriers to employment due to disability 
and workplace misperceptions about the abilities of people who have 
disabilities due to hearing or vision loss, post-traumatic stress 
disorder, traumatic brain injury, and paralysis.

    Question 7: Is there a difference in VR&E completion rates between 
men and women?

    Response: According to VR&E program staff, female participants 
comprised approximately 19 percent of the participants in all VR&E 
programs for fiscal year 2010. Specifically, VR&E reports that 22,135 
female veterans were participants in all VR&E programs during that time 
period as compared with 94,995 male veterans. The number of female 
veterans who VR&E considers to have entered rehabilitated status during 
fiscal year 2010 was 2,096 versus 7,942 male veterans. Thus, female 
veterans comprised nearly 21 percent of all veterans who entered 
rehabilitated status for fiscal year 2010.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      April 4, 2011

Mr. John L. Wilson
Assistant National Legislative Director
Disabled American Veterans
807 Maine Avenue, SW
Washington, DC 20024

Dear Mr. Wilson:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Oversight 
Hearing on the VA's Vocational Rehabilitation and Employment (VR&E) 
Program Budget and VR&E National Counseling Contract on March 31, 2011. 
Please answer the enclosed hearing questions and deliverables by no 
later than Monday, May 16, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-
2034. If you have any questions, please call (202) 225-9756.

            Sincerely,

                                                    Bruce L. Braley
                                                     Ranking Member
JL/ot

                               __________
                Post-Hearing Questions for John Wilson,
   Assistant National Legislative Director of The Disabled American 
                                Veterans
Following the March 31, 2011 Hearing of Committee on Veterans' Affairs 
                 Subcommittee on Economic Opportunity.
                     U.S. House of Representatives
    Question 1: Do you have any concerns regarding how the VR&E program 
defines and classifies a participant?

    Response: To participate in the Department of Veteran Affairs (VA) 
Vocational Rehabilitation and Employment (VR&E) programs, applicants 
must meet certain specific criteria. A veteran must have received, or 
will eventually receive, an honorable or other than dishonorable 
discharge, have a service-connected disability of at least 10 percent, 
need vocational rehabilitation to overcome an employment handicap and 
apply for vocational rehabilitation services. DAV is not aware of any 
concerns regarding how VR&E defines and classifies participants' 
eligibility in order to receive assistance.
    Our concern is with the manner in which VR&E Service defines and 
classifies its participant rehabilitation rates. Counting individuals 
who receive services from VR&E but decide to discontinue the program 
and those who participate in the Independent Living Program would seem 
to inflate the actual success rate of those considered ``fully 
rehabilitated.'' Our concern is in line with the General Accountability 
Office's report from January 2009, VA Vocational Rehabilitation and 
Employment Program, which noted:
          For example, VA reported an overall rehabilitation rate of 76 
        percent for fiscal year 2008. However, when we computed the 
        rates for each group separately, we found that 73 percent of 
        veterans seeking employment were successful and 92 percent of 
        veterans seeking independent living were successful.\1\
    A refining of statistical information that provides separate 
metrics for those who are fully rehabilitated, those who leave the 
program early, and those participating in the Independent Living 
Program would enhance the ability of Congress and others to better 
determine the effectiveness of those services and foster greater 
confidence in policy changes or the need for additional funding.
    Additionally, the current period of eligibility for VR&E benefits 
of 12 years from the date of separation from the military or the date 
the veteran was first notified by VA of a service-connected disability 
rating must be modified. Unfortunately, many veterans do not avail 
themselves of these benefits because they do not understand them or 
they only seek them later in life when their disabilities create an 
employment barrier and would benefit from VR&E services. Unfortunately, 
this later application is often well beyond the 12-year delimiting 
date. If eligibility for this benefit were open ended, then veterans 
would be able to access it on a needs basis over their employable 
lifetimes. In accordance with DAV Resolution 303, we urge Congress to 
change the eligibility delimiting date for VR&E services by eliminating 
the 12-year eligibility period for chapter 31 benefits.

    Question 2: Has the placement of Intensive Service Coordinator by 
DoL in VR&E sites been effective for participants during their 
rehabilitation?

    Response: The Department of Labor (DoL) has placed Intensive 
Service Coordinators (ISCs), on a full or part-time basis, at each of 
the 57 VA Regional Offices (VAROs) to further assist veterans in 
finding and maintaining suitable employment. We are unaware of any 
comprehensive assessments to determine the effectiveness of this 
collaboration beyond a September 2007 GAO report, Disabled Veterans' 
Employment: Additional Planning, Monitoring, and Data Collection 
Efforts Would Improve Assistance. \2\ In this report, GAO visited state 
workforce agencies in Alabama, California, Illinois, Michigan and South 
Dakota. They met with VA and DoL staff, state workforce agency 
officials, and program participants and toured job resource labs and 
one-stop career centers. Based on this research, they noted:
          In all five states, we were told that staff evaluations 
        contained a general category related to teamwork or 
        cooperation, but did not include specific performance measures 
        to evaluate DVOP specialists and VA staff on the effectiveness 
        of their partnership activities. In one state, workforce agency 
        managers told us that they were considering implementing 
        specific performance measures related to the effectiveness of 
        partnership activities.\3\
    As VA's VR&E and DoL's VETS continue in their efforts to enhance 
delivery of services, DAV recommends that both organizations make every 
effort to ensure specific performance measures are established to 
evaluate the effectiveness of placement of DVOP specialist within 
VAROs. Once in place, greater insight into the success of this 
collaboration between DoL and VA would be available to Congress.

    Question 3: Is the VA doing enough for medical and psychological 
rehabilitation to help disabled veterans become gainfully employed?

    Response: In the context of this hearing on the VR&E Service's 
fiscal year 2012 budget, vocational counselors are not assigned the 
role of monitoring a veterans' health care treatment regimen while they 
go through the VR&E program. VR&E instead focuses on the goal of 
helping find gainful employment for veterans who have a service-
connected disability rating of at least 10 percent and a serious 
employment handicap. While they work closely with veterans on this 
goal, an inquiry of several contacts in VAROs confirmed that their 
vocational counselors do not generally monitor veterans' health care 
treatments unless it is directly related to their employability. There 
may be circumstances where clients inform their counselors of their 
health concerns and treatment regimens, but this is on an individual 
basis and does not seem to be typical.
    Vocational counselors interest and monitoring of health care 
treatment related to a veterans employability is in accordance with 
title 38, Section 21.240, Medical treatment, care and services, which 
states, ``A Chapter 31 participant shall be furnished medical 
treatment, care and services which VA determines are necessary to 
develop, carry out and complete the veteran's rehabilitation plan. The 
provision of such services is a part of the veteran's entitlement to 
benefits and services under Chapter 31, and is limited to the period or 
periods in which the veteran is a Chapter 31 participant. (Authority: 
38 U.S.C. 1504, 3107).'' Examples of this care include prosthetic 
appliances, eyeglasses, and other corrective and assistive devices, as 
well as treatment, care, and services described in 38 U.S.C. 3104, 
chapter 17.
    There is currently no provision for VR&E Service to track a 
veteran's health care regimen beyond that which impacts employability. 
It is our understanding however that VR&E does offer joint training to 
their staffs as well as their state vocational rehabilitation partners 
on Traumatic Brain Injury, Post-Traumatic Stress Disorder and other 
veteran-specific disability issues in an effort to improve cross-agency 
coordination of rehabilitation and employment assistance.
---------------------------------------------------------------------------
    \1\ General Accountability Office, VA Vocational Rehabilitation and 
Employment Program, January 2009, GAO-09-34, page 4.
    \2\ GAO report entitled 'Disabled Veterans' Employment: Additional 
Planning, Monitoring, and Data Collection Efforts Would Improve 
Assistance, September 12, 2007, GAO-07-1020.
    \3\ Ibid, page 17.

---------------------------------------------------------------------------
                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      April 4, 2011

Mr. Richard C. Daley
Associate Legislation Director
Paralyzed Veterans of America
801 18th Street, NW
Washington, DC 20006

Dear Mr. Daley:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Oversight 
Hearing on the VA's Vocational Rehabilitation and Employment (VR&E) 
Program Budget and VR&E National Counseling Contract on March 31, 2011. 
Please answer the enclosed hearing questions and deliverables by no 
later than Monday, May 16, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-
2034. If you have any questions, please call (202) 225-9756.

            Sincerely,

                                                    Bruce L. Braley
                                                     Ranking Member
JL/ot

                               __________

                                      Paralyzed Veterans of America
                                                    Washington, DC.
                                                       May 13, 2011

Honorable Bruce L. Braley
Ranking Member
House Committee on Veterans' Affairs
Subcommittee on Economic Opportunity
335 Cannon House Office Building
Washington, DC 20515

Dear Congressman Braley:

    On behalf of Paralyzed Veterans of America (PVA), I would like to 
thank you for the opportunity to present our views during the 
Subcommittee's oversight hearing on the VA's Vocational Rehabilitation 
and Employment Program, March 31, 2011. We are pleased that the 
Subcommittee continues to focus on these issues that are important to 
Paralyzed Veterans of America's members, veterans with disabilities, 
and all the men and women that have honorably served their nation.
    We have included with our letter a response to each of the 
questions that you presented following the hearing on March 31, 2011. 
Thank you very much.

            Sincerely,

                                                         Rich Daley
                                     Associate Legislation Director

                               __________

 Questions for the Record for the House Committee on Veterans' Affairs
                  Subcommittee on Economic Opportunity
                     From Hearing on March 31, 2011
      VA's Vocational Rehabilitation and Employment (VR&E) Program

    Question 1: In your opinion, has the 12 year timeline of 
eligibility had a negative impact on veterans?

    Response: In my opinion the 12 year timeline should be eliminated. 
Some seriously injured veterans, such as spinal cord injured, may take 
three to 4 years or more with rehabilitation and physical therapy to 
begin to realize that there are options for the veteran to participate 
in life activities which can include reentering the work place. Over 
time with therapy from the VA the veteran may relearn to drive an 
adapted vehicle, or obtain a vehicle for someone else to transport them 
to activities or appointments. During these years their eligibility 
period is elapsing. PVA has found that many seriously injured veterans 
become interested in seeking employment after the 12 year period. This 
timeline should be eliminated. We believe that the 48 months maximum of 
VR&E participation is limit enough, so there should be no timeline.

    Question 2: Do you believe that VR&E has too many reports?

    Response: This would be the conclusion one could draw from 
testimony on VR&E's performance over the last 10 years. The verbal and 
written testimony presented at these hearings reveal that VR&E staff 
has too many reports that are mandatory for the professional staff 
while the disabled veteran waits for services.
    The issue of two many reports is also supported by experienced 
counselors that have been employed by the VA's VR&E program. Along with 
too many reports these former employees discussed the issue of the 
duplication or redundancy of many reports that are required. Time 
consumed working on reports reduces the amount of valuable time to work 
with the disabled veterans.

    Question 3: Can you share with this Committee the name and contact 
information of the veteran that was expelled from VR&E for punctuality?

    Response: Due to privacy concerns we cannot share this information.

    Question 4: What are some shortcomings you have seen from 
contractors?

    Response: My knowledge of contractors' performance issues would be 
from past House and Senate Committees on Veterans Affairs oversight 
hearings on VR&E, GAO reports on VR&E, and information from PVA's 
service officers and information from other veterans' service 
organizations.
    PVA would prefer that VA trained and employed counselors could 
provide VR&E counseling and assistance to all veterans that may require 
this help. Within today's budget constraints the VA must rely on using 
contract counseling to provide service in remote areas and in 
situations where the workload has expanded beyond the capacities of the 
existing VA staff. Although we would prefer a VA trained and qualified 
VA staff person to work with disabled veterans at this time we must 
accept this alternative. Past problems such as inconsistency in 
contract performance requirements and inconsistency in the pricing of 
services performed is being addressed by the VA Central Office. The VA 
regional offices must conduct regular oversight of the contracted 
service providers to ensure that every veteran is receiving the quality 
help and guidance they require. In the past we know that in some 
geographic areas the veteran would receive limited services such as 
testing and evaluating work readiness of the veteran, but the contract 
requirements stopped at that point. There was no further employment 
assistance or guidance. In these situations the veteran only received 
part of the needed services. Regional offices must receive regular 
training in contracting services to non VA providers to insure 
consistency along with efficientcy in the procurement of these 
services. VR&E must maintain its responsibility to the veterans it 
serves by monitoring the quality and impact of vocational 
rehabilitation services delivered by non VA agencies.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      April 4, 2011

Mr. John M. McWilliam
Deputy Assistant Secretary for Operations and Management
Veterans' Employment and Training Service
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

Dear Mr. McWilliam:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Oversight 
Hearing on the VA's Vocational Rehabilitation and Employment (VR&E) 
Program Budget and VR&E National Counseling Contract on March 31, 2011. 
Please answer the enclosed hearing questions and deliverables by no 
later than Monday, May 16, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-
2034. If you have any questions, please call (202) 225-9756.

            Sincerely,

                                                    Bruce L. Braley
                                                     Ranking Member
JL/ot

                               __________

                                           U.S. Department of Labor
                              Office of the Assistant Secretary for
                        Congressional and Intergovernmental Affairs
                                                    Washington, DC.

The Honorable Bruce Braley
Ranking Member
Subcommittee on Economic Opportunity
Committee on Veterans' Affairs
U.S. House of Representatives
333 Cannon House Office Building
Washington, DC 20515

Dear Ranking Member Braley:

    Thank you for the opportunity to respond to additional questions 
from your hearing entitled, ``U.S. Department of Affairs Vocational 
Rehabilitation and Employment (VR&E), Program Budget and VR&E National 
Counseling Contract,'' on March 31, 2011 in which the Veterans' 
Employment and Training Service (VETS) testified. Enclosed, we have 
restated the questions in their entirety and provided the respective 
answers.
    If you have further questions, please call Margaret Cantrell at 
(202) 693-4600.

            Sincerely,

                                                   Brian V. Kennedy
Assistant Secretary for Congressional and Intergovernmental Affairs
Enclosures

                               __________

               Veterans' Employment and Training Service,
                        U.S. Department of Labor
             Responses to Questions for the Record from the
               U.S. House Committee on Veterans' Affairs
                  Subcommittee on Economic Opportunity
                             March 31, 2011
 Hearing on ``Vocational Rehabilitation and Employment (VR&E) Program 
             Budget and VR&E National Counseling Contract''
                         Ranking Member Braley
    Question 1: Can you explain how you determine your placement rate?

    Response: The placement rate is calculated as the number of 
Vocational Rehabilitation and Employment (VR&E) participants placed 
into employment by the State Workforce Agencies (SWA) divided by the 
number of participants referred to the SWA.
    The SWAs place participants into employment through services 
provided by Disabled Veterans' Outreach Program specialists (DVOPs) at 
the One-Stop Career Centers. Participants are referred to the SWAs when 
they are determined by their VR&E counselor as job ready and are 
available for employment.

    Question 2: In your written testimony, you mentioned that three 
work groups established in response to the Memorandum of Agreement 
between DoL and VA to help identify major issues with sharing data 
between VA and DoL. What issues were identified? a) How are these 
issues being resolved?

    Response: As background, in November of 2009, VETS began using a 
revised data collection form for Vocational Rehabilitation and 
Employment (VR&E) participant information. The data collected through 
the application of this approved form is shared with the Veteran 
Affairs (VA) VR&E Joint Work Group (JWG) members.
    In June of 2010, VETS facilitated a conference that included 
participation by the Intensive Service Coordinators (ISCs) from the 
State Workforce Agencies, select staff members from VA VR&E, and VETS' 
field staff. The conference focused on the requirements of the 
participant data collection form and the importance of common data 
definitions.
    After collecting participant data from 58 VR&E sites in Fiscal Year 
(FY) 2010, the JWG identified inconsistencies on the use of some 
closure codes used within the data collection form, which tracks the 
level of participant rehabilitation and employment success. To resolve 
these inconsistencies in reporting, the JWG is working together to 
develop, expand, and clarify the closure codes used to measure VR&E 
participants' level of rehabilitation and employment success.

    Question 3: VA states that they expect a 5 percent participation 
increase next year. What percent increase is VETS expecting for the 
next year?

    Response: VETS assumes that the ratio of referrals to participants 
will remain the same next year as it has been in recent years. 
Therefore, if the VR&E participation increases by 5 percent next year, 
VETS would anticipate a corresponding increase of 5 percent in the 
number of referrals from the VA VR&E program for the coming year.

    Question 4: What have been the main obstacles that veterans have 
faced in employment placement?

    Response: In FY 2009 and FY 2010, the principal obstacle faced by 
veterans, as well as all job seekers, has been the reduction in job 
openings that resulted from employers' response to the recent 
recession. However, our programs are aimed at giving veterans the best 
chance possible for reemployment by ensuring that employers are aware 
of the benefits of hiring a veteran and helping veterans translate 
their military skills into skills for civilian jobs.

    Question 5: In your written testimony, you mentioned that the 
Intensive Service Coordinators refer VR&E participants to services at 
the end of the program. Why can't the Intensive Service Coordinators 
begin providing intensive services to VR&E participants before they 
finish the program to expedite services?

    Response: The Intensive Services Coordinators (ISCs) do provide 
services to participants throughout the participant's VR&E program. The 
services mentioned in the testimony refer to the actual referral to a 
Disabled Veterans' Outreach Program (DVOP) in the OSCC. In December 
2008, VETS and the VA jointly published a Technical Assistance 
Guidance, which requires those VR&E participants considered by their VA 
counselor as ``Job Ready'' are to be referred to the ISC sixty days 
prior to completion of their training program. Job Ready refers to 
those participants who are determined by their counselor to be ready, 
willing, and able to participate in job development activities. This 
allows DVOP specialists to start working with VR&E participants prior 
to the completion of their training.
    Additionally, VETS is collecting data on those veterans who are 
referred to the ISC at the very beginning of their participation in 
VR&E, so that they can receive labor market information in conjunction 
with the development of their training plans. This is intended to 
improve veterans' chances of obtaining suitable employment in an 
occupation that is projected to experience future growth.

    Question 6: What type of employment are disabled veterans who have 
completed VR&E generally placed in?

    Response: For FY 2010, VA VR&E data indicate that over three-
fourths of the disabled veterans who enter employment after completing 
services covered under title 38 USC Chapter 31 are placed in 
professional, technical and managerial occupations, and that over half 
of the disabled veterans who enter employment are placed in occupations 
in the private sector. Chapter 31 is intended to provide for all 
services and assistance necessary to enable veterans with service-
connected disabilities to achieve maximum independence in daily living 
and, to the maximum extent feasible, to become employable and to obtain 
and maintain suitable employment.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      April 4, 2011

Ms. Ruth A. Fanning
Director Vocational Rehabilitation and Employment Service
Veterans Benefits Administration
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Ms. Fanning:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Oversight 
Hearing on the VA's Vocational Rehabilitation and Employment (VR&E) 
Program Budget and VR&E National Counseling Contract on March 31, 2011. 
Please answer the enclosed hearing questions and deliverables by no 
later than Monday, May 16, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-
2034. If you have any questions, please call (202) 225-9756.

            Sincerely,

                                                    Bruce L. Braley
                                                     Ranking Member
JL/ot

                               __________

                        Questions for the Record
               The Honorable Bruce Braley, Ranking Member
                  House Committee on Veterans' Affairs
                  Subcommittee on Economic Opportunity
     ``VA's Vocational Rehabilitation and Employment (VR&E) Program
             Budget and VR&E National Counseling Contract''
                             March 31, 2011
    Question 1: VSOs have expressed concern over the inconsistent 
interpretation of regulations across VA. Is this a concern for you and 
is it being addressed?

    Response: VR&E Service believes that regulations should be clearly 
written and easily understood by all employees and stakeholders. To 
ensure this, VR&E provides a comprehensive training program. VR&E has 
formed a workgroup with the Office of General Counsel to address any 
existing lack of clarity or inconsistency in regulations governing our 
program.
    VR&E is currently drafting regulations to implement new legislation 
and address emergent issues, including:

    <bullet>  Implementation of Public Law 111-377 (Post-9/11 Veterans 
Educational Assistance Improvement Act of 2010), which provides for 
election of housing allowance in lieu of subsistence allowance and 
eliminates interval pay; and
    <bullet>  Defining rules for establishing rate of pursuit for 
subsistence allowance in programs combining academic training with non-
paid work experience training.

    VR&E is also conducting a comprehensive review and revision of the 
Code of Federal Regulations Part 21, Subpart A. VR&E-related 
regulations will be re-written to increase the use of plain language 
and improve benefits service delivery. Some of the topics that have 
been identified for revision include:

    <bullet>  Updates to travel reimbursements under Chapter 31,
    <bullet>  Incorporation of flight-training rules into Chapter 31 
regulations,
    <bullet>  Medical services for Chapter 31 participants, and
    <bullet>  Employment services for previous participants of 
rehabilitation programs.

    Question 2: In the hybrid rehabilitation plans that have been done, 
can you tell us how many hours per day veterans are working?

    Response: VR&E focuses on services that are holistic in nature, 
incorporating both employment and independent living (IL) services as 
needed rather than a predefined number of hours. Services are geared 
toward an employment goal and also address identified IL needs. Thus, 
VR&E does not track veteran work hours per day as a reporting 
statistic.
    Veterans participating in hybrid plans often require training to 
acquire the skills necessary for suitable employment. When veterans 
complete their training and become ready for employment, they are 
assisted in maximizing their potential for their return to the 
workplace. Veterans may work full or part-time depending on their 
capabilities and specific preferences; however, the goal of hybrid 
plans is for veterans to enter full-time competitive employment.

    Question 3: The expansion to the Integrated Disability Evaluation 
System (IDES) Program that will include a component on VR&E services 
for those active duty servicemembers transitioning through the IDES 
will require an additional 110 FTE to support. The budget has requested 
$16.2 million to cover this increase. Given the big plan to expand IDES 
to all Military Treatment Facilities by the end of FY 2011, do you 
believe the additional 110 FTE is enough to meet the demand?

    Response: In FY 2011, VR&E will provide transition services to 
active duty servicemembers at four military installations. VR&E Service 
is collaborating with DoD for implementation at these four facilities. 
The additional 110 FTE will allow VR&E to aggressively stand up IDES 
services at many additional sites by the end of FY 2012, but will not 
fully support all sites during this initial phase. Staffing levels will 
be reassessed in FY 2012 to ensure VR&E can support the needs of 
servicemembers transitioning through IDES.

    Question 4: According to a recent CRS report titled, ``Veterans' 
Benefits: The Vocational Rehabilitation and Employment Program'' 
approximately 25,000 active duty servicemembers are found ``not fit for 
duty'' due to medical conditions that may qualify them for a VA 
disability rating and VR&E Services. How many veterans apply to VR&E 
yearly?

    Response: Over the past three fiscal years, VR&E received an 
average of 72,215 applications annually. Below is a breakdown of the 
number of applications received for the past three fiscal years:

    <bullet>  FY 2010-69,570
    <bullet>  FY 2009-78,127
    <bullet>  FY 2008-68,948

    Question 4(a): What may prevent all 25,000 from applying to VR&E 
services?

    Response: VR&E is not a mandatory program. Veterans may elect to 
immediately enter employment, utilize VA education benefits, or to take 
time to decompress following active duty service. To ensure all 
servicemembers and veterans are aware of benefits to which they are 
entitled, VR&E has placed more emphasis on outreach activities. VR&E 
provides extensive outreach and early intervention services through the 
Coming Home to Work (CHTW) program. Under this program, full-time VR&E 
rehabilitation counselors are assigned to 13 military treatment 
facilities to assist disabled servicemembers in planning for their next 
careers. VR&E also has CHTW coordinators working with the network of 
Warrior Transition Units, participating in coming-home events, and 
providing outreach at Guard and Reserve Yellow Ribbon events, Post 
Deployment Health Reassessments, and DTAP sessions.
    VR&E rehabilitation counselors at selected IDES sites provide 
separating servicemembers with a mandatory initial counseling session, 
followed by continued vocational services for servicemembers that elect 
to participate in the VR&E program. Initial meetings will inform 
servicemembers of the availability of benefits and services through the 
VR&E and VA education programs. In many cases, this allows training and 
preparatory services to begin while the servicemember is still in the 
IDES process.
    VR&E Service is also modernizing the Disabled Transition Assistance 
Program (DTAP) to tailor program content to servicemember and veteran 
audiences. DTAP will be available in multiple channels, making it 
readily accessible to servicemembers, veterans, and family members on a 
``just-in-time'' basis.

    Question 5: How many Full-Time Vocational Rehabilitation Counselors 
and Part-Time Vet Center Outreach Coordinators are there at each 
VetSuccess on Campus site?

    Response: There are seven VetSuccess on Campus counselors and seven 
Vet Center Coordinators for the eight VetSuccess on Campus locations. 
The VetSuccess on Campus counselor in Rhode Island is responsible for 
providing services at two college campuses.

    Question 6: How much money can VA spend to help a veteran start a 
business?

    Response: Services are based on a realistic self-employment goal, 
economic viability, and severity of the veteran's service-connected 
disability. There is no cost limit. However, there are specific 
approval requirements for costs exceeding $25,000.
    In addition, VA's Office of Small and Disadvantaged Business 
Utilization (OSDBU) and its Center for Veterans Enterprise (CVE) 
provide technical business assistance, coaching support, and referrals 
to local non-VA resources, such as the Small Business Administration, 
Small Business Development Centers (SBDCs), Procurement Technical 
Assistance Centers (PTACs), or Veterans Business Outreach Centers 
(VBOCs). OSDBU and CVE can refer entrepreneurs for assistance on 
developing business plans, information on business loans, and advice on 
contracting with Federal agencies where appropriate. CVE works with the 
service-disabled veterans to ensure they are also working with a VR&E 
counselor. OSDBU costs would be included within program administration 
costs and not as part of a discrete cost (e.g., costs to counsel a 
veteran entrepreneur on the phone would be covered by the salary cost 
of the staff person providing the counseling). SBA costs would be 
covered by its own appropriations. Technical assistance centers such as 
SBDCs and PTACs are grantees and the costs of counseling would be 
covered by their grants.

    Question 6(a): In the past what have these start-up enterprises 
consisted of and are any still in business today?

    Response: Start-up enterprises vary based on the individual 
veteran's needs. Below are a few examples for which VR&E has provided 
self-employment funding:

    <bullet>  Law Firm;
    <bullet>  Carpenter Shop;
    <bullet>  Automotive Repairs and Sales;
    <bullet>  Medical Billing;
    <bullet>  Winter Sports Equipment Shops;
    <bullet>  Printing Shops;
    <bullet>  Restaurants; and
    <bullet>  Barber Shops.

    To ensure that the veteran meets the objectives of the self-
employment goal, resources may be provided for:

    <bullet>  Equipment, inventory, and supplies,
    <bullet>  Training necessary to own and operate a successful 
business, and
    <bullet>  Licenses and permits.

    VR&E counselors provide follow-up services to self-employed 
veterans for at least 1 year after the start-up of the business. 
However, once the counselor determines that the veteran's business is 
successful and meets the criteria for successful closure as 
``rehabilitated,'' no further follow up occurs. Therefore, information 
on the number of veteran enterprises currently in business is not 
available.
    As mentioned in testimony, VR&E places great emphasis on assisting 
veterans with business start-up through business incubator, on-line 
resources, and business coaches. VR&E also provides extensive training 
and ancillary services through partnerships with the Center for 
Veterans Enterprise, the Small Business Administration, the Department 
of Labor, and SCORE.
    OSDBU and CVE can refer entrepreneurs for assistance on developing 
business plans, information on business loans, and advice on 
contracting with Federal agencies where appropriate. CVE works with the 
service-disabled veterans to ensure they are also working with a VR&E 
counselor.

    Question 7: When the National Counseling Contract is completed what 
percent of work will be done by VA employees versus non-VA employees?

    Response: VetSuccess contracts are indefinite delivery/indefinite 
quantity agreements that allow regional offices to procure contracting 
services as needed to supplement services provided by VR&E 
professionals. The VR&E program's workload is comprised of 107,000 
veterans' cases. All cases are assigned to Vocational Rehabilitation 
Counselors (VRCs) that are VA employees. Contract counselors provide 
additional support to VRCs, but all decisions related to veterans' 
benefits are inherently governmental and must be made by VRCs. Based on 
historical data, approximately 15 percent of cases assigned to VRCs 
also receive ancillary services from contract counselors.

    Question 8: Can you elaborate on the work VR&E is doing with the 
Rehabilitation Services Administration?

    Response: VR&E Service works collaboratively with the Department of 
Education's Rehabilitation Services Administration (RSA) to advance, 
improve, and expand the employment opportunities for veterans with 
disabilities.
    The successful readjustment of veterans with disabilities into the 
civilian workforce is the mutual responsibility and concern of VR&E 
Service and RSA. Both agencies are committed to working together to 
improve successful employment outcomes to our Nation's veterans. VR&E 
and RSA share information and coordinate activities to carry out and 
support mutual objectives such as:

    <bullet>  Develop and disseminate national guidance about statutory 
requirements of the VR&E Program and the public vocational 
rehabilitation program and identify opportunities for partnership;
    <bullet>  Exchange information about best practices and joint 
service provisions at the local levels, to include local-level pilot 
programs and existing local-level collaborations;
    <bullet>  Attend national meetings and training conferences for the 
purpose of familiarizing both parties with the services, requirements, 
best practices, and issues relating to collaboration at the local 
level; and
    <bullet>  Assign staff to participate in workgroups on topics of 
mutual interest such as participation in RSA Institutes of 
Rehabilitation Issues prime study groups.

    VR&E is also completing a national memorandum of agreement (MoA) 
with RSA to be signed by May 31, 2011. This MoA will emphasize and 
support the establishment of more local-level MoAs between VR&E staff 
in VBA regional offices and State vocational rehabilitation agencies in 
the future. VR&E is conducting a pilot study with three State 
vocational rehabilitation agencies through local-level MoAs. The pilot 
was launched on February 11, 2010, in Atlanta; June 11, 2010, in St. 
Louis; and October 14, 2010, in Seattle. The pilot focuses on providing 
services to veterans with visual impairments.
    VR&E also works collaboratively with the Council of State 
Administrators of Vocational Rehabilitation's National Employment Team 
(CSAVR-NET). The Director of VR&E Service participated in a recent 
CSAVR-NET conference to initiate a Veterans' Committee, and CSAVR-NET 
has provided VR&E with a partnership award.

    Question 9: In FY 2010, the performance measure target for VR&E was 
76 percent, yet the FY 2012 performance measure target only increased 
to 77 percent, why such a low performance target increase?

    Question 9(a): If the strategic target goal is 80 percent why not 
increase it to 80 percent?

    Response: VR&E has established an 80 percent performance target for 
FY 2014, which is a significant change from the performance measure of 
76 percent in FY 2010. The interim step of 77 percent for FY 2011 was 
established due to several factors such as rising caseload sizes and 
increasingly complex disability needs. Newly injured veterans are 
returning with multiple and complex needs, while the aging veteran 
population has changing disability limitations. Additionally, the 
current unemployment rate of 8.8 percent creates further challenges and 
suggests that interim goals would aid in achieving the 80 percent 
target by 2014.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
